No. __-____
IN THE

Supreme Court of the United States
>>>>

UNITED STATES OF AMERICA, ex rel.,
INTEGRA MED ANALYTICS, L.L.C.,
Petitioner,
v.

BAYLOR SCOTT & WHITE HEALTH;
BAYLOR UNIVERSITY MEDICAL CENTER–DALLAS;
HILLCREST BAPTIST MEDICAL CENTER;
SCOTT & WHITE HOSPITAL–ROUND ROCK;
SCOTT & WHITE MEMORIAL HOSPITAL TEMPLE,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

October 26, 2020

P. Jason Collins
Counsel of Record
Jeremy H. Wells
Morgan M. Menchaca
REID COLLINS & TSAI LLP
Counsel for Petitioner
1301 South Capital of
Texas Highway
Building C, Suite 300
Austin, Texas 78746
512-647-6100
jcollins@reidcollins.com

i
QUESTIONS PRESENTED
Numerous circuits have held that a relator may
state a claim under the False Claims Act, 31 U.S.C.
§§ 3729-32 (the “FCA”), by alleging “particular
details of a scheme to submit false claims paired
with reliable indicia that lead to a strong inference
that claims were actually submitted.” U.S. ex rel.
Grubbs v. Kanneganti, 565 F.3d 180, 190 (5th Cir.
2009). In U.S. ex rel. Customs Fraud Investigations, LLC v. Victaulic Co., the Third Circuit found
that a relator may plausibly allege reliable indicia
of the submission of false claims through the use of
statistical analyses. 839 F.3d 242, 256-58 (3d Cir.
2016).
1. In using statistical analyses to meet federal
pleading standards, to what extent must a relator
exclude possible alternative explanations for
alleged misconduct?
2. Did the Fifth Circuit err when it failed to credit Petitioner’s statistical analyses because of what
it perceived to be an “obvious alternative explanation,” even though the relator pleaded facts tending
to exclude the court’s explanation?

ii
PARTIES TO THE PROCEEDING
Petitioner Integra Med Analytics, L.L.C., is a
Texas limited liability company with its principal
place of business in the State of Texas.
Respondent Baylor Scott & White Health is a corporation with its principal place of business in the
State of Texas.
Respondent Baylor University Medical Center –
Dallas is a corporation with its principal place of
business in the State of Texas.
Respondent Hillcrest Baptist Medical Center is a
corporation with its principal place of business in
the State of Texas.
Respondent Scott & White Hospital – Round
Rock is a corporation with its principal place of
business in the State of Texas.
Respondent Scott & White Memorial Hospital –
Temple is a corporation with its principal place of
business in the State of Texas.
CORPORATE DISCLOSURE STATEMENT
Petitioner Integra Med Analytics L.L.C. has no
parent corporation, and no publicly held corporation owns 10% or more of its stock.

iii
TABLE OF CONTENTS
Page

QUESTIONS PRESENTED ..........................

i

PARTIES TO THE PROCEEDING ...............

ii

CORPORATE DISCLOSURE
STATEMENT ...........................................

ii

TABLE OF AUTHORITIES ..........................

vii

INTRODUCTION ..........................................

1

DECISIONS BELOW ....................................

4

STATEMENT OF JURISDICTION...............

4

RULES INVOLVED ......................................

4

STATEMENT OF THE CASE.......................

5

A. Factual Background ..........................

5

B. Procedural Background .....................

13

REASONS FOR GRANTING
THE PETITION .......................................

15

I. The Fifth Circuit’s opinion below
heightens the pleading standard
for FCA claims set out by the
Third Circuit ............................................

15

iv
Page

A. The Third and Fifth Circuits
are split on the inferences
that should be drawn from
statistical analyses used by
FCA relators to allege reliable
indicia of fraud ..................................

16

B. The ruling below underscores
a deepening split across
numerous circuits regarding
the meaning of Iqbal and
Twombly’s reference to “obvious
alternative explanations.” .................

20

II. No matter what importance is
given to “obvious alternative
explanations,” the decision below
is wrong. ...................................................

26

CONCLUSION ..............................................

30

APPENDIX
Appendix A:
Opinion
(U.S. Court of Appeals for the
Fifth Circuit, May 28, 2020)..............

1a

Appendix B:
Judgment
(U.S. Court of Appeals for the
Fifth Circuit, June 19, 2020).............

18a

v
Page(s)

Appendix C:
Order Granting Defendants’
Motion to Dismiss
(U.S. District Court,
Western District of Texas,
Aug. 5, 2019)......................................

37a

Appendix D:
Judgment in a Civil Action
(U.S. District Court,
Western District of Texas,
Aug. 6, 2019)......................................

54a

Appendix E:
Second Amended Complaint
[redacted]
(U.S. District Court,
Western District of Texas,
Aug. 8, 2018)......................................

56a

Appendix F:
Stipulation to Maintain
Confidentiality of the
Unredacted Second Amended
Complaint (U.S. District Court,
Western District of Texas,
Aug. 22, 2018)....................................

143a

vi
Page(s)

Appendix G:
Order Granting Stipulation to
Maintain Confidentiality of the
Unredacted Second Amended
Complaint Filed Under Seal
(U.S. District Court,
Western District of Texas,
Aug. 23, 2018)....................................

148a

vii
TABLE OF AUTHORITIES
Page(s)

Cases
Am. Fed’n of Gov’t Employees Local 1
v. Stone,
502 F.3d 1027 (9th Cir. 2007) ..................

18

Ashcroft v. Iqbal,
556 U.S. 662 (2009) .......................18, 19, 20, 26
Auto. Alignment & Body Serv., Inc.
v. State Farm Mut. Auto. Ins. Co.,
953 F.3d 707 (11th Cir. 2020) ..................

24

Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007) .......................20, 21, 22, 23
Braden v. Wal-Mart Stores, Inc.,
588 F.3d 585 (8th Cir. 2009) ...............22, 23, 26
Ebeid ex rel. United States v. Lungwitz,
616 F.3d 993 (9th Cir. 2010) ....................

1

Eclectic Properties E., LLC v.
Marcus & Millichap Co.,
751 F.3d 990 (9th Cir. 2014) .................... 24, 26
Evans v. Chalmers,
703 F.3d 636 (4th Cir. 2012) ....................

26

Foglia v. Renal Ventures Mgmt., LLC,
754 F.3d 153 (3d Cir. 2014) .....................

1

In re U.S. Office of Personnel Management
Data Security Breach Litigation,
928 F.3d 42 (D.C. Cir. 2019) ....................

22

viii
Page(s)

New Jersey Carpenters Health Fund v.
Royal Bank of Scotland Group, PLC,
709 F.3d 109 (2d Cir. 2013) ..................... 21, 22
U.S. ex rel. Customs Fraud
Investigations, LLC v. Victaulic Co.,
839 F.3d 242 (3d Cir. 2016) .....................passim
U.S. ex rel. Customs Fraud
Investigations, LLC v. Victaulic Co.,
No. 13-2983, 2015 WL 1608455
(E.D. Pa. Apr. 10, 2015) ...........................

19

U.S. ex rel. Duxbury v.
Ortho Biotech Prod., L.P.,
579 F.3d 13 (1st Cir. 2009) ......................

1

U.S. ex rel. Grubbs v. Kanneganti,
565 F.3d 180 (5th Cir. 2009) ....................

1, 15

U.S. ex rel. Heath v. AT & T, Inc.,
791 F.3d 112 (D.C. Cir. 2015) ..................

2

U.S. ex rel. Lemmon v.
Envirocare of Utah, Inc.,
614 F.3d 1163 (10th Cir. 2010) ................

1

United States v. Griswold,
24 F. 361 (D. Or. 1885) ............................

1

Vila v. Inter-Am. Inv. Corp.,
570 F.3d 274 (D.C. Cir. 2009) ..................

26

Watson Carpet & Floor Covering, Inc.
v. Mohawk Indus., Inc.,
648 F.3d 452 (6th Cir. 2011) ....................

24

ix
Page(s)

Woods v. City of Greensboro,
855 F.3d 639 (4th Cir. 2017) .................... 24, 28
Statutes
28 U.S.C. § 1254(1) ........................................

4

31 U.S.C. § 3729(a)(1) ...................................

13

Rules
Federal Rule of Civil Procedure 8(a) .............passim
Federal Rule of Civil Procedure 9(b) .............passim
Federal Rule of Civil Procedure 12(b)(6) ...13, 17, 20
Other Authorities
AHIMA, Guidelines for Achieving a
Compliant Query Practice (2019),
available at https://bit.ly/3kkqiuP. ..........

8

CMS, ICD-10-CM Official Guidelines,
available at https://go.cms.gov/
31J2BoZ....................................................

8

CMS Manual Sys., Pub. 100-10
Medicare Quality Improvement
Organization, Oct. 10, 2014,
available at https://goo.gl/RBNCau. ........

30

x
Page(s)

Press Release, U.S. Dept. of Justice,
Good Samaritan Hospital Agrees
to Pay $793,548 to Settle FCA
Allegations (Mar. 28, 2012),
available at https://goo.gl/5tshx2. ............

30

Press Release, U.S. Dept. of Justice,
Prime Healthcare Services and
CEO to Pay $65 Million to Settle
False Claims Act Allegations
(Aug. 3, 2018), available at
https://bit.ly/3ogPJQv...............................

29

S. Rep. No. 99-345.........................................

1

Statement of Hon. Charles E. Grassley,
False Claims Act Implemen-tation,
Subcomm. On Admin. Law and Govt’l
Relations of the Jud. Comm., 101st
Cong. (1990) ............................................

1

INTRODUCTION
The FCA is a remedial statute intended to “protect the Treasury against the hungry and unscrupulous host that encompasses it on every side.”
S. Rep. No. 99-345, at 11 (1986) (quoting United
States v. Griswold, 24 F. 361, 366 (D. Or. 1885)).
Congress passed the FCA’s qui tam provisions to
“encourage[ ] and expand[ ] citizen involvement” in
the FCA to people with unique experience and
expertise, and to “deputize more ‘private attorneys
general’ in the war on fraud.” Statement of Hon.
Charles E. Grassley, False Claims Act Implementation, Subcomm. On Admin. Law and Govt’l
Relations of the Jud. Comm., 101st Cong. 1-2
(1990). Recognizing that relators typically do not
have access to evidence proving all elements of an
FCA claim, numerous circuits have held that a
relator may meet its pleading obligations under
Federal Rules of Civil Procedure 8 and 9(b) by
alleging “particular details of a scheme to submit
false claims paired with reliable indicia that lead to
a strong inference that claims were actually submitted.” U.S. ex rel. Grubbs v. Kanneganti, 565
F.3d 180, 190 (5th Cir. 2009).1
1

The First, Third, Ninth, Tenth, and District of Columbia
Circuits have since expressly adopted this relaxed pleading
standard first set out in Kanneganti. U.S. ex rel. Duxbury v.
Ortho Biotech Prod., L.P., 579 F.3d 13, 29 (1st Cir. 2009);
Foglia v. Renal Ventures Mgmt., LLC, 754 F.3d 153, 156-57
(3d Cir. 2014); Ebeid ex rel. United States v. Lungwitz, 616
F.3d 993, 998-99 (9th Cir. 2010); U.S. ex rel. Lemmon v.
Envirocare of Utah, Inc., 614 F.3d 1163, 1172 (10th Cir.

2
With large amounts of data becoming increasingly accessible in a wide array of industries, FCA
relators like Integra Med Analytics L.L.C.
(“Integra”) have looked to data analytics as an
important tool in establishing such indicia. Integra
filed this action based on exhaustive econometric
analyses of Medicare claims data coupled with a
factual investigation indicating that Respondent
Baylor Scott & White Health and its affiliated hospitals (together, “BSW”) engaged in a scheme to
“upcode” Medicare claims. This scheme included
training doctors to diagnose patients in a particular way to allow for favorable coding, and issuing
leading queries that pressured doctors to change
previous diagnoses if they ignored their training.
Integra’s allegations are confirmed by quantitative
analyses that not only demonstrate the scope of
BSW’s fraud, but also mathematically exclude
innocent explanations.
The seminal case on meeting the Kanneganti
standard through statistical analyses coupled with
factual allegations—which also involved a noninsider relator like Integra—found an FCA claim to
be well pleaded based on far less factual detail supported by far less robust statistical analyses than
those offered by Integra. U.S. ex rel. Customs
Fraud Investigations, LLC v. Victaulic Co., 839
F.3d 242, 256-58 (3d Cir. 2016). In that case, the
Third Circuit rejected calls from the dissent to
essentially conduct a non-evidentiary Daubert
2010); U.S. ex rel. Heath v. AT & T, Inc., 791 F.3d 112, 126
(D.C. Cir. 2015).

3
review of the reliability of the relator’s analysis.
That is precisely what the Fifth Circuit panel did
below in dismissing Integra’s claims. The court
seized on a contested “obvious alternative explanation” of complex data based on its own interpretation of 3 graphs among the 28 graphs in Integra’s
complaint.
This signals an impossible standard for FCA
relators relying in part on statistical analyses, as
they would need to anticipate and rule out every
possible alternative explanation that a judge may
deem “obvious” without any discovery, hearing, or
trial. Worse still, the panel below either completely
discounted or simply ignored factual allegations
and other statistical indications that refuted the
court’s theory. Integra drew these allegations from
an exhaustive, multifaceted investigation involving
interviews of former employees, internal training
documents and presentations, as well as an analysis of millions of Medicare records. This dwarfs the
small sample of 221 records that formed the basis
of the claims brought by the relator in Victaulic.
Certiorari is thus necessary to ensure that a relator in part relying on statistical analyses to demonstrate reliable indicia of the submission of false
claims does not face a far higher pleading standard
in the Fifth Circuit than a similarly situated relator in the Third Circuit. Certiorari is also necessary to correct the Fifth Circuit’s error in assessing
Integra’s statistical analyses in a vacuum, without
considering whether Integra’s additional factual

4
allegations tend to exclude the panel’s proposed
“obvious alternative explanation.”
DECISIONS BELOW
The opinion of the United States Court of
Appeals for the Fifth Circuit affirming the United
States District Court for the Western District of
Texas’s judgment is reported in the Federal
Appendix at 816 F. App’x 892. See also App. 1a–
36a. The District Court’s order granting BSW’s
motion to dismiss is unreported, but it may be
found at No. 5:17-CV-886-DAE, 2019 WL 3713756.
See also App. 37a–53a.
STATEMENT OF JURISDICTION
On May 28, 2020, the Fifth Circuit issued an
opinion affirming the District Court’s decision to
grant BSW’s motion to dismiss. On March 19, 2020,
this Court issued Order 589, which extended the
deadline to file any petition for a writ of certiorari
to 150 days from the date of the lower court judgment. The Court’s jurisdiction is invoked under
28 U.S.C. § 1254(1).
RULES INVOLVED
Federal Rule of Civil Procedure 8(a) states:
Rule 8. General Rules of Pleading
(a) CLAIM FOR RELIEF. A pleading that states a
claim for relief must contain: (1) a short and plain

5
statement of the grounds for the court’s jurisdiction, unless the court already has jurisdiction and
the claim needs no new jurisdictional support; (2) a
short and plain statement of the claim showing
that the pleader is entitled to relief; and (3) a
demand for the relief sought, which may include
relief in the alternative or different types of relief.
Federal Rule of Civil Procedure 9(b) states:
Rule 9. Pleading Special Matters
(b) FRAUD OR MISTAKE; CONDITIONS OF MIND. In
alleging fraud or mistake, a party must state with
particularity the circumstances constituting fraud
or mistake. Malice, intent, knowledge, and other
conditions of a person’s mind may be alleged generally.
STATEMENT OF THE CASE
A. Factual Background
Medicare makes payments for each inpatient
hospital stay in an amount designed to cover the
average cost of resources needed to treat each
patient’s needs. App. 63a, ¶ 17. Providers code each
claim, and Medicare then assigns the claim to a
diagnosis related group (“DRG”) comprising claims
of similar conditions that are expected to require
similar resources. Id. The Centers for Medicare
and Medicaid Services (“CMS”) publishes a list of
secondary codes each year that can be added to a
DRG as a Complication or Comorbidity (“CC”) or
Major Complication or Comorbidity (“MCC”). App.

6
64a, ¶ 19. Adding a CC or MCC to a claim increases
the severity level of its DRG and thus increases the
amount Medicare pays on the claim. App. 64-65a,
¶ 19. Integra’s investigation uncovered how BSW
systematically applied unwarranted CCs and
MCCs to falsely inflate their Medicare revenue.
App. 58a, ¶ 1. Integra confirmed these findings
with exhaustive quantitative, statistical, and
econometric analyses. App. 80-139a, ¶¶ 40-109.
1. Integra alleges that BSW’s clinical documentation improvement (“CDI”) program—which is
supposed to promote accurate documentation and
coding—in fact sought to inflate BSW’s Medicare
revenue through upcoding claims with unwarranted CCs and MCCs. App. 65a, ¶ 20. These efforts
began with training doctors and staff to focus on
documenting diagnoses that allow MCCs. App. 6770a, ¶¶ 23-26. When doctors failed to diagnose an
MCC, BSW’s CDI specialists pressured doctors to
change their original diagnoses to document MCCs.
App. 70-77a, ¶¶ 27-36. BSW even routinely offered
unnecessary medical services to allow for the coding of profitable MCCs. App. 78-79a, ¶¶ 37-39.
BSW’s CDI program focused doctors on infusing
diagnoses with key words that allowed for coding
MCCs rather than focusing on accuracy. App. 67a,
¶ 23. These so-called “magic words” included
“encephalopathy” and “acute respiratory failure”—
two MCCs that Integra identified as being misapplied by BSW. App. 68a, ¶ 24. Management emphasized that complying with these efforts would
increase doctors’ salaries, stating “Your hospital

7
data will determine your income!” App. 69a, ¶ 25.
They asked doctors, “Do you want to ‘see one more
patient’ or take one minute to improve your documentation ???,” suggesting that using management’s “magic words” would generate more revenue
than seeing an additional patient. Id. BSW also
provided doctors with tip sheets called “Teal
Quickies” that pushed doctors to clinically document patient services in a way that maximized
Medicare revenue. App. 69-70a, ¶ 26. For instance,
in training doctors how to document altered mental
status (“AMS”), BSW encouraged the diagnosis of
encephalopathy (an MCC) or acute delirium (a CC),
explaining that these secondary codes increased
the patient’s “severity of illness” and thus Medicare
reimbursement. Id. As a clear indication of fraudulent intent, the Teal Quickie included “J” next to
the instruction to use the MCC codes when noting
that non-MCC items could very well be the actual
cause of the noted condition. Id. With this reference, BSW explicitly encouraged its doctors to use
MCCs even when they were not warranted and to
laugh about it. BSW’s training was thus a one-way
ratchet to promote the use of revenue-increasing
MCCs—after all, if BSW was truly concerned with
accuracy, it would have also encouraged doctors to
use non-MCC and non-CC codes where warranted.
When doctors ignored this training, CDI staff
worked to change the resulting diagnoses. App. 7077a, ¶¶ 27-36. Hospitals are not allowed to apply a
CC or MCC unless it is sufficiently documented in
the patient’s medical files. Where medical files are

8
unclear, hospitals may send doctors “queries” for
clarification. The American Health Information
Management
Association
(“AHIMA”)—which
approves CMS coding guidelines2—prohibits CDIs
from issuing leading queries directing doctors to
code in a specific way to allow “the provider of
record [to] unbiasedly respond with a specific diagnosis or procedure.”3 BSW ignored these guidelines, issuing “documentation clarification sheets”
that reveal a clear intent to influence doctors to
code the same CCs and MCCs identified by Integra
to have been used excessively by BSW. App. 7174a, ¶¶ 28-31. BSW similarly prompted doctors to
document CCs and MCCs with post-surgery
progress notes that encouraged particularly
uncommon pairings. App. 74a, ¶ 32. For instance,
in progress notes for plastic surgery patients, BSW
gave doctors a multiple-choice option to include
severe protein calorie malnutrition. Id. Integra’s
analysis shows that the BSW’s rate of severe protein malnutrition in plastic surgery claims dwarfs
the national rate. App. 75a, ¶ 33. A staggering
6.56% of the plastic surgery patients treated by
three BSW hospitals were assigned severe proteincalorie malnutrition—over 8 times the national
average. Id.
2

CMS, ICD-10-CM Official Guidelines at 1, available at
https://go.cms.gov/31J2BoZ (listing AHIMA as a Cooperating
Partner).
3

AHIMA, Guidelines for Achieving a Compliant Query
Practice (2019), available at https://bit.ly/3kkqiuP.

9
In addition to using written queries leading doctors to document CCs and MCCs, BSW also exerted
verbal pressure to influence doctors. App. 75-76a,
¶¶ 34-35. For example, Integra found that CDI staff
repeatedly sought to pressure doctors to record
“acute respiratory failure” (an MCC identified by
Integra for excessive use) instead of COPD exacerbation. App. 76a, ¶ 35. According to a former BSW
employee, doctors often acquiesced to CDI pressure
and coded “acute respiratory failure” because that
is what “[CDIs] want to hear . . . doctors have been
told and told and told so they do.” Id. The staff
member added, “CDIs should be questioning acute
respiratory failure instead of insisting.” Id.
Integra also uncovered that BSW excessively and
unnecessarily kept post-operative patients on ventilator support, which is one of the clinical indicators for “acute respiratory failure.” App. 78a, ¶ 37.
Integra found that BSW patients undergoing major
heart surgery were placed on mechanical ventilation over twice the national average. Id. And
even though post-operative respiratory failure is
extremely rare, BSW coded acute respiratory failure for 36.9% of post-operative heart surgery
patients, which is 2.75 times higher than the
national average. Id. And in such claims, BSW
received up to $30,000 in additional reimbursement from Medicare. App. 79a, ¶ 38. These findings
are consistent with the training and instructions
disseminated by BSW CDI staff. In BSW’s training
materials for “Diseases for the Respiratory
System,” BSW doctors were told that “the use of

10
artificial ventilation such as BiPAP would also
qualify” for diagnosing acute respiratory failure.
App. 79a, ¶ 39. In other words, BSW trained their
staff to code acute respiratory failure based on the
use of a ventilator, even if clinical indicators suggested otherwise.
2. To confirm and measure BSW’s pervasive
upcoding, Integra developed unique algorithms and
statistical processes to analyze inpatient CMS
claims for short-term acute care hospitals from
2011 to 2017. App. 80-83a, ¶¶ 40-45. Integra first
formed groupings corresponding to 184 specific
principal diagnosis codes. App. 80a, ¶ 41. To control
for the patient’s principal diagnosis, Integra used
these groupings as comparative “bins.” Id. Within
each bin, Integra compared the usage rate of specific MCCs at hospitals in the BSW system to usage
rates in other acute care inpatient hospitals. Id.
Integra found statistically significant, excessive
usage of “encephalopathy,” “acute respiratory failure,” and “severe malnutrition.” App. 83a, ¶ 46.
For example, Integra found that among BSW’s
more than 838 claims involving a Nonrheumatic
Aortic Valve Disorders, 59 had had an accompanying secondary MCC of encephalopathy, representing 7.04 percent of their Nonrheumatic Aortic
Valve Disorders claims. App. 81a, ¶ 43. The other
non-BSW hospitals, used by Integra for benchmarking, had more than 200,000 Nonrheumatic
Aortic Valve Disorders claims, but only 2.67 percent of those claims reported encephalopathy as an
MCC. Id. In other words, BSW coded encephalopa-

11
thy on these claims at a rate that is 2.64 times
higher than comparable hospitals—and profited
nearly $13,000 each time it did so. App. 82a, ¶ 43.
Integra validated the results of its bin-based
analysis by analyzing competing alternative explanations. App. 106-35a, ¶ 69-102. To rule out that
patient characteristics drove the higher rates of
MCCs at BSW, Integra ran a fixed-effect linear
regression model. App. 107a, ¶ 70. Integra sought
out data from numerous sources, which it used to
control for an array of patient characteristics such
as age, gender, and race, as well as patient claim
characteristics such as length of stay and discharge
status. Id. Integra also used county-level demographic data, such as unemployment rate, percent
of population without a high school diploma, median income, and the rural-urban continuum codes
from the Department of Agriculture as control variables, which provide a useful proxy for income and
education levels of each patient. Id. This regression
analysis considered millions of claims and found
that even after controlling for a host of patient
characteristics, BSW excessively added MCCs to its
claims such that it was ranked the seventh highest
out of 737 hospital systems for the MCC patterns
analyzed by Integra. App. 108a, ¶ 70; App. 115a,
¶ 80.
Next, Integra examined the extent to which doctors contributed to BSW’s excessive MCC rates.
App. 117-28a, ¶ 82-93. Integra demonstrated that
individual doctors who treated patients at both
BSW hospitals and other hospitals were nearly

12
twice as likely to code one of the three misstated
MCCs when treating at BSW hospitals. App. 11718a, ¶ 83. Integra similarly analyzed the subset of
patients who were admitted to both a BSW hospital
and at least one other non-BSW hospital between
2011 and 2017, and then compared the rate of the
MCC codes used when those patients were treated
at each. App. 129-33a, ¶¶ 94-99. Again, Integra discovered that these patients were nearly twice as
likely to be diagnosed with an MCC while being
treated at a BSW hospital. App. 129-30a, ¶ 95.
Finally, Integra considered whether BSW’s
excessive coding of MCCs could be explained by the
region in which BSW hospitals are located,
notwithstanding that Integra had already controlled for a variety of county demographic factors
described above. App. 133-135a, ¶¶ 100-02. To that
end, Integra compared BSW’s MCC rates to other
hospitals within the relevant metropolitan statistical area. Id. BSW had a higher rate of each of the
three MCCs in every MSA where its hospitals were
located. Id.
The results of Integra’s analyses—as well as
Integra’s documentary evidence and information
learned from witness interviews—all point to the
same conclusion: BSW carried out their scheme to
inflate their Medicare revenue to great effect.
Integra calculated that, as a result of this scheme,
BSW received an unwarranted $61.8 million in
false claims across all principal diagnosis categories. App. 137a, ¶ 106.

13
B. Procedural Background
Integra commenced this qui tam action in the
District Court for the Western District of Texas
on September 12, 2017, and the United States
declined to either intervene or move to dismiss
Integra’s claims. Integra filed its operative Second
Amended Complaint on August 7, 2018, which
alleges that, through their system-wide scheme to
pressure coders and doctors to apply unwarranted
MCCs, BSW (i) knowingly presented, or caused to
be presented, false claims to Medicare for payment
or approval (31 U.S.C. § 3729(a)(1)(A)); (ii) knowingly made, used, or caused to be made or used, a
false record or statement material to false claims to
Medicare (31 U.S.C. § 3729(a)(1)(B)); and (iii)
knowingly avoided an obligation to re-pay Medicare
for overpayments (31 U.S.C. § 3729(a)(1)(G)). App.
54a; App. 140a, ¶ 112.
BSW moved to dismiss the Second Amended
Complaint under Rule 12(b)(6), arguing in relevant
part that Integra’s allegations were not plausible
under Rule 8(a), nor sufficiently particular under
Rule 9(b). App. 42-43a. The District Court granted
the motion. App. 44a. In doing so, the District
Court found that Integra’s complaint “allege[d] a
scheme . . . to increase the number of claims submitted that include CCs and MCCs and contain[ed]
reliable indicia leading to a strong inference that
claims were actually submitted based on that
scheme.” App. 45a. The District Court went on to
conclude, however, that this scheme was not necessarily one to submit false claims, as CMS allows

14
hospitals to undertake efforts to ensure that it is
properly coding Medicare claims. App. 45-46a. The
District Court addressed only a handful of
Integra’s specific factual allegations, finding that
standing alone they did not meet either the plausibility standard of Rule 8(a) or the particularity
standard of Rule 9(b). App. 49-50a. And while the
District Court noted that Integra’s statistical
analyses demonstrated that BSW’s CC and MCC
rates were far out of step with their peers, the
District Court nevertheless found that Integra
failed to eliminate the “obvious alternative explanation” that “Defendants were simply better than
their peers in their efforts to ensure their medical
documentation and coding maximized the opportunities for legitimate reimbursement.” App. 50a (citing Bell Atl. Corp., 550 U.S. at 567–69).
Integra appealed. On May 28, 2020, the Fifth
Circuit affirmed the District Court’s decision. App.
2a. Just like the District Court below, the Fifth
Circuit’s opinion reviewed individual allegations in
isolation. App. 7-11a (examining statistical data),
11-13a (examining other factual allegations of
upcoding scheme), 15-16a (examining allegations of
unnecessary treatment). And the Fifth Circuit
brushed aside Integra’s quantitative analyses
because of the same “obvious alternative explanation” first suggested by the District Court. App.
10a.
Pursuant to Order 589, this Court extended
Integra’s deadline to file a petition for certiorari to
150 days, or October 26, 2020. See Sup. Ct. R. 30.1

15
(In the computation of any period of time specified
by statute or court order, the last day of a period
does not count if it is a Saturday or Sunday.).
Integra now files this timely petition.
REASONS FOR GRANTING THE PETITION
The decision below underscores a split between
the Fifth Circuit and Third Circuit over the pleading standard for FCA claims that rely in part on
statistical analyses. The Court should clarify that
the Third Circuit’s approach is correct. In addition,
the decision below incorrectly applied Rule 8 and
Rule 9(b) to each allegation in the pleading individually rather than viewing the complaint as a whole.
The Court should thus grant certiorari.
I.

The Fifth Circuit’s opinion below heightens the pleading standard for FCA claims
set out by the Third Circuit.

A majority of circuit courts now follow the Fifth
Circuit in holding that an FCA relator may meet
federal pleading standards by alleging “particular
details of a scheme to submit false claims paired
with reliable indicia that lead to a strong inference
that claims were actually submitted.” U.S. ex rel.
Grubbs v. Kanneganti, 565 F.3d 180, 190 (5th Cir.
2009). In U.S. ex rel. Customs Fraud Investigations,
LLC v. Victaulic Co., the Third Circuit found that a
non-insider relator plausibly alleged reliable indicia of the submission of false claims through a statistical analysis of eBay listings. 839 F.3d 242, 256-

16
58 (3d Cir. 2016). Compared to the relator in
Victaulic, Integra has offered far more thorough
quantitative, statistical, and econometric analyses
and has based its analyses on profoundly more reliable data. But while the Fifth Circuit purported
not to reject the Victaulic court’s decision to allow
statistical analyses as reliable indicia of fraud, it
went on to embrace the Victaulic dissent by seeking to impeach the validity of Integra’s statistical
analyses through its own ad hoc interpretations of
cherry-picked data. This signals an impossible
pleading standard for FCA relators relying on statistical analyses by compelling them to anticipate
and negate any lawful alternative explanations
that a court deems “obvious” from the face of the
pleadings without the benefit of a factual record.
A. The Third and Fifth Circuits are split
on the inferences that should be
drawn from statistical analyses used
by FCA relators to allege reliable
indicia of fraud.
In Victaulic, relator Customs Fraud Investigations
(“CFI”) brought an FCA claim against a pipe-fitting
company for avoiding import duties by not marking
the country of origin on its fittings. Id. at 246.
CFI’s complaint provided a list of Victaulic’s public
shipments and estimated from shipping data that
between 54% and 91% of Victaulic’s pipe fittings
were imported and required to be marked. Id. at
257 & n.71. Then, CFI conducted a statistical
analysis of photographs on 221 eBay listings, id. at

17
265 (Fuentes, J., concurring in part, dissenting in
part, and dissenting from the judgment), and concluded that only 2% of the fittings were properly
marked—far fewer than would be expected, id. at
257. CFI alleged that because the eBay listings
were representative of the entire market for
Victaulic pipe fittings, Victaulic was almost certainly committing fraud. Id.
The Third Circuit fully credited CFI’s statistical
analysis at the pleading stage, even as it acknowledged the potential flaws in CFI’s approach. Both
the district court and the dissent discounted CFI’s
statistical analysis because of potential flaws in
the methodology. See id. at 259-72. The majority
agreed that there were potential flaws, but this
was not disqualifying at the pleading stage:
The District Court was skeptical of the validity of CFI’s methods of determining whether
Victaulic had imported unmarked goods. We,
too, are skeptical. There is little evidence to
show that CFI’s unusual procedure of
reviewing eBay listings is an accurate proxy
for the universe of Victaulic’s products available for sale in the United States. Yet, such
skepticism is misplaced at the Rule 12(b)(6)
stage.
Id. at 257. The majority concluded that the complaint plausibly alleged an FCA violation because
it “lays out in great detail each shipment of pipe fittings Victaulic imported during the requisite time
period, as well as the methodology” underlying its

18
conclusions. Id. at 256. Because the court was
required to construe all facts in CFI’s favor—
including its statistical analyses—it had no trouble
concluding that CFI plausibly alleged reliable indicia that false claims had been submitted. Id.
Just like CFI, Integra alleged the particulars of a
fraudulent scheme together with statistical analyses offered as reliable indicia that the scheme was
carried out. Indeed, compared to CFI’s, Integra’s
statistical analyses were far more thorough.
Whereas CFI merely extrapolated a sample of 221
eBay listings, Integra developed a unique econometric methodology to analyze millions of Medicare
claims. App. 80-83a, 108a, ¶¶ 40-45, 70. Whereas
CFI took few apparent efforts to control its results,
Integra conducted extensive causal analyses to control for and exclude innocent explanations, including doctor/patient characteristics, geographic location, and urban/rural differences. App. 106-35a,
¶ 69-102. But unlike the Third Circuit, the panel
below did not credit Integra’s statistical analyses
as reliable indicia of fraud because of what it
deemed to be an “obvious alternative explanation”
that BSW was better than its peers at Medicare
coding. App. 10a (citing Ashcroft v. Iqbal, 556 U.S.
662, 682 (2009)). In particular, the panel seized on
graphs that it cherry-picked from the complaint
that it believed showed a trend line to support its
hypothesis. App. 9-10a. It would be hard to imagine
a clearer example of failing to “draw all reasonable
inferences from the complaint in [the plaintiff’s]
favor.” Am. Fed’n of Gov’t Employees Local 1 v.

19
Stone, 502 F.3d 1027, 1032 (9th Cir. 2007); see also
Iqbal, 556 U.S. at 678 (“A claim has facial plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference
that the defendant is liable for the misconduct
alleged.”).
Notably, the majority in Victaulic rejected similar efforts by the dissent to propose numerous
alternative hypotheses to explain relator’s findings. For instance, the dissent suggested that the
low number of markings on the sample of eBay listings gathered by the relator could be explained by
the seller’s motivation not to use photographs
demonstrating that the pipe fitting being sold was
manufactured outside of the United States. 839
F.3d at 263. The district court decision being
appealed in that case similarly reasoned that “if
U.S. products can command higher prices, one
would also expect to observe a higher percentage of
U.S.-made products in the secondary sale market.”
U.S. ex rel. Customs Fraud Investigations, LLC v.
Victaulic Co., No. 13-2983, 2015 WL 1608455, at *5
(E.D. Pa. Apr. 10, 2015). The majority in the Third
Circuit, however, rightly rejected this reasoning,
noting that a motion to dismiss—without the benefit of any discovery—is not the stage to weigh evidence and assess credibility of sophisticated expert
opinions. 839 F.3d at 257.
Nothing in Iqbal supports the opposite result
reached by the Fifth Circuit in this case. While
Iqbal finds that, when making a plausibility determination, a court may draw on its “experience and

20
common sense,” 556 U.S. at 679, it does not mandate that courts conduct what amounts to a nonevidentiary Daubert review of statistical analyses
within a pleading. As the Third Circuit recognized
in Victaulic, that is not only outside the court’s
expertise, it is outside the bounds of a motion to
dismiss under Rule 12(b)(6). 839 F.3d at 257.
Clarification is thus necessary to ensure that plaintiffs relying on statistical analyses in the Fifth
Circuit do not face a significantly higher pleading
standard than similarly situated plaintiffs in the
Third Circuit.
B. The ruling below underscores a deepening split across numerous circuits
regarding the meaning of Iqbal and
Twombly’s reference to “obvious
alternative explanations.”
This Court has not defined when an “obvious
alternative explanation” for alleged conduct renders a claim implausible under Rule 8, but the
Court used the phrase in both Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 567 (2007), and Iqbal, 556
U.S. at 682. In Twombly, the Court reasoned that,
in an antitrust case, parallel conduct alone was not
sufficient to state a claim for conspiracy. 550 U.S.
at 557. The Court explained that there was an
“obvious alternative explanation” for the alleged
conduct: independent action based on economic
self-interest. Id. at 567. In Iqbal, the court held
that a complaint alleging racial discrimination by
the FBI against Arab Muslims after the 9/11

21
terrorist attacks should be dismissed where the
complaint contained only bare allegations of the
defendants’ states of mind. 556 U.S. at 680-81. An
“obvious alternative explanation” again existed:
the FBI was targeting men possibly associated with
the 9/11 terrorist attacks, and the people who
organized such attacks were Arab Muslims. Id. at
682. Although the Court considered alternative
explanations in its analysis, it underscored that
such considerations do not turn the plausibility
standard into a probability standard. Id. at 678.
Indeed, even a case with a remote chance of success
survives dismissal so long as the claims are plausible. Twombly, 550 U.S. at 556.
With only Iqbal and Twombly as guidance,
dozens of circuit court decisions and hundreds of
district court decisions have imbued the phrase
“obvious alternative explanation” with varying levels of significance while setting out different standards for how such explanations may render a
plaintiff’s claim implausible. This leaves plaintiffs
to guess whether and to what degree the trial court
will be searching for alternative explanations for
alleged conduct. This Court should grant certiorari
in order to clarify the proper way to assess whether
and how courts are to identify and weigh such
explanations.
The Second Circuit and the D.C. Circuit have
held that an alternative explanation falls short of
being “obvious” when it fails to eliminate the possibility that the plaintiff’s explanation is true. In
New Jersey Carpenters Health Fund v. Royal Bank

22
of Scotland Group, PLC, the Second Circuit held
that the defendant’s argument “does not provide
an ‘obvious alternative explanation’” because it
“does not impugn the [plaintiff’s] central allegation . . . .” 709 F.3d 109, 124 (2d Cir. 2013). The
court further explained, “even crediting the
Defendants–Appellants’ explanations, the [plaintiff’s] inference of liability remains reasonable.” Id.
at 121 n. 5. In In re U.S. Office of Personnel
Management Data Security Breach Litigation, the
D.C. Circuit also reasoned that where plaintiff’s
explanation and defendant’s explanation were “not
mutually exclusive,” defendant’s likely explanation
“hardly renders implausible [ ] Plaintiffs’
claim . . . .” 928 F.3d 42, 57 (D.C. Cir. 2019). In
contrast, dismissal in Twombly and Iqbal was warranted because the “obvious alternative explanations were necessarily incompatible with the plaintiffs’ versions of events.” Id. In other words, for an
alternative explanation to be so “obvious” that it
renders a plaintiff’s claims implausible, it must, at
the very least, be incompatible with plaintiff’s
allegations.
The Eighth Circuit has adopted an approach similar to that of the Second Circuit and the D.C.
Circuit. In Braden v. Wal-Mart Stores, Inc., an
employee brought suit against his employer alleging violation of fiduciary duties under ERISA
because the employer had chosen funds with significantly higher fees than other options. 588 F.3d
585, 597 (8th Cir. 2009). The defendants argued
that there were obvious alternative explanations

23
for their choice of funds. The Eighth Circuit noted
that a “concrete, ‘obvious alternative explanation’
for defendant’s conduct,” like those in Twombly and
Iqbal, renders a plaintiff’s claims implausible “if
the facts [plaintiff] points to are precisely the
result one would expect from lawful conduct in
which the defendant is known to have engaged.” Id.
However, the court explained why such an explanation did not exist in that case:
Not every potential lawful explanation for
the defendant’s conduct renders the plaintiff’s theory implausible. Just as a plaintiff
cannot proceed if his allegations are merely
consistent with a defendant’s liability, so a
defendant is not entitled to dismissal if the
facts are merely consistent with lawful conduct. And that is exactly the situation in this
case. Certainly appellees could have chosen
funds with higher fees for various reasons,
but this speculation is far from the sort of
concrete, obvious alternative explanation
Braden would need to rebut in his complaint.
Requiring a plaintiff to rule out every possible lawful explanation for the conduct he
challenges would invert the principle that
the complaint is construed most favorably to
the nonmoving party, and would impose the
sort of “probability requirement” at the
pleading stage which Iqbal and Twombly
explicitly reject.
Id. (internal quotation marks and citations omitted); see also Watson Carpet & Floor Covering, Inc.

24
v. Mohawk Indus., Inc., 648 F.3d 452, 458 (6th Cir.
2011) (finding that even an “eminently plausible”
alternative explanation for defendant’s conduct
“does not render all other reasons implausible” or
warrant dismissal); Woods v. City of Greensboro,
855 F.3d 639, 649 (4th Cir. 2017) (explaining that
an alternative explanation must be “so obviously an
irrefutably sound and unambiguously” lawful
explanation to render plaintiff’s claim implausible).
A decision from the Ninth Circuit highlights the
other end of the spectrum, where courts have often
placed the burden on the plaintiff to plead facts
that rule out lawful or obvious alternative explanations regardless of whether such explanations are
mutually exclusive with the alleged misconduct.
See Eclectic Properties E., LLC v. Marcus &
Millichap Co., 751 F.3d 990, 996 (9th Cir. 2014)
(holding that fraud allegation was implausible
because plaintiffs did not plead facts that “tend[ed]
to exclude” innocent explanation that a national
recession drove defendants’ actions). Likewise, the
Eleventh Circuit has held that auto body shops’
claim of illegal steering by insurers was not plausible where “any number of legitimate market forces”
could “just as plausibly” explain the loss in business. Auto. Alignment & Body Serv., Inc. v. State
Farm Mut. Auto. Ins. Co., 953 F.3d 707, 729 (11th
Cir. 2020) (listing “obvious alternative explanations” such as competition, decreased demand for
repairs, fluctuations in consumer choice, and that
large fluctuations were “the norm”). In effect, these
circuits require the plaintiff to show that its allega-

25
tions are more plausible than whatever “obvious”
alternative explanations the defendant or the court
can think up.
In its decision below, the Fifth Circuit now joins
this line of reasoning to deepen the split. The panel
stated the law as follows: “A claim is merely
conceivable and not plausible if the facts pleaded
are consistent with both the claimed misconduct
and a legal and ‘obvious alternative explanation.’ ”
App. 8a. Affirming dismissal, the panel surmised
that an “obvious alternative explanation” for the
fraud alleged was that BSW was simply better at
coding than all of its peers by orders of magnitude.
App. 10a. Notably, the panel did not explain how
its theory that BSW is better than its peers at coding for Medicare reimbursement renders Integra’s
factual allegations implausible. Indeed, the panel’s
hypothesis does not necessarily exclude Integra’s
allegations: BSW could be better at obtaining lawful Medicare reimbursement than its peers and be
fraudulently upcoding three lucrative MCCs.
Because these explanations are not mutually
exclusive, the Second Circuit and D.C. Circuit
would reject the Fifth’s circuit’s conclusion that the
alternative explanation of lawful coding is “obvious” and renders Integra’s claims implausible. The
Court should grant certiorari to clarify that the
Second Circuit and the D.C. Circuit have it right.

26
II. No matter what importance is given to
“obvious alternative explanations,” the
decision below is wrong.
Whatever circuit is correct in interpreting how to
assess “obvious alternative explanations,” the Fifth
Circuit’s ruling was incorrect. When considering
whether a complaint meets federal pleading standards, it “should be read as a whole, not parsed
piece-by-piece to determine whether each allegation, in isolation, is plausible.” Braden, 588 F.3d at
594 (citing Vila v. Inter-Am. Inv. Corp., 570 F.3d
274, 285 (D.C. Cir. 2009)). As stated by the Fourth
Circuit, “in applying Iqbal, we are to ‘draw on [our]
judicial experience and common sense’ to determine whether plaintiffs’ well-pleaded non-conclusory allegations collectively nudge [a claim] ‘across
the line from conceivable to plausible.’ ” Evans v.
Chalmers, 703 F.3d 636, 657 (4th Cir. 2012) (quoting Iqbal, 556 U.S. at 679–80)) (emphasis in original). Even assuming the Court adopts the highest
bar used by the circuit courts of appeals, a complaint should only be dismissed based on an alternative explanation if the plaintiff has not offered
other facts that “tend[ ] to exclude the possibility
that the alternative explanation is true.” Eclectic
Props., 751 F.3d at 996.
Instead of assessing Integra’s statistical analyses in conjunction with the complaint’s factual allegations, the Fifth Circuit (following the District
Court’s lead) considered only whether the analyses
supported Integra’s claims in isolation. App. 7a
(“We first examine the statistical data presented by

27
Integra Med, reviewing whether it sufficiently
shows that Baylor’s Medicare reimbursement
claims were fraudulent.”). Again, without resort to
Integra’s factual allegations, the Fifth Circuit concluded that the analyses are subject to the “obvious
alternative explanation” that BSW “was simply
ahead of the healthcare industry at implementing
the Medicare reimbursement guidelines supplied
by CMS.” App. 10a. In fact, Integra alleged extensive factual allegations that not only tend to
exclude but also directly refute the Fifth Circuit’s
theory. For instance, the notion that BSW is simply
better at Medicare coding does not comport with
allegations that they employed a one-way ratchet
to train doctors to use specific “magic words” for
the coding of specific MCCs while not training doctors to code non-MCCs and non-CCs for other possible conditions. App. 68a, ¶ 24. Training materials
cited by Integra in the complaint demonstrate BSW
pushing specific MCCs and mocking the notion that
other non-MCC related causes may be the appropriate diagnosis. App. 69-70a, ¶ 26. The Fifth
Circuit’s theory is further refuted by allegations
that BSW repeatedly used leading queries to pressure doctors to change their diagnoses to specific
MCCs, with BSW staff “insisting” to doctors that
they document MCCs. App. 71-74a, ¶¶ 28-31; App.
76a, ¶ 35.
Moreover, Integra’s statistical analyses themselves affirmatively excluded the Fifth Circuit’s
theory. First, Integra conservatively limited its
claims to MCC/principal diagnosis groupings that

28
BSW used significantly more than their peers—
often more than twice the national rate. App. 81a,
¶ 42. This renders the Fifth Circuit’s hypothesis
less plausible because the theory could only be true
if BSW’s peers are significantly undercharging
Medicare, even though many of those hospital systems also have CDI programs. Integra also analyzed claims from doctors that treated patients at
both a BSW and a non-BSW hospital and found
that a patient being treated by the same doctor at
a BSW hospital is far more likely to be diagnosed
with the three specific MCCs identified by Integra.
App 117-18a, ¶ 83. This also renders the Fifth
Circuit’s alternative theory less plausible because
it suggests that doctors forget their BSW training
and change the way they diagnose patients simply
by virtue of being at a non-BSW hospital. In short,
viewed in the light most favorable to Integra, the
complaint contains factual allegations that undermine the Fifth Circuit’s alternative explanation,
rendering it far from “obvious.” Cf. Woods, 855 F.3d
at 649.
Notably, Integra alleged far more factual detail
than the relator in Victaulic, CFI, supplied in
attempting to comply with Rules 8 and 9(b).
Nevertheless, the panel below tried to factually distinguish Victaulic because CFI’s statistical data
were “paired with an expert’s declaration analyzing the facts of that case, specific examples of
unmarked pipes with photographs, a witness statement about receiving improperly marked pipes,
and detailed records about the shipments at issue.”

29
App. 10-11a, n.19. But none of these distinctions
explain the divergence between the courts’ opinions. Integra not only provided far more thorough
statistical analyses, but it also provided far more
details about the alleged scheme and significantly
more substantive witness statements than were
offered in Victaulic. Finally, the “specific examples
of unmarked pipes” were only eBay samplings, a
portion of which CFI suspected to be fraudulent.
That is no different from the examples of potentially upcoded claims that Integra provided in its complaint. The Fifth Circuit’s effort to distinguish the
cases does not withstand scrutiny.
Finally, aside from the evidence alleged in the
complaint, the Fifth Circuit’s theory also ignores
inferences that can be drawn from past FCA settlements. To believe the “obvious alternative explanation” that BSW was leading the way in correct coding—which the court based entirely on a slightly
increasing trend in MCC coding at other facilities—implicitly assumes that the increase in MCCs
over time at other facilities was due to legitimate
uses. App. 9-10a. Yet, the Department of Justice
has fined many other large facilities for MCC
upcoding practices over the same time period.4
Moreover, there simply is no “obvious alternative
explanation” for Integra’s allegations that BSW
steered doctors to document MCCs through leading
4

See, e.g., Press Release, U.S. Dept. of Justice, Prime
Healthcare Services and CEO to Pay $65 Million to Settle
False Claims Act Allegations (Aug. 3, 2018), available at
https://bit.ly/3ogPJQv.

30
queries. App. 71-74a, ¶¶ 28-31. While improving
coding accuracy is a common and acceptable practice, leading queries designed to push doctors
toward MCCs and CCs are established bases for
FCA liability. When a leading query is found by a
CMS contractor, CMS requires the contractor to
subject the claims to heightened scrutiny.5 And
when the government detects a pattern of leading
queries, it will step in.6
This Court should thus grant certiorari to provide greater clarity as to how FCA relators may
comply with federal pleading standards in light of
what a court deems an “obvious alternative explanation” of alleged misconduct.
CONCLUSION
For the foregoing reasons, the petition for certiorari should be granted.

5
CMS Manual Sys., Pub. 100-10 Medicare Quality
Improvement Organization, Oct. 10, 2014, available at
https://goo.gl/RBNCau.
6

See, e.g., Press Release, U.S. Dept. of Justice, Good
Samaritan Hospital Agrees to Pay $793,548 to Settle FCA
Allegations (Mar. 28, 2012) (“employees used leading questions so that the physician would answer that the patient was
malnourished, which was the result [defendant] wanted to
achieve”), available at https://goo.gl/5tshx2.

31
Dated: October 26, 2020
Respectfully submitted,
s/Jeremy H. Wells
P. Jason Collins
Jeremy H. Wells
Morgan M. Menchaca
REID COLLINS & TSAI LLP
1301 S. Capital of Texas Highway
Building C, Suite 300
Austin, Texas 78746
(512) 647-6100
jcollins@reidcollins.com
jwells@reidcollins.com
mmenchaca@reidcollins.com
Counsel for Petitioner
Integra Med Analytics, L.L.C.

APPENDIX

1a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50818
Filed May 28, 2020
UNITED STATES OF AMERICA, ex rel.,
INTEGRA MED ANALYTICS, L.L.C.,
Plaintiff–Appellant,
v.
BAYLOR SCOTT & WHITE HEALTH;
BAYLOR UNIVERSITY MEDICAL CENTER–DALLAS;
HILLCREST BAPTIST MEDICAL CENTER;
SCOTT & WHITE HOSPITAL–ROUND ROCK;
SCOTT & WHITE MEMORIAL HOSPITAL TEMPLE,
Defendants–Appellees.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 5:17-CV-886
Before OWEN, Chief Judge, and HIGGINBOTHAM and
WILLETT, Circuit Judges.

2a
PER CURIAM:*
Integra Med Analytics, L.L.C., filed a qui tam
suit1 on behalf of the United States against Baylor
Scott & White Health system and its affiliates
under the False Claims Act for allegedly using
inflated codes to bill Medicare. The district court
dismissed Integra Med’s claims. We affirm.
I
The Baylor Scott & White Health system and its
affiliates (Baylor) operate a network consisting of
around twenty inpatient short-term acute care hospitals in Texas. A significant number of patients
served by Baylor are covered by Medicare. Thus,
Baylor regularly submits reimbursement claims to
Medicare. In this case, Integra Med Analytics,
L.L.C. (Integra Med) alleges that Baylor submitted
$61.8 million in fraudulent claims to Medicare, in
violation of the False Claims Act (FCA).2
Medicare reimburses hospitals like Baylor on a
per-discharge basis, which means Baylor gets paid
* Pursuant to 5TH CIR. R. 47.5, the court has determined
that this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5TH CIR.
R. 47.5.4.
1

At the federal level, qui tam suits are those that are
filed “for the person and for the United States Government”
and “brought in the name of the Government.” 31 U.S.C.
§ 3730(b)(1). Thus, in qui tam suits, the government is
the real party in interest. United States v. Tex. Tech Univ.,
171 F.3d 279, 289 (5th Cir. 1999).
2

31 U.S.C. § 3729.

3a
each time a patient stays at the hospital. The exact
amount that Medicare reimburses primarily depends
on a hospital’s diagnoses of Medicare-covered
patients. Medicare classifies similar diagnoses by
putting them into a diagnosis related group (DRG).
Each DRG is determined by several kinds of codes,
including the principal diagnosis code and secondary diagnosis codes. The principal diagnosis code is
for the “condition established after study to be
chiefly responsible for occasioning the admission of
the patient to the hospital for care.”3 Secondary
diagnosis codes are for “all conditions that coexist
at the time of admission, that develop subsequently,
or that affect the treatment received and/or length
of stay.”4 Reimbursement can also be affected, to a
lesser extent, by other hospital-specific factors,
such as market conditions in the hospital’s city.
Integra Med’s allegations specifically concern
Baylor’s use of secondary diagnosis codes. The
Centers for Medicare and Medicaid Services (CMS)
publishes a list of secondary codes each year that
can modify a claim to include a complication or
comorbidity (CC) or a major complication or comorbidity (MCC). The inclusion of CCs and MCCs can
add thousands of dollars to a Medicare reimbursement claim. Integra Med alleges that Baylor, led by
3

See Centers for Disease Control, ICD-9-CM Official
Guidelines for Coding and Reporting, Oct. 1, 2011 at 88,
available at https://goo.gl/DC55Wx.
4

See Centers for Disease Control, ICD-9-CM Official
Guidelines for Coding and Reporting, Oct. 1, 2011 at 91,
available at https://goo.gl/DC55Wx.

4a
its clinical documentation improvement (CDI) program, fraudulently used higher-value CCs and
MCCs than were justified by actual medical diagnoses to increase its revenues. Integra Med contends that Baylor’s scheme had three main components.
First, Integra Med contends that Baylor trained
its physicians and CDI employees to “upcode”
MCCs. According to Integra Med, Baylor trained
its physicians to focus on key words, provided lists
of high-value MCCs to physicians to reinforce that
training, and emphasized that using certain terms
would increase their performance pay. Integra Med
also contends that Baylor had its CDI employees
seek opportunities to use higher-value secondary
codes.
Second, Integra Med alleges that Baylor pressured physicians to alter their original diagnoses by
providing documents and asking them to “specify”
or change their diagnosis if the diagnosis did not
include CCs or MCCs. According to Integra Med,
these clarification documents that requested physicians to “specify” their diagnoses would often “suggest either specific revenue-increasing CCs or
MCCs or provide options listing several possible
CCs and MCCs.” Integra Med contends these clarification documents “reveal a clear intent towards
influencing doctors to code higher-paying CCs and
MCCs.”
Third, Integra Med alleges that Baylor provided
unnecessary treatment in order to code high-value
MCCs. Specifically, Integra Med contends that
“Baylor purposefully placed and kept post-opera-

5a
tive patients on ventilator support” when it was
medically unnecessary. Integra Med bases this
allegation on the fact “that Baylor patients undergoing major heart surgery were placed on mechanical ventilation [at rates] over twice the national
average.”
Integra Med analyzed inpatient claims data for
the 2011-2017 period from CMS to discover that
Baylor had been claiming certain MCCs significantly above the national average for other hospitals. Specifically, Integra Med found that Baylor
coded for the MCCs of encephalopathy, respiratory
failure, and severe malnutrition at much higher
rates than other hospitals. Integra Med contends
that its statistical analyses show that Baylor’s
higher rate of coding cannot be explained by
patient characteristics, county demographic data,
the patient’s attending physician, or regional differences. According to Integra Med, its “analyses
prove that the excessive rates of [certain] MCCs
can be directly attributed to [Baylor’s] fraudulent
activity as opposed to external factors, indicating
that the fraud was known by the system and was
intentional.”
Besides statistical data, Integra Med also relied
on several statements from a former Baylor medical coder in concluding that Baylor had defrauded
Medicare. According to Integra Med, this medical
coder recalled a then-Baylor executive “telling
CDIs things that were totally not true” as a part of
a “deliberate effort to promote the coding of MCCs.”
This medical coder also allegedly received specific
instructions on how to code. Integra Med claims

6a
that this medical coder quit her job with Baylor
because she was unable to work where she “was
continually getting directives to compromise her
integrity.” Integra Med also relied on certain statements about increasing hospital revenues from a
former Baylor executive’s social media.
Based on these statistics and statements, Integra
Med sued Baylor under the FCA in federal district
court in April 2018. After Integra Med amended its
complaint twice, Baylor moved under Federal Rule
of Civil Procedure Rule 12(b)(6) to dismiss Integra
Med’s complaint. The district court granted
Baylor’s motion to dismiss, holding that Integra
Med’s complaint failed to state a particularized
claim for which relief could be granted as required
by Federal Rules of Civil Procedure 8(a) and 9(b).
This appeal followed.
II
To survive a motion to dismiss an FCA claim,
Integra Med must plead the following four elements: (1) “a false statement or fraudulent course
of conduct;” (2) that was “made or carried out with
the requisite scienter;” (3) “that was material;” and
(4) “that caused the government to pay out money
or to forfeit moneys due (i.e., that involved a
claim).”5 Integra Med’s case on appeal hinges on
whether Integra Med sufficiently pleaded facts
showing that Baylor’s claims were fraudulent. Thus,
5

United States ex rel. King v. Solvay Pharm., Inc., 871
F.3d 318, 324 (5th Cir. 2017) (quoting United States ex rel.
Longhi v. United States, 575 F.3d 458, 467 (5th Cir. 2009)).

7a
we will examine each of Integra Med’s bases for its
claims, including its statistical data generally, the
documents it has gathered from Baylor, statements
by a former Baylor medical coder, and the claim
that Baylor provided unnecessary medical care to
boost its Medicare reimbursements.
A
We first examine the statistical data presented
by Integra Med, reviewing whether it sufficiently
shows that Baylor’s Medicare reimbursement
claims were fraudulent. “[A] complaint filed under
the False Claims Act must meet the heightened
pleading standard of Rule of 9(b).”6 Federal Rule of
Civil Procedure 9(b) provides, “[i]n alleging fraud
or mistake, a party must state with particularity
the circumstances constituting fraud or mistake.”7
Although the particularity Rule 9(b) demands “differs with the facts of each case,”8 it does generally
6

See, e.g., United States ex rel. Grubbs v. Kanneganti,
565 F.3d 180, 185 (5th Cir. 2009) (first citing United States
ex rel. Russell v. Epic Healthcare Mgmt. Grp., 193 F.3d 304,
308-09 (5th Cir. 1999), abrogated on other grounds by United
States ex rel. Eisenstein v. City of New York, 556 U.S. 928
(2009); and then citing United States ex rel. Karvelas v.
Melrose–Wakefield Hosp., 360 F.3d 220, 228 (1st Cir. 2004),
abrogated on other grounds by Allison Engine Co. v. United
States ex rel. Sanders, 553 U.S. 662 (2008)).
7

FED. R. CIV P. 9(b); see also Kanneganti, 565 F.3d at
185-86.
8

Hart v. Bayer Corp., 199 F.3d 239, 247 n.6 (5th Cir.
2000) (citing Guidry v. Bank of LaPlace, 954 F.2d 278, 288
(5th Cir. 1992)).

8a
require that a complaint detail “the who, what,
when, and where . . . before access to the discovery
process is granted.” 9 Rule 9(b)’s particularity
requirement supplements Rule 8(a)’s demand that
“a complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’ ”10 Rule 8(a) prohibits any
claims that are merely conceivable rather than
plausible.11 A claim is merely conceivable and not
plausible if the facts pleaded are consistent with
both the claimed misconduct and a legal and “obvious alternative explanation.”12
Here, Integra Med’s statistical analysis is consistent with both Baylor having submitted fraudulent
Medicare reimbursement claims to the government
and with Baylor being ahead of most healthcare
providers in following new guidelines from CMS. In
2007, CMS reduced the standardized amount paid
out to hospitals for Medicare reimbursement claims
but increased the number of secondary diagnoses
identified as CCs and MCCs, and coding more CCs
and MCCs can increase hospital reimbursements.13
9
Id. (alteration in original) (quoting Williams v. WMX
Techs., Inc., 112 F.3d 175, 178 (5th Cir. 1997)).
10

Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)); see also
Kanneganti, 565 F.3d at 185.
11

Iqbal, 556 U.S. at 680 (quoting Twombly, 550 U.S. at

570).
12

Id. at 682 (quoting Twombly, 550 U.S. at 567).

13
See Medicare Program; Changes to the Hospital Inpatient Prospective Payment Systems and Fiscal Year 2008

9a
In response to public comments expressing concern
that the new rules would lead to lower reimbursements, CMS stated that it expected reimbursements to increase under the system. 14 CMS
believed it was “clear” that hospitals would “change
their documentation and coding practices and
increase case mix consistent with the payment
incentives that are provided by the” then new coding system.15 In fact, CMS encouraged hospitals to
adopt CDI programs “in order to increase reimbursement” and highlighted an article touting the
effectiveness of CDI programs at increasing
Medicare reimbursement rates.16 CMS unequivocally stated in its guidelines that, “[w]e do not
believe there is anything inappropriate, unethical
or otherwise wrong with hospitals taking full
advantage of coding opportunities to maximize
Medicare payment that is supported by documentation in the medical record.”17
The conclusion that Baylor was simply ahead of
the healthcare industry in following CMS guidelines is supported by the data in Integra Med’s own
complaint. Integra Med’s complaint shows that the
Rates, 72 Fed. Reg. 47,130, 47,135-39 (Aug. 22, 2007) (final
rule).
14
See Medicare Program; Changes to the Hospital Inpatient Prospective Payment Systems and Fiscal Year 2008
Rates, 72 Fed. Reg. at 47,180-82.
15

Id. at 47,182.

16

Id.

17

Id. at 47,180.

10a
rate at which non-Baylor hospitals were using the
MCCs for encephalopathy, respiratory failure, and
severe malnutrition was increasing every year.
These increases were causing the MCC usage rates
of both Baylor and non-Baylor hospitals to converge.
Moreover, for severe malnutrition, non-Baylor hospitals were coding it at a higher rate in 2017 than
Baylor was in 2015. Similarly, for respiratory failure, non-Baylor hospitals were coding it at a higher
rate in 2017 than Baylor was in 2011. These show
that the healthcare industry as a whole was following Baylor in its trajectory and by 2017, other hospitals’ coding was within a few percentage points of
Baylor’s.
These facts strongly indicate that a legal and
“obvious alternative explanation” for the statistical
data presented by Integra Med is that Baylor was
simply ahead of the healthcare industry at implementing the Medicare reimbursement guidelines
supplied by CMS.18 We note that this conclusion
does not exclude statistical data from being used to
meet the pleading requirements of Federal Rule of
Civil Procedure 8(a) and, when paired with particular details, Rule 9(b).19 Our conclusion merely
18

See Ashcroft v. Iqbal, 556 U.S. 662, 682 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 567 (2007)).
19

See, e.g., United States ex rel. Customs Fraud Investigations, LLC v. Victaulic Co., 839 F.3d 242, 247-48, 258 (3d Cir.
2016) (concluding, in the Rule 8(a) and 9(b) context, that statistical data about the lack of markings on a company’s pipe
fittings was sufficient to state an FCA claim for avoiding
import duties when paired with an expert’s declaration analyzing the facts of that case, specific examples of unmarked

11a
means that statistical data cannot meet those
pleading requirements if, among other possible
issues, it is also consistent with a legal and obvious
alternative explanation.20
Insofar as Integra Med purports to give specific
examples of fraudulent claims, it also fails to meet
the pleading requirements of Rules 8(a) and 9(b).
Integra Med’s examples simply give some identifying patient information and pair it with a diagnosis. No example gives any indication about what
makes it a false claim. The claims of falsity are
simply conclusory.21
B
1
We next examine whether Integra Med’s allegations that Baylor trained and pressured its physicians and CDI employees to “upcode” MCCs are
sufficient to establish that Baylor was engaging in
pipes with photographs, a witness statement about receiving
improperly marked pipes, and detailed records about the
shipments at issue); Boykin v. Georgia-Pac. Corp., 706 F.2d
1384, 1390-94 (5th Cir. 1983) (concluding, in the Rule 8(a)
context, that plaintiff’s presentation of statistical data successfully stated a prima facie case of racial discrimination).
20
21

See Iqbal, 556 U.S. at 678.

See Taylor v. Books A Million, Inc., 296 F.3d 376, 378
(5th Cir. 2002) (“[C]onclusory allegations or legal conclusions
masquerading as factual conclusions will not suffice to prevent a motion to dismiss.” (quoting S. Christian Leadership
Conference v. Supreme Court of the State of La., 252 F.3d 781,
786 (5th Cir. 2001))).

12a
a scheme to submit fraudulent claims to Medicare.
We conclude that they are not. In publishing the
new DRG coding rules, CMS explicitly expected
hospitals to work with their physicians and medical coders, including through training, to “focus on
understanding the impact of the revised CC list.”22
According to Integra Med, Baylor trained physicians to focus on keywords, provided tip sheets
reminding physicians of how to report high-value
MCCs, had CDI employees look for opportunities
where high-value MCCs might be present, and
would sometimes send physicians documents asking them to clarify their diagnoses. Integra Med
argues that these practices show Baylor was
involved in a scheme to defraud Medicare. But
CMS encouraged hospitals to employ practices like
these after it implemented the new DRG rules.23
Far from a fraudulent scheme, Baylor’s implementation of such practices is entirely consistent with
the new DRG rules.24
For example, Baylor’s use of tip sheets is consistent with the fact that coding and clinic terminology
are often different. Tip sheets help hospitals align
the two. Likewise, non-leading documents asking
22

See Medicare Program; Changes to the Hospital Inpatient Prospective Payment Systems and Fiscal Year 2008
Rates, 72 Fed. Reg. at 47,182 (“[H]ospitals may focus on
understanding the impact of the revised CC list, training and
educating their coders, and working with their physicians for
any documentation improvements required to allow the
reporting of more specific codes where applicable.”).
23

See id.

24

Id.

13a
physicians to clarify their diagnoses are also consistent with implementing the new DRG rules
since the new DRG rules moved hospitals away
from focusing on general diagnoses and codes to
frequently using more specific diagnoses and
codes.25 Physicians were likely still accustomed to
the old, more general system. These clarification
documents had numerous suggestions, a simple box
to check to decline clarification, and a disclaimer
not to take implications from the fact clarification
was asked for. Additionally, some of the clarification documents provided by Integra Med in its complaint show that clarification was requested in
instances in which physicians wrote down symptoms but failed to provide a diagnosis for the cause
of those symptoms. These clarification documents
also did not ask leading questions. Considering
diagnoses are critical for Medicare reimbursements
and these specific clarification documents were not
leading, they are consistent with Baylor engaging
in legal activity.
Therefore, we conclude that these allegations are
also consistent with a legal and “obvious alternative explanation.”26
2
In its complaint, Integra Med also cites the statements of a medical coder who said that a then25
26

See id. at 47,130-82 (Aug. 22, 2007) (final rule).

See Ashcroft v. Iqbal, 556 U.S. 662, 682 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 567 (2007)).

14a
Baylor executive told “CDIs things that were totally
not true” as a part of a “deliberate effort to promote
the coding of MCCs.” According to Integra Med,
this medical coder said she was given specific
instructions on how to code, and that medical
coders “receive[d] pressure directly from . . . leadership to code unethically.” This medical coder also
allegedly quit her job because she “was continually
getting directives to compromise her integrity.”
But these allegations fail to satisfy the heightened
pleading standards required by Federal Rule of
Civil Procedure 9(b) because they fail to state the
content of these allegedly unethical and fraudulent
directives, trainings, and guidance.27 Thus, the dis27
See Hart v. Bayer Corp., 199 F.3d 239, 247 n.6 (5th Cir.
2000) (concluding that to meet the pleading requirements of
Rule 9(b) a complaint must state “the who, what, when, and
where” of a claim. (quoting Williams v. WMX Techs., Inc.,
112 F.3d 175, 178 (5th Cir. 1997))). Integra Med claims that
the situation here is “strikingly similar” to the situation in
United States ex rel. Integra Med Analytics, LLC v. Creative
Solutions in Healthcare, Inc., No. SA-17-CV-1249-XR, 2019
WL 5970283 (W.D. Tex. Nov. 13, 2019). We disagree. In
Creative Solutions, the employee witness interviews actually
revealed the contents of a specific fraudulent scheme. Id. at
*4. That opinion notes, “a physical therapist at Fairfield
recalled being instructed to allot 15 minutes for evaluation,
even though it required 45 minutes, with the rest of the evaluation session charged at therapy rates.” Id. (internal quotation omitted). The interview responses given by Integra
Med here, while alleging a vague scheme to “promote the coding of MCCs,” do not provide the who, what, when, and
where of such scheme as required by Rule 9(b). The vague
allegation here contrasts with the Creative Solutions interview responses, which included the requisite particularity
and specificity.

15a
trict court correctly dismissed the claim based on
these conclusory allegations.
C
We next look at Integra Med’s allegations that
Baylor provided unnecessary treatment to patients
in order to use higher-value MCCs. Specifically,
Integra Med contends that “Baylor purposefully
placed and kept post-operative patients on ventilator support” when it was medically unnecessary.
The allegations here are based solely on the fact
“that Baylor patients undergoing major heart surgery were placed on mechanical ventilation over
twice the national average.” These allegations do
not withstand the heightened pleading requirements for fraud under Rule 9(b).
Integra Med fails to plead particular details of a
scheme to defraud Medicare. Even when plaintiffs
in an FCA case use statistics, which can be reliable
indicia of fraud, they must still plead particular
details of a fraudulent scheme for each claim.28
28

United States ex rel. Grubbs v. Kanneganti, 565 F.3d
180, 190 (5th Cir. 2009) (“We hold that to plead with particularity the circumstances constituting fraud for a False Claims
Act § 3729(a)(1) claim, a relator’s complaint, if it cannot
allege the details of an actually submitted false claim, may
nevertheless survive by alleging particular details of a
scheme to submit false claims paired with reliable indicia
that lead to a strong inference that claims were actually submitted.”); see also United States ex rel. Nunnally v. W.
Calcasieu Cameron Hosp., 519 F. App’x 890, 893 (5th Cir.
2013) (“We established that a relator could, in some circumstances, satisfy Rule 9(b) by providing factual or statistical

16a
Here, Integra Med’s complaint contains a conclusory
allegation that Baylor was providing unnecessary
treatment to its patients and supports it with a
single statistic—that Baylor patients undergoing
major heart surgery were put on a mechanical ventilator at a rate over twice the national average.
Integra Med does not present sufficient particular
details of this alleged fraud claim. The district
court correctly dismissed the FCA claim based on
Integra Med’s allegation that Baylor provided
unnecessary treatment to patients to increase its
Medicare reimbursements.
In conclusion, Integra Med has failed to meet its
pleading requirements under Rules 8(a) and 9(b).
The district court did not, as Integra Med contends,
view the complaint in the light most favorable to
Baylor—it simply correctly held Integra Med to the
higher pleading standard required for an FCA
claim.
III
Integra Med contends that the district court
improperly held its allegations to a more rigorous
scienter requirement than was required by the
FCA. But we need not address scienter because the
evidence to strengthen the inference of fraud beyond mere
possibility, without necessarily providing details as to each
false claim. This standard nonetheless requires the relator to
provide other reliable indications of fraud and to plead a level
of detail that demonstrates that an alleged scheme likely
resulted in bills submitted for government payment.”
(emphasis and citations omitted)).

17a
district court correctly dismissed Integra Med’s
claims for failing to meet the pleading requirements required by Rules 8(a) and 9(b) for pleading
the FCA’s element that there be “a false statement
or fraudulent course of conduct.”29
Integra Med also contends that the district court
improperly applied a probability standard at the
pleadings stage instead of a plausibility standard.
But regardless of whether the district court mistakenly applied a probability standard rather than
a plausibility standard, our conclusion is the
same.30 Since “[we] may affirm the district court on
any grounds supported by the record and argued in
the court below,” any misapplication that might
have occurred here would not require us to vacate
or reverse the district court’s judgment.31
* * *
For these reasons, the district court’s judgment
is AFFIRMED.

29

United States ex rel King v. Solvay Pharm., Inc., 871
F.3d 318, 324 (5th Cir. 2017) (quoting United States ex rel.
Longhi v. United States, 575 F.3d 458, 467 (5th Cir. 2009)).
30

See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (“Where
a complaint pleads facts that are ‘merely consistent with’ a
defendant’s liability, it ‘stops short of the line between possibility and plausibility of “entitlement to relief.” ’ ” (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 557 (2007))).
31

Maria S. ex rel. E.H.F. v. Garza, 912 F.3d 778, 783 (5th
Cir. 2019) (citing Doctor’s Hosp. of Jefferson, Inc. v. Se. Med.
All., Inc., 123 F.3d 301, 307 (5th Cir. 1997)).

18a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50818
Filed May 28, 2020
D.C. Docket No. 5:17-CV-886
United States of America, ex rel,
INTEGRA MED ANALYTICS, L.L.C.,
Plaintiff-Appellant
v.
BAYLOR SCOTT & WHITE HEALTH;
BAYLOR UNIVERSITY MEDICAL CENTER – DALLAS;
HILLCREST BAPTIST MEDICAL CENTER;
SCOTT & WHITE HOSPITAL – ROUND ROCK;
SCOTT & WHITE MEMORIAL HOSPITAL TEMPLE,
Defendants-Appellees
Appeal from the United States District Court
for the Western District of Texas
Before OWEN, Chief Judge, and HIGGINBOTHAM and
Willett, Circuit Judges.

19a
JUDGMENT
This cause was considered on the record on
appeal and the briefs on file.
It is ordered and adjudged that the judgment of
the District Court is affirmed.
IT IS FURTHER ORDERED that appellant pay to
appellees the costs on appeal to be taxed by the
Clerk of this Court.
United States Court of Appeals
Fifth Judicial Circuit
[SEAL]
Certified as a true copy and issued
as the mandate on Jun 19, 2020

20a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50818
Filed May 28, 2020
UNITED STATES OF AMERICA, ex rel.,
INTEGRA MED ANALYTICS, L.L.C.,
Plaintiff–Appellant,
v.
BAYLOR SCOTT & WHITE HEALTH;
BAYLOR UNIVERSITY MEDICAL CENTER–DALLAS;
HILLCREST BAPTIST MEDICAL CENTER;
SCOTT & WHITE HOSPITAL–ROUND ROCK;
SCOTT & WHITE MEMORIAL HOSPITAL TEMPLE,
Defendants–Appellees.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 5:17-CV-886
Before OWEN, Chief Judge, and HIGGINBOTHAM and
WILLETT, Circuit Judges.

21a
PER CURIAM:*
Integra Med Analytics, L.L.C., filed a qui tam
suit1 on behalf of the United States against Baylor
Scott & White Health system and its affiliates
under the False Claims Act for allegedly using
inflated codes to bill Medicare. The district court
dismissed Integra Med’s claims. We affirm.
I
The Baylor Scott & White Health system and its
affiliates (Baylor) operate a network consisting of
around twenty inpatient short-term acute care hospitals in Texas. A significant number of patients
served by Baylor are covered by Medicare. Thus,
Baylor regularly submits reimbursement claims to
Medicare. In this case, Integra Med Analytics,
L.L.C. (Integra Med) alleges that Baylor submitted
$61.8 million in fraudulent claims to Medicare, in
violation of the False Claims Act (FCA).2
Medicare reimburses hospitals like Baylor on a
per-discharge basis, which means Baylor gets paid
* Pursuant to 5TH CIR. R. 47.5, the court has determined
that this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5TH CIR.
R. 47.5.4.
1

At the federal level, qui tam suits are those that are
filed “for the person and for the United States Government”
and “brought in the name of the Government.” 31 U.S.C.
§ 3730(b)(1). Thus, in qui tam suits, the government is
the real party in interest. United States v. Tex. Tech Univ.,
171 F.3d 279, 289 (5th Cir. 1999).
2

31 U.S.C. § 3729.

22a
each time a patient stays at the hospital. The exact
amount that Medicare reimburses primarily depends
on a hospital’s diagnoses of Medicare-covered
patients. Medicare classifies similar diagnoses by
putting them into a diagnosis related group (DRG).
Each DRG is determined by several kinds of codes,
including the principal diagnosis code and secondary diagnosis codes. The principal diagnosis code is
for the “condition established after study to be
chiefly responsible for occasioning the admission of
the patient to the hospital for care.”3 Secondary
diagnosis codes are for “all conditions that coexist
at the time of admission, that develop subsequently,
or that affect the treatment received and/or length
of stay.”4 Reimbursement can also be affected, to a
lesser extent, by other hospital-specific factors,
such as market conditions in the hospital’s city.
Integra Med’s allegations specifically concern
Baylor’s use of secondary diagnosis codes. The
Centers for Medicare and Medicaid Services (CMS)
publishes a list of secondary codes each year that
can modify a claim to include a complication or
comorbidity (CC) or a major complication or comorbidity (MCC). The inclusion of CCs and MCCs can
add thousands of dollars to a Medicare reimbursement claim. Integra Med alleges that Baylor, led by
3

See Centers for Disease Control, ICD-9-CM Official
Guidelines for Coding and Reporting, Oct. 1, 2011 at 88,
available at https://goo.gl/DC55Wx.
4

See Centers for Disease Control, ICD-9-CM Official
Guidelines for Coding and Reporting, Oct. 1, 2011 at 91,
available at https://goo.gl/DC55Wx.

23a
its clinical documentation improvement (CDI) program, fraudulently used higher-value CCs and
MCCs than were justified by actual medical diagnoses to increase its revenues. Integra Med contends that Baylor’s scheme had three main components.
First, Integra Med contends that Baylor trained
its physicians and CDI employees to “upcode”
MCCs. According to Integra Med, Baylor trained
its physicians to focus on key words, provided lists
of high-value MCCs to physicians to reinforce that
training, and emphasized that using certain terms
would increase their performance pay. Integra Med
also contends that Baylor had its CDI employees
seek opportunities to use higher-value secondary
codes.
Second, Integra Med alleges that Baylor pressured physicians to alter their original diagnoses by
providing documents and asking them to “specify”
or change their diagnosis if the diagnosis did not
include CCs or MCCs. According to Integra Med,
these clarification documents that requested physicians to “specify” their diagnoses would often “suggest either specific revenue-increasing CCs or
MCCs or provide options listing several possible
CCs and MCCs.” Integra Med contends these clarification documents “reveal a clear intent towards
influencing doctors to code higher-paying CCs and
MCCs.”
Third, Integra Med alleges that Baylor provided
unnecessary treatment in order to code high-value
MCCs. Specifically, Integra Med contends that
“Baylor purposefully placed and kept post-opera-

24a
tive patients on ventilator support” when it was
medically unnecessary. Integra Med bases this
allegation on the fact “that Baylor patients undergoing major heart surgery were placed on mechanical ventilation [at rates] over twice the national
average.”
Integra Med analyzed inpatient claims data for
the 2011-2017 period from CMS to discover that
Baylor had been claiming certain MCCs significantly above the national average for other hospitals. Specifically, Integra Med found that Baylor
coded for the MCCs of encephalopathy, respiratory
failure, and severe malnutrition at much higher
rates than other hospitals. Integra Med contends
that its statistical analyses show that Baylor’s
higher rate of coding cannot be explained by
patient characteristics, county demographic data,
the patient’s attending physician, or regional differences. According to Integra Med, its “analyses
prove that the excessive rates of [certain] MCCs
can be directly attributed to [Baylor’s] fraudulent
activity as opposed to external factors, indicating
that the fraud was known by the system and was
intentional.”
Besides statistical data, Integra Med also relied
on several statements from a former Baylor medical coder in concluding that Baylor had defrauded
Medicare. According to Integra Med, this medical
coder recalled a then-Baylor executive “telling
CDIs things that were totally not true” as a part of
a “deliberate effort to promote the coding of MCCs.”
This medical coder also allegedly received specific
instructions on how to code. Integra Med claims

25a
that this medical coder quit her job with Baylor
because she was unable to work where she “was
continually getting directives to compromise her
integrity.” Integra Med also relied on certain statements about increasing hospital revenues from a
former Baylor executive’s social media.
Based on these statistics and statements, Integra
Med sued Baylor under the FCA in federal district
court in April 2018. After Integra Med amended its
complaint twice, Baylor moved under Federal Rule
of Civil Procedure Rule 12(b)(6) to dismiss Integra
Med’s complaint. The district court granted
Baylor’s motion to dismiss, holding that Integra
Med’s complaint failed to state a particularized
claim for which relief could be granted as required
by Federal Rules of Civil Procedure 8(a) and 9(b).
This appeal followed.
II
To survive a motion to dismiss an FCA claim,
Integra Med must plead the following four elements: (1) “a false statement or fraudulent course
of conduct;” (2) that was “made or carried out with
the requisite scienter;” (3) “that was material;” and
(4) “that caused the government to pay out money
or to forfeit moneys due (i.e., that involved a
claim).”5 Integra Med’s case on appeal hinges on
whether Integra Med sufficiently pleaded facts
showing that Baylor’s claims were fraudulent. Thus,
5

United States ex rel. King v. Solvay Pharm., Inc., 871
F.3d 318, 324 (5th Cir. 2017) (quoting United States ex rel.
Longhi v. United States, 575 F.3d 458, 467 (5th Cir. 2009)).

26a
we will examine each of Integra Med’s bases for its
claims, including its statistical data generally, the
documents it has gathered from Baylor, statements
by a former Baylor medical coder, and the claim
that Baylor provided unnecessary medical care to
boost its Medicare reimbursements.
A
We first examine the statistical data presented
by Integra Med, reviewing whether it sufficiently
shows that Baylor’s Medicare reimbursement
claims were fraudulent. “[A] complaint filed under
the False Claims Act must meet the heightened
pleading standard of Rule of 9(b).”6 Federal Rule of
Civil Procedure 9(b) provides, “[i]n alleging fraud
or mistake, a party must state with particularity
the circumstances constituting fraud or mistake.”7
Although the particularity Rule 9(b) demands “differs with the facts of each case,”8 it does generally
6

See, e.g., United States ex rel. Grubbs v. Kanneganti,
565 F.3d 180, 185 (5th Cir. 2009) (first citing United States
ex rel. Russell v. Epic Healthcare Mgmt. Grp., 193 F.3d 304,
308-09 (5th Cir. 1999), abrogated on other grounds by United
States ex rel. Eisenstein v. City of New York, 556 U.S. 928
(2009); and then citing United States ex rel. Karvelas v.
Melrose–Wakefield Hosp., 360 F.3d 220, 228 (1st Cir. 2004),
abrogated on other grounds by Allison Engine Co. v. United
States ex rel. Sanders, 553 U.S. 662 (2008)).
7

FED. R. CIV P. 9(b); see also Kanneganti, 565 F.3d at
185-86.
8

Hart v. Bayer Corp., 199 F.3d 239, 247 n.6 (5th Cir.
2000) (citing Guidry v. Bank of LaPlace, 954 F.2d 278, 288
(5th Cir. 1992)).

27a
require that a complaint detail “the who, what,
when, and where . . . before access to the discovery
process is granted.” 9 Rule 9(b)’s particularity
requirement supplements Rule 8(a)’s demand that
“a complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’ ”10 Rule 8(a) prohibits any
claims that are merely conceivable rather than
plausible.11 A claim is merely conceivable and not
plausible if the facts pleaded are consistent with
both the claimed misconduct and a legal and “obvious alternative explanation.”12
Here, Integra Med’s statistical analysis is consistent with both Baylor having submitted fraudulent
Medicare reimbursement claims to the government
and with Baylor being ahead of most healthcare
providers in following new guidelines from CMS. In
2007, CMS reduced the standardized amount paid
out to hospitals for Medicare reimbursement claims
but increased the number of secondary diagnoses
identified as CCs and MCCs, and coding more CCs
and MCCs can increase hospital reimbursements.13
9
Id. (alteration in original) (quoting Williams v. WMX
Techs., Inc., 112 F.3d 175, 178 (5th Cir. 1997)).
10

Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)); see also
Kanneganti, 565 F.3d at 185.
11

Iqbal, 556 U.S. at 680 (quoting Twombly, 550 U.S. at

570).
12

Id. at 682 (quoting Twombly, 550 U.S. at 567).

13
See Medicare Program; Changes to the Hospital Inpatient Prospective Payment Systems and Fiscal Year 2008

28a
In response to public comments expressing concern
that the new rules would lead to lower reimbursements, CMS stated that it expected reimbursements to increase under the system. 14 CMS
believed it was “clear” that hospitals would “change
their documentation and coding practices and
increase case mix consistent with the payment
incentives that are provided by the” then new coding system.15 In fact, CMS encouraged hospitals to
adopt CDI programs “in order to increase reimbursement” and highlighted an article touting the
effectiveness of CDI programs at increasing
Medicare reimbursement rates.16 CMS unequivocally stated in its guidelines that, “[w]e do not
believe there is anything inappropriate, unethical
or otherwise wrong with hospitals taking full
advantage of coding opportunities to maximize
Medicare payment that is supported by documentation in the medical record.”17
The conclusion that Baylor was simply ahead of
the healthcare industry in following CMS guidelines is supported by the data in Integra Med’s own
complaint. Integra Med’s complaint shows that the
Rates, 72 Fed. Reg. 47,130, 47,135-39 (Aug. 22, 2007) (final
rule).
14
See Medicare Program; Changes to the Hospital Inpatient Prospective Payment Systems and Fiscal Year 2008
Rates, 72 Fed. Reg. at 47,180-82.
15

Id. at 47,182.

16

Id.

17

Id. at 47,180.

29a
rate at which non-Baylor hospitals were using the
MCCs for encephalopathy, respiratory failure, and
severe malnutrition was increasing every year.
These increases were causing the MCC usage rates
of both Baylor and non-Baylor hospitals to converge.
Moreover, for severe malnutrition, non-Baylor hospitals were coding it at a higher rate in 2017 than
Baylor was in 2015. Similarly, for respiratory failure, non-Baylor hospitals were coding it at a higher
rate in 2017 than Baylor was in 2011. These show
that the healthcare industry as a whole was following Baylor in its trajectory and by 2017, other hospitals’ coding was within a few percentage points of
Baylor’s.
These facts strongly indicate that a legal and
“obvious alternative explanation” for the statistical
data presented by Integra Med is that Baylor was
simply ahead of the healthcare industry at implementing the Medicare reimbursement guidelines
supplied by CMS.18 We note that this conclusion
does not exclude statistical data from being used to
meet the pleading requirements of Federal Rule of
Civil Procedure 8(a) and, when paired with particular details, Rule 9(b).19 Our conclusion merely
18

See Ashcroft v. Iqbal, 556 U.S. 662, 682 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 567 (2007)).
19

See, e.g., United States ex rel. Customs Fraud Investigations, LLC v. Victaulic Co., 839 F.3d 242, 247-48, 258 (3d Cir.
2016) (concluding, in the Rule 8(a) and 9(b) context, that statistical data about the lack of markings on a company’s pipe
fittings was sufficient to state an FCA claim for avoiding
import duties when paired with an expert’s declaration analyzing the facts of that case, specific examples of unmarked

30a
means that statistical data cannot meet those
pleading requirements if, among other possible
issues, it is also consistent with a legal and obvious
alternative explanation.20
Insofar as Integra Med purports to give specific
examples of fraudulent claims, it also fails to meet
the pleading requirements of Rules 8(a) and 9(b).
Integra Med’s examples simply give some identifying patient information and pair it with a diagnosis. No example gives any indication about what
makes it a false claim. The claims of falsity are
simply conclusory.21
B
1
We next examine whether Integra Med’s allegations that Baylor trained and pressured its physicians and CDI employees to “upcode” MCCs are
sufficient to establish that Baylor was engaging in
pipes with photographs, a witness statement about receiving
improperly marked pipes, and detailed records about the
shipments at issue); Boykin v. Georgia-Pac. Corp., 706 F.2d
1384, 1390-94 (5th Cir. 1983) (concluding, in the Rule 8(a)
context, that plaintiff’s presentation of statistical data successfully stated a prima facie case of racial discrimination).
20
21

See Iqbal, 556 U.S. at 678.

See Taylor v. Books A Million, Inc., 296 F.3d 376, 378
(5th Cir. 2002) (“[C]onclusory allegations or legal conclusions
masquerading as factual conclusions will not suffice to prevent a motion to dismiss.” (quoting S. Christian Leadership
Conference v. Supreme Court of the State of La., 252 F.3d 781,
786 (5th Cir. 2001))).

31a
a scheme to submit fraudulent claims to Medicare.
We conclude that they are not. In publishing the
new DRG coding rules, CMS explicitly expected
hospitals to work with their physicians and medical coders, including through training, to “focus on
understanding the impact of the revised CC list.”22
According to Integra Med, Baylor trained physicians to focus on keywords, provided tip sheets
reminding physicians of how to report high-value
MCCs, had CDI employees look for opportunities
where high-value MCCs might be present, and
would sometimes send physicians documents asking them to clarify their diagnoses. Integra Med
argues that these practices show Baylor was
involved in a scheme to defraud Medicare. But
CMS encouraged hospitals to employ practices like
these after it implemented the new DRG rules.23
Far from a fraudulent scheme, Baylor’s implementation of such practices is entirely consistent with
the new DRG rules.24
For example, Baylor’s use of tip sheets is consistent with the fact that coding and clinic terminology
are often different. Tip sheets help hospitals align
the two. Likewise, non-leading documents asking
22

See Medicare Program; Changes to the Hospital Inpatient Prospective Payment Systems and Fiscal Year 2008
Rates, 72 Fed. Reg. at 47,182 (“[H]ospitals may focus on
understanding the impact of the revised CC list, training and
educating their coders, and working with their physicians for
any documentation improvements required to allow the
reporting of more specific codes where applicable.”).
23

See id.

24

Id.

32a
physicians to clarify their diagnoses are also consistent with implementing the new DRG rules
since the new DRG rules moved hospitals away
from focusing on general diagnoses and codes to
frequently using more specific diagnoses and
codes.25 Physicians were likely still accustomed to
the old, more general system. These clarification
documents had numerous suggestions, a simple box
to check to decline clarification, and a disclaimer
not to take implications from the fact clarification
was asked for. Additionally, some of the clarification documents provided by Integra Med in its complaint show that clarification was requested in
instances in which physicians wrote down symptoms but failed to provide a diagnosis for the cause
of those symptoms. These clarification documents
also did not ask leading questions. Considering
diagnoses are critical for Medicare reimbursements
and these specific clarification documents were not
leading, they are consistent with Baylor engaging
in legal activity.
Therefore, we conclude that these allegations are
also consistent with a legal and “obvious alternative explanation.”26
2
In its complaint, Integra Med also cites the statements of a medical coder who said that a then25
26

See id. at 47,130-82 (Aug. 22, 2007) (final rule).

See Ashcroft v. Iqbal, 556 U.S. 662, 682 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 567 (2007)).

33a
Baylor executive told “CDIs things that were totally
not true” as a part of a “deliberate effort to promote
the coding of MCCs.” According to Integra Med,
this medical coder said she was given specific
instructions on how to code, and that medical
coders “receive[d] pressure directly from . . . leadership to code unethically.” This medical coder also
allegedly quit her job because she “was continually
getting directives to compromise her integrity.”
But these allegations fail to satisfy the heightened
pleading standards required by Federal Rule of
Civil Procedure 9(b) because they fail to state the
content of these allegedly unethical and fraudulent
directives, trainings, and guidance.27 Thus, the dis27
See Hart v. Bayer Corp., 199 F.3d 239, 247 n.6 (5th Cir.
2000) (concluding that to meet the pleading requirements of
Rule 9(b) a complaint must state “the who, what, when, and
where” of a claim. (quoting Williams v. WMX Techs., Inc.,
112 F.3d 175, 178 (5th Cir. 1997))). Integra Med claims that
the situation here is “strikingly similar” to the situation in
United States ex rel. Integra Med Analytics, LLC v. Creative
Solutions in Healthcare, Inc., No. SA-17-CV-1249-XR, 2019
WL 5970283 (W.D. Tex. Nov. 13, 2019). We disagree. In
Creative Solutions, the employee witness interviews actually
revealed the contents of a specific fraudulent scheme. Id. at
*4. That opinion notes, “a physical therapist at Fairfield
recalled being instructed to allot 15 minutes for evaluation,
even though it required 45 minutes, with the rest of the evaluation session charged at therapy rates.” Id. (internal quotation omitted). The interview responses given by Integra
Med here, while alleging a vague scheme to “promote the coding of MCCs,” do not provide the who, what, when, and
where of such scheme as required by Rule 9(b). The vague
allegation here contrasts with the Creative Solutions interview responses, which included the requisite particularity
and specificity.

34a
trict court correctly dismissed the claim based on
these conclusory allegations.
C
We next look at Integra Med’s allegations that
Baylor provided unnecessary treatment to patients
in order to use higher-value MCCs. Specifically,
Integra Med contends that “Baylor purposefully
placed and kept post-operative patients on ventilator support” when it was medically unnecessary.
The allegations here are based solely on the fact
“that Baylor patients undergoing major heart surgery were placed on mechanical ventilation over
twice the national average.” These allegations do
not withstand the heightened pleading requirements for fraud under Rule 9(b).
Integra Med fails to plead particular details of a
scheme to defraud Medicare. Even when plaintiffs
in an FCA case use statistics, which can be reliable
indicia of fraud, they must still plead particular
details of a fraudulent scheme for each claim.28
28

United States ex rel. Grubbs v. Kanneganti, 565 F.3d
180, 190 (5th Cir. 2009) (“We hold that to plead with particularity the circumstances constituting fraud for a False Claims
Act § 3729(a)(1) claim, a relator’s complaint, if it cannot
allege the details of an actually submitted false claim, may
nevertheless survive by alleging particular details of a
scheme to submit false claims paired with reliable indicia
that lead to a strong inference that claims were actually submitted.”); see also United States ex rel. Nunnally v. W.
Calcasieu Cameron Hosp., 519 F. App’x 890, 893 (5th Cir.
2013) (“We established that a relator could, in some circumstances, satisfy Rule 9(b) by providing factual or statistical

35a
Here, Integra Med’s complaint contains a conclusory
allegation that Baylor was providing unnecessary
treatment to its patients and supports it with a
single statistic—that Baylor patients undergoing
major heart surgery were put on a mechanical ventilator at a rate over twice the national average.
Integra Med does not present sufficient particular
details of this alleged fraud claim. The district
court correctly dismissed the FCA claim based on
Integra Med’s allegation that Baylor provided
unnecessary treatment to patients to increase its
Medicare reimbursements.
In conclusion, Integra Med has failed to meet its
pleading requirements under Rules 8(a) and 9(b).
The district court did not, as Integra Med contends,
view the complaint in the light most favorable to
Baylor—it simply correctly held Integra Med to the
higher pleading standard required for an FCA
claim.
III
Integra Med contends that the district court
improperly held its allegations to a more rigorous
scienter requirement than was required by the
FCA. But we need not address scienter because the
evidence to strengthen the inference of fraud beyond mere
possibility, without necessarily providing details as to each
false claim. This standard nonetheless requires the relator to
provide other reliable indications of fraud and to plead a level
of detail that demonstrates that an alleged scheme likely
resulted in bills submitted for government payment.”
(emphasis and citations omitted)).

36a
district court correctly dismissed Integra Med’s
claims for failing to meet the pleading requirements required by Rules 8(a) and 9(b) for pleading
the FCA’s element that there be “a false statement
or fraudulent course of conduct.”29
Integra Med also contends that the district court
improperly applied a probability standard at the
pleadings stage instead of a plausibility standard.
But regardless of whether the district court mistakenly applied a probability standard rather than
a plausibility standard, our conclusion is the
same.30 Since “[we] may affirm the district court on
any grounds supported by the record and argued in
the court below,” any misapplication that might
have occurred here would not require us to vacate
or reverse the district court’s judgment.31
* * *
For these reasons, the district court’s judgment
is AFFIRMED.

29

United States ex rel King v. Solvay Pharm., Inc., 871
F.3d 318, 324 (5th Cir. 2017) (quoting United States ex rel.
Longhi v. United States, 575 F.3d 458, 467 (5th Cir. 2009)).
30

See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (“Where
a complaint pleads facts that are ‘merely consistent with’ a
defendant’s liability, it ‘stops short of the line between possibility and plausibility of “entitlement to relief.” ’ ” (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 557 (2007))).
31

Maria S. ex rel. E.H.F. v. Garza, 912 F.3d 778, 783 (5th
Cir. 2019) (citing Doctor’s Hosp. of Jefferson, Inc. v. Se. Med.
All., Inc., 123 F.3d 301, 307 (5th Cir. 1997)).

37a
UNITED STATES DISTRICT COURT
W ESTERN DISTRICT OF T EXAS
S AN A NTONIO DIVISION
No. 5:17-CV-886-DAE
U NITED STATES OF A MERICA ex rel.
I NTEGRA MED A NALYTICS , LLC,
Plaintiff,
vs.
B AYLOR SCOTT & WHITE H EALTH,
B AYLOR U NIVERSITY MEDICAL C ENTER – DALLAS,
H ILLCREST B APTIST MEDICAL C ENTER ,
S COTT & WHITE H OSPITAL – R OUND R OCK,
S COTT & WHITE H OSPITAL T EMPLE,
Defendants.
ORDER GRANTING DEFENDANTS’
MOTION TO DISMISS (DKT. # 21)
Before the Court is a Motion to Dismiss filed by
Defendants Baylor Scott & White Health, Baylor
University Medical Center-Dallas, Hillcrest Baptist
Medical Center, Scott & White Hospital-Round
Rock, and Scott & White Hospital Temple (collectively “Defendants”). (Dkt. # 21.) Pursuant to
Local Rule CV-7(h), the Court finds these matters
suitable for disposition without a hearing. After
careful consideration of the memoranda filed in
support of and in opposition to the motion, the

38a
Court—for the reasons that follow—G RANTS
Defendants’ Motion to Dismiss. (Id.)
BACKGROUND
Factual Background

I.

Defendants in this qui tam action are the operator of a network of inpatient short-term acute care
hospitals and four of its affiliated hospitals. (Dkt.
# 15 1 at 3.) Part of the services Defendants perform are for patients covered by Medicare, and
therefore Defendants regularly submit requests to
Medicare for reimbursement for these services.
(Id.) As such, these request for reimbursement are
subject to the False Claims Act (“FCA”), and knowingly presenting false or fraudulent claims to the
Government for reimbursement is illegal and
incurs civil liability.2 31 U.S.C. § 3729. Plaintiff
alleges that Defendants have submitted “more
than $61.8 million in false claims for Medicare
reimbursement over the past seven years.” (Dkt. #
15 at 5.)
In order to determine the proper amount of reimbursement for services rendered to patients,
1
Because Plaintiff’s complaint contains certain patient
medical information, Plaintiff filed both a sealed, unredacted
version of its complaint (Dkt. # 17) as well as an unsealed,
redacted version (Dkt. # 15). In this order, when citing to the
complaint, the Court will refer to the unsealed, redacted version.
2

The Government has declined to intervene in this
action. (Dkt. # 9.)

39a
Medicare groups patients with similar clinical
problems that are expected to require similar
amounts of hospital resources into what are called
Diagnoses Related Groups (“DRG”). (Id. at 6.) The
DRG is primarily determined by three types of
codes from a Medicare claim: (1) the principle diagnosis code3 ; (2) any surgical procedure code4 ; and
(3) any secondary diagnosis codes5 . (Id. at 7.) The
DRG can then be further adjusted based on hospital specific factors like market conditions in the
hospital’s city. (Id.)
The allegations in this case concern Defendants’
coding of secondary diagnosis codes, which determine the severity level of the DRG. The Centers
for Medicare and Medicaid Services (“CMS”) publishes a list of codes each year that, when added to
a claim, result in the claim being considered a
“Complication or Comorbidity” (“CC”) or a “Major
Complication or Comorbidity” (“MCC”). (Id.) When
a CC or MCC secondary code is added to claim, the
value of that claim can increase anywhere from
$1,000 to $25,000. (Id.)
3

The principal diagnosis code is the “condition established after study to be chiefly responsible for occasioning the
admission of the patient to the hospital for care.” (Dkt. # 15
at 6.)
4

The surgical procedure code represents surgical procedures performed in an operating room setting at the hospital.
(Id.)
5

The secondary diagnosis code represents “all conditions
that coexist at the time of admission, that develop subsequently, or that affect the treatment received and/or length of
stay.” (Id.)

40a
Plaintiff alleges that Defendants engaged in a
scheme to fraudulently upcode CCs and MCCs that
were not justified by the underlying medical diagnosis in order to increase hospital revenue. (Id. at
9.) According to Plaintiff, effectuation of this
scheme took many forms, spearheaded by Anthony
Matejicka, Defendants’ Medical Director for
Coding and Utilization, through Defendants’
Clinical Documentation Improvement (“CDI”) program 6 . (Id. at 8.)
Plaintiff first alleges that Defendants trained its
doctors and CDI staff by emphasizing coding for
MCCs. (Id. at 9.) Such training included encouraging staff to use certain key words that would trigger or permit MCC coding, disseminating a list of
MCCs to focus on, and having employees walk
around with a list of MCCs to look for opportunities to assign them as secondary diagnoses. (Id.)
Defendants also allegedly emphasized to its doctors the importance of their coding efforts to both
Defendants’ revenue and the doctors pay for performance metrics. (Id. at 10–11.) Defendants also
allegedly distributed tip sheets called “Teal
Quickies” that provided doctors with guidance on
how to clinically document diagnoses in a way that
is codable by CMS. (Id. at 11–12.)
Plaintiff next alleges that Defendants pressured
doctors to change diagnoses by sending them
6

CDI programs themselves are common in the industry
and are typically designed to promote accurate documentation of patient diagnoses and treatments so that hospitals can
be properly reimbursed for services rendered. (Id. at 8.)

41a
“queries” encouraging doctors to “specify” or
amend their diagnoses when the initial diagnoses
did not warrant a CC or an MCC. (Id. at 12–16.)
According to Plaintiff, these “document clarification sheets” reveal an intent towards influencing
doctors to code higher-paying CCs and MCCs
because the query sheets largely provide only
options that could permit coding for a CC or and
MCC. (Id.)
Finally, Plaintiff alleges that Defendants provided unnecessary treatment in order to permit them
to code for MCCs. (Id. at 19.) In particular,
Plaintiff alleges Defendants purposefully places
patients on post-operative ventilator support,
which enabled them to code for the MCC of acute
respiratory failure. (Id. at 19–20.)
Plaintiff’s allegations primarily revolve around
the coding of three particular MCCs (“Allegedly
Misstated MCCs”): encephalopathy; respiratory
failure; and severe malnutrition. (Id. at 23.) In
order to support its allegations, Plaintiff requested
and received from CMS inpatient claims data for
short term acute care hospitals from 2011 through
2017 and applied various proprietary methods of
statistical analysis on this data set. (Id. at 21.) The
upshot of this analysis is that Defendants coded
for the Allegedly Misstated MCCs at rates significantly higher than the average of other hospitals.
(Id. at 23–57.) According to Plaintiff, their statistical analysis further demonstrates that alternative
hypothesis such as patient characteristics and
demographics, the preferences or treatment decisions of physicians who work with patients at

42a
Defendants’ hospitals, unique characteristics of
Defendants patients, or regional factors cannot
explain differences in coding rates of the Allegedly
Misstated MCCs. (Id. at 55–83.) On the strength of
this analysis, Plaintiff alleges Defendants improperly received $61.8 million dollars from false
claims due to fraudulent upcoding of the Allegedly
Misstated MCCs. (Id. at 85.)
Based on these allegations, Plaintiff assert one
cause of action against Defendants for violations of
the False Claims Act. Plaintiff alleges that
Defendants: (1) knowingly presented, or caused to
be presented, false or fraudulent claims for payment of approval, in violation of 31 U.S.C.
§ 3729(a)(1)(A); (2) knowingly made, used or
caused to be made or used, a false record or statement material to a false or fraudulent claim, in
violations of 31 U.S.C. § 3729(a)(1)(B); and (3)
knowingly made, used, or caused to be made or
used, a false record or statement material to an
obligation to pay of transmit money or property to
the government, or know-ingly concealing or knowingly and improperly avoiding or decreasing and
obligation to pay or transmit money or property to
the government, in violation of 31 U.S.C.
§ 3729(a)(1)(G). (Id. at 88–89.)
II. Procedural Background
Defendants filed the instant motion to dismiss
under the FCA’s public disclosure bar, and under
Rule 12(b)(6) for failing to plead fraud with partic-

43a
ularity as required by Rule 9(b) and for failure to
state a plausible claim for relief under Rule 8(a).
(Dkt. # 21.) Plaintiff filed a response in opposition
to Defendants’ motion. (Dkt. # 23.) Defendants
then filed a reply in support of their motion. (Dkt.
# 24.)
This motion before the Court is fully briefed and
ripe for review.
LEGAL STANDARD
Federal Rule of Civil Procedure 12(b)(6) authorizes dismissal of a complaint for “failure to state a
claim upon which relief can be granted.” Review is
limited to the contents of the complaint and matters properly subject to judicial notice. See Tellabs,
Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308,
322 (2007). In analyzing a motion to dismiss for
failure to state a claim, “[t]he court accept[s] ‘all
well-pleaded facts as true, viewing them in the
light most favorable to the plaintiff.’ ” In re
Katrina Canal Beaches Litig., 495 F.3d 191, 205
(5th Cir. 2007) (quoting Martin K. Eby Constr. Co.
v. Dallas Area Rapid Transit, 369 F.3d 464, 467
(5th Cir. 2004)).
To survive a Rule 12(b)(6) motion to dismiss, the
plaintiff must plead “enough facts to state a claim
to relief that is plausible on its face.” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007). “A
claim has facial plausibility when the plaintiff
pleads factual content that allows the court to
draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Ashcroft v.

44a
Iqbal, 556 U.S. 662, 678 (2009).
DISCUSSION
In order to prevail on FCA claim, a Plaintiff
must plead and ultimately prove four elements: (1)
“a false statement or fraudulent course of conduct;
(2) made or carried out with the requisite scienter;
(3) that was material; and (4) that caused the government to pay out money or to forfeit moneys due
(i.e., that involved a claim).” United States ex re.
Longhi v. United States, 575 F.3d 458, 467 (5th
Cir. 2009) (quoting and adopting United States ex
rel. Wilson v. Kellogg Brown & Root, Inc., 525 F.3d
370, 376 (4th Cir. 2008).
As previously stated, Defendants asserts three
grounds for the dismissal of Plaintiff’s complaint:
(1) Plaintiff’s claim is barred by the FCA’s Public
Disclosure Bar; (2) Plaintiff has failed to plead
fraud with particularity as required by Rule 9(b);
and (3) Plaintiff has failed to state a plausible
claim for relief as required by Rule 8(a). (Dkt. # 21
at 9.) Because the Court concludes that dismissal
is appropriate under Rule 8(a) working in conjunction with rule 9(b), the Court declines to reach
Defendant’s public disclosure bar arguments.
I.

FCA Pleading Requirements

Rule 9(b) requires that “[i]n alleging fraud or
mistake, a party must state with particularity the
circumstances constituting fraud or mistake.” “[A]
complaint filed under the False Claims act must
meet the heightened pleading standard of Rule

45a
9(b)[.]” United States ex rel. Grubbs v. Kanneganti,
565 F.3d 180, 190 (5th Cir. 2009). Under Fifth
Circuit law, “the particularity demanded by Rule
9(b) differs with the facts of each case, [but] a
plaintiff pleading fraud must set forth ‘the who,
what, when, and where . . . before access to the
discovery process is granted.” Hart v. Bayer Corp.,
199 F.3d 239, 247 (5th Cir. 2000) (internal citations omitted). However, the Fifth Circuit later
clarified that “the ‘time, place, contents, and identity’ standard is not a straitjacket for Rule 9(b).
Rather, the rule is context specific and flexible and
must remain so to achieve the remedial purpose of
the False Claims Act.” Kanneganti, 565 F.3d at
190. As applied in the context of an FCA claim, “to
plead with particularity the circumstances constituting fraud for a False Claims Act . . . claim, a
relator’s complaint, if it cannot allege the details of
an actually submitted false claim, may nevertheless survive by alleging particular details of a
scheme to submit false claims paired with reliable
indicia that lead to a strong inference that claims
were actually submitted.” Id.
Applying this standard, the Court concludes that
Plaintiff’s complaint, as discussed above, alleges a
scheme, spearheaded by Anthony Matejicka, to
increase the number of claims submitted that
include CCs and MCCs and contains reliable indicia leading to a strong inference that claims were
actually submitted based on that scheme.
However, that conclusion does not end the inquiry.
Plaintiff’s complaint must allege that the scheme
was to submit false claims. Id. And that is where

46a
Plaintiff’s allegations fail.
The essence of Plaintiff’s allegations is that
Anthony Matejicka enacted a scheme to increase
the number of patients whose services were coded
for CCs and MCCs. That alleged scheme took several forms, including training doctors to document
the medical record in a way that would permit coding for CCs and MCCs, training staff to be on the
lookout for opportunities to code for CCs and
MCCs and providing doctors with tip sheets and
diagnosis clarification sheets that encouraged
them to diagnose in ways that could permit coding
for CCs and MCCs. (Dkt. # 15 at 9–19.) But such a
scheme is not in and of itself one to submit false
claims and is equally consistent with a scheme to
improve hospital revenue through accurate coding
of patient diagnoses in a way that will be appropriately recognized and reimbursed by CMS commensurate with the type and amount of services rendered.
CMS “encourage[s] hospitals to engage in complete and accurate coding” and has “reaffirm[ed
its] view that hospitals focus their documentation
and coding efforts to maximize reimbursement.”
Medicare Program, Changes to the Hospital
Inpatient Prospective Payment systems and Fiscal
Year 2008 Rates, 72 FR 47130, 4718 1 7 . CMS is
well aware of the existence of hospital “methods
7
To the extent necessary, the Court takes judicial notice
of this report as a matter of public record. The Court may
take judicial notice of matters of public record. See Swindol v.
Aurora Flight Sciences Corp., 805 F.3d 516, 518–19 (5th Cir.
2015)

47a
for improving clinical documentation in order to
increase reimbursement” and that hospitals “utiliz[e] clinical documentation specialists that work
on the hospital treatment floors to encourage
improvements in clinical documentation” to
“improve coding and increase payment.” Id. at
47182.
Moreover, CMS has directly disavowed “the
notion . . . that CMS believes changes in how
services are documented or coded that [are] consistent with the medical record [are] inappropriate or
otherwise unethical.” Id. at 47181. CMS does “not
believe there is anything inappropriate, unethical
or otherwise wrong with hospitals taking full
advantage of coding opportunities to maximize
Medicare payment that is supported by documentation in the medical record.” Id. CMS was fully
aware that hospitals would “change their documentation and coding practices and increase case
mix consistent with the payment incentives that
are provided by the” then newly implemented MSDRG system and fully supported this practice. Id.
at 47182.
Consequently, the mere fact that Defendants
took targeted steps to increase their coding of CCs
and MCCs to increase hospitals revenues is neither fraudulent, nor improper per se. See United
States ex rel. Bennet v. Medtronic, Inc., 747
F. Supp. 2d 745, 783 (S.D. Tex. 2010) (concluding
that Defendant’s encouraging hospitals to exploit
an opportunity for legitimate profits “does not create a reasonable inference that physicians and
hospitals knowingly summitted false claims”). To

48a
state a claim for relief, there must be an allegation
that a defendant knew that using a particular code
was incorrect. Id. Plaintiff has failed to make any
such allegation.
At most, Plaintiff’s complaint reveals is that
Defendants made targeted efforts to encourage
and incentivize diagnosing patients in a way that
permitted the coding of CCs and MCCs. But nothing in Plaintiff’s complaint implicates a conclusion
that these targeted efforts requested, demanded,
or encouraged doctors and staff to diagnose in a
way that was not justified by the physicians own
medical opinions, judgments, and the medical
record, beyond Plaintiff’s mere conclusion that
that is what the efforts reveal. See Iqbal, 556 U.S.
678 (holding that a pleading that offers merely
“labels and conclusions” is insufficient under
Rule 8). As previously stated, CMS takes the opposite view as Plaintiff.
The only allegations made by Plaintiff in any
way implying that Defendants’ coding efforts were
in any way improper are the assertions that “medical coders then began to increasingly receive pressure directly from . . . leadership to code unethically” and that one former medical coder quit
because she “was continually getting directives to
compromise her integrity.” (Dkt. # 15 at 9.) But
these allegations do not specify what the pressure
was, who applied the pressure, or how the desired
coding was unethical or fraudulent, and does not
give any specific examples of any requests for
unethical, inappropriate, or fraudulent coding.
Such “naked assertions devoid of further factual

49a
enhancement” are insufficient under Rule 8’s
pleading standards. Iqbal, 556 U.S. at 678.
Further, Plaintiff’s allegations are equally consistent with the conclusion that Defendants were
taking steps to improve the accuracy and consistency of their medical documentation and coding
so as to align it with terminology that CMS would
recognize and reimburse appropriately. “[W]here a
complaint pleads facts that are “merely consistent
with” a defendant’s liability, it “stops short of the
line between possibility and plausibility of ‘entitlement to relief.’ ” Id. at 678; see also Bell Atl. Corp.,
550 U.S. at 567–69 (holding that where there is an
“obvious alternative explanation” that is legal, the
complaint fails to state a claim for relief).
Emphasizing to doctors that they should diagnose
and document in a way that CMS’s coding scheme
would recognize, as opposed to the clinical terminology the doctors were used to using, is not in and
of itself fraudulent, and can be adequately
explained as merely “taking full advantage of coding opportunities to maximize Medicare payment,”
something CMS has expressly endorsed. See 72 FR
at 47181.
This conclusion is even supported by some of the
data provided in Plaintiff’s complaint. For each of
the three Allegedly Misstated MCCs, as well as for
all three collectively, Plaintiff’s complaint provides
bar graphs comparing Defendants use of the MCC
as compared with the average of other hospitals,
for the years 2011 through 2017. (See Dkt. # 15 at
22, 25, 35, 46.) In all four instances, the trend
reveals that the average use of the Allegedly

50a
Misstated MCC’s by other hospitals increased
every year from 2011 to 2017, and by 2017 was
within a few percentage points of Defendants’ use
of the MCC’s. (See Id.) This data is thus as consistent with the conclusion that Defendants were
merely ahead of the industry in improving the
accuracy of their coding as far as CMS reimbursements are concerned, and that the rest of the
industry slowly but surely improved the accuracy
of its own coding, closing the gap in the use of the
Allegedly Misstated MCCs, as it is consistent with
the conclusion that Defendants were submitting
fraudulently coded reimbursement requests. Once
again, “facts that are ‘merely consistent with’ a
defendant’s liability, . . . stop[ ] short of the line
between possibility and plausibility of entitlement
to relief.” Iqbal, 556 U.S. at 678.
Plaintiff’s statistical analysis allegedly demonstrating that no other explanation but fraud
accounts for the data it analyzed overlooks one
major alternative hypothesis: Defendants were
simply better than their peers in their efforts to
ensure their medical documentation and coding
maximized the opportunities for legitimate reimbursement from CMS. See Bell Atl. Corp., 550 U.S.
at 567–69 (holding that where there is an “obvious
alternative explanation” that is legal, the complaint fails to state a claim for relief). Ultimately,
Plaintiff’s allegations are “not only compatible
with” but arguably “more likely explained by” lawful conduct. Id. at 680. In such instances, Rule 8
has not been satisfied. See Id.; see also United
States v. Catholic Health Initiative, 312 F. Supp.

51a
3d 584, 598 (S.D. Tex. 2018) (finding that where a
defendant’s alleged conducted “was legitimate, it
renders implausible Relators’ assertion that
Defendants ‘knowingly and willfully’” violated the
FCA).
The closest Plaintiff’s complaint comes to plausibly alleging a claim for relief is its assertion that
Defendants provided unnecessary treatment, in
particular mechanical ventilation for patients
after undergoing major heart surgery, enabling
them to code for the MCC of acute respiratory failure. (Dkt. # 15 at 19–21.) However, this conclusion
appears to be based entirely on the mere fact that
Defendants provided this service at rates higher
than average. (See id.) On Rule 12(b)(6) review,
the Court does not “accept conclusory allegations,
unwarranted deductions, or legal conclusions.”
Southland Sec. Corp. v. INSpire Ins. Solutions,
Inc., 365 F.3d 353, 361 (5th Cir. 2004). And ultimately, medical diagnoses and the proper course of
treatment are “expressions of opinion of scientific
judgments about which reasonable minds may differ” and such “opinion[s] cannot be ‘false’ for the
purposes of the FCA” because “a lie is actionable
but not an error.” United States ex rel. Riley v. St.
Luke’s Episcopal Hosp., 335 F.3d 370, 376 (5th Cir.
2004).
Plaintiff makes no allegations that any doctors
were told, ordered, or even encouraged to provide
mechanical ventilator treatment in contradiction
to their own independent medical judgments. (See
Dkt. # 15 at 19–21.) That Defendants provided a
certain treatment at rates higher than average,

52a
even significantly higher than average, is not by
itself indicative of fraud or unnecessary treatment.
See Iqbal, 556 U.S. 678 (“Where a complaint
pleads facts that are merely consistent with a
defendant’s liability, it stops short of the line
between possibility and plausibility of entitlement
to relief.”) (internal quotation marks omitted).
Plaintiff’s bare allegation that Defendants provided medically unnecessary procedures to permit
them to fraudulent code MCCs is thus insufficient
to state a claim for relief. See Id. (holding that “a
pleading that offers labels and conclusions” and
merely “tenders naked assertions” is insufficient
under Rule 12(b)(6).)
Accordingly, the Court finds that Defendants
Motion to Dismiss should be G RANTED. (Dkt. # 21.)
Further, because the operative complaint is
Plaintiff’s second amended complaint, meaning
Plaintiff has had at least two opportunities to
reformulate their allegations to state a claim for
relief that satisfied federal pleading standards,
Plaintiff’s claims are D ISMISSED WITH P REJUDICE.
CONCLUSION
For the reasons stated, the Court G RANTS
Defendants’ Motion to Dismiss. (Dkt. # 21.)
Plaintiff’s claims are D ISMISSED WITH P REJUDICE,
and this case is C LOSED.
IT

IS

S O O RDERED.

53a
D ATED: San Antonio, Texas, August 5, 2019.
/s/
D AVID A LAN E ZRA
David Alan Ezra
Senior United States District Judge

54a
UNITED STATES DISTRICT COURT
for the
Western District of Texas
Civil Action No. SA-17-CV-886-DAE
Filed August 06, 2019
United States of America ex rel. et al
Plaintiff
v.
Baylor Scott
Defendant
JUDGMENT IN A CIVIL ACTION
The court has ordered that (check one):
r the plaintiff (name) __________ recover from the
defendant (name) ______________ the amount of
_____________ dollars ($ ____), which includes prejudgment interest at the rate of ____ %, plus postjudgment interest at the rate of ____ %, along with
costs.
r the plaintiff recover nothing, the action be dismissed on the merits, and the defendant (name)
_________________ recover costs from the plaintiff
(name) __________________.

55a
þ other:

The operative complaint is Plaintiff’s
second amended complaint, meaning
Plaintiff has had at least two opportunities to reformulate their allegations
to state a claim for relief that satisfied
federal pleading standards, Plaintiff’s
claims are DISMISSED WITH

This action was (check one):
r tried by a jury with Judge _________ presiding,
and the jury has rendered a verdict.
r tried by Judge __________ without a jury and
the above decisionwas reached.
þ decided by Judge David A. Ezra
Date: 08/06/2019

CLERK

OF

COURT

JEANNETTE J. CLACK
/s/ [ILLEGIBLE] RAMOS
Signature of Clerk or
Deputy Clerk

56a
P. Jason Collins (TX Bar No. 24040711)
jcollins@rctlegal.com
Jeremy H. Wells (TX Bar No. 24098805)
jwells@rctlegal.com
Scotty G. Arbuckle, III (TX Bar No. 24089969)
tarbuckle@rctlegal.com
REID COLLINS & TSAI LLP
1301 S. Capital of Texas Hwy., Suite C300
Austin, TX 78746
T: 512.647.6100
F: 512.647.6129
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
Case No.: 17-CV-0886-DAE
UNITED STATES OF AMERICA, ex rel.
INTEGRA MED ANALYTICS LLC,
Plaintiff,
v.
1. BAYLOR SCOTT & WHITE HEALTH,
2. BAYLOR UNIVERSITY MEDICAL CENTER – DALLAS,
3. HILLCREST BAPTIST MEDICAL CENTER,
4. SCOTT & WHITE HOSPITAL – ROUND ROCK,
5. SCOTT & WHITE MEMORIAL HOSPITAL – TEMPLE
Defendants.

57a
SECOND AMENDED COMPLAINT
JURY TRIAL DEMANDED
TABLE OF CONTENTS
I.

INTRODUCTION...........................................1

II.

JURISDICTION AND VENUE......................2

III. PARTIES........................................................3
IV. SUBSTANTIVE ALLEGATIONS ..................4
A. Overview of Medicare Reimbursement
and Upcoding ...........................................4
B. Relator has uncovered a culture of
non-compliance at Baylor, whose
leadership actively encouraged
doctors to apply unnecessary MCCs ........6
1.

Baylor trained its doctors and
CDI staff to upcode MCCs.................7

2.

Baylor pressured doctors to
change their diagnoses ....................10

3.

Baylor provided unnecessary
treatment, which enabled it
to code MCCs ...................................17

C. Relator’s Methodology............................19
D. Defendants’ False Claims ......................21
1.

The False Claims made by
Baylor ..............................................21

58a

V.

2.

Alternative Hypotheses for
Excessive Rates of Misstated
MCCs Do Not Stand and
Confirm that Baylor
Fraudulently Billed Medicare .........55

3.

Economic Damages ..........................84

CAUSES OF ACTION..................................86

VI. PRAYER FOR RELIEF................................87
VII. JURY TRIAL DEMANDED .........................88
This is an action brought by Plaintiff/Relator
Integra Med Analytics LLC (“Relator”) on behalf
of the United States of America pursuant to the
Federal False Claims Act, 31 U.S.C. § 3729, et seq.
In support thereof, Relator alleges as follows:
I. INTRODUCTION
1. Through a proprietary analysis of all claims
submitted to Medicare nationwide since 2011,
Relator uncovered that Baylor Scott & White
Health and its affiliated hospitals (collectively,
“Baylor” or the “Baylor Defendants”) routinely
used unwarranted Major Complication and
Comorbidity secondary codes, which falsely inflated claims submitted to Medicare. A multi-faceted
investigation of Baylor and its leadership—which
included interviewing former employees, reviewing
training and marketing materials, and extensive
econometric analysis—confirmed that Baylor’s
false Medicare claims were not only intentional,

59a
but were part of a systematic effort by Baylor management to boost its Medicare revenue. Relator
now brings this action to recover over $61.8 million
paid by the United States as a result of Baylor’s
fraud.
2. Baylor was created from the combination of
two Texas healthcare systems, Baylor Health Care
System and Scott & White Healthcare. Together,
these organizations formed one of the nation’s
largest health systems, operating approximately 20
inpatient short-term acute care hospitals with
inpatient Medicare claims throughout central and
north Texas. Baylor operates this system through a
number of wholly-owned and/or controlled entities,
including the defendant facilities. Baylor received
approximately $639 million in Medicare reimbursements for inpatient stays at its short term acute
care facilities in fiscal year 2015, accounting for
approximately half of its gross revenue.
3. To establish amounts billed to Medicare for
patient services, hospital systems like Baylor must
properly code such services according to preapproved standards. Baylor’s Code of Conduct publicly espouses lofty coding standards through which
it vows to implement “controls to prevent, detect
and correct actions that do not comply with applicable federal and state laws,” and “to submit claims
to government . . . that reflect truth and accuracy.”1
1
Compliance with Billing and Coding Laws and Regulations, Baylor Scott & White Health Code of Conduct (2017),
available at https://goo.gl/KKhSaq.

60a
In reality, Baylor’s own corporate leadership disregarded these standards and created a systemwide
culture that promoted increasing Medicare billing
without regard for accuracy. Baylor’s efforts
ranged from extensive training on how to spike
Medicare revenue, to pushing doctors to change
their original diagnoses in ways that would lead to
unwarranted MCCs.
4. In addition to identifying the Defendants’
false claims through its proprietary analysis—and
then confirming its findings through exhaustive
investigation—Relator also performed extensive
econometric analysis designed to eliminate conceivable innocent explanations. Thus, for instance,
Relator’s analysis rules out the possibility that the
Defendants’ inflated Medicare billings arise from
an issue with the treating doctors or the type of
patient that Baylor treats. Moreover, to be conservative, only the most extreme, statistically significant cases of upcoding have been identified by the
Relator as fraudulent.
5. In short, Relator has determined that Baylor
has submitted more than $61.8 million in false
claims for Medicare reimbursement over the past
seven years.
II. JURISDICTION AND VENUE
6. This Court has subject matter jurisdiction
over this action pursuant to 31 U.S.C. § 3732(a)
and 28 U.S.C. § 1331.

61a
7. This Court has personal jurisdiction over each
named Defendant because, inter alia, the
Defendants transacted business in this District;
reside in this District; engaged in wrongdoing in
this District; and/or caused the submission of false
or fraudulent claims in this District. Moreover, 31
U.S.C. § 3732(a) provides for nationwide service of
process, which is an independent ground for personal jurisdiction.
8. Venue is proper in this District under 31
U.S.C. § 3732(a) and 28 U.S.C. § 1391(b) and (c).
During the relevant time period, a substantial portion of the events complained of that gave rise to
Plaintiff’s claims occurred in this District in violation of 31 U.S.C. § 3729 and § 3730.
9. There has been no public disclosure of the
allegations herein. To the extent that there has
been a public disclosure unknown to Relator,
Relator is an “original source” under 31 U.S.C.
§ 3730(e)(4). Relator has direct and independent
knowledge of the information on which the allegations are based and voluntarily provided the information to the Government before filing this qui
tam action based on that information. See 31
U.S.C. § 3730(e)(4).
III. PARTIES
10. Relator Integra Med Analytics LLC is a
Texas limited liability company with its principal
place of business in Austin, Texas.

62a
11. Relator is an associated company of Integra
Research Group LLC, which specializes in using
statistical analysis to uncover and prove fraud.
Integra Research Group LLC’s sister company,
Integra REC LLC, has extensive experience using
statistical analysis to detect and prove fraud,
specifically in mortgage-backed securities and
other financial markets. Integra REC LLC has successfully initiated numerous cases under the False
Claims Act.
12. Defendant Baylor Scott & White Health is a
Texas corporation with its principal place of business located at 3500 Gaston Avenue, Dallas, TX
75246, and its registered agent listed as CT
Corporation System, 1999 Bryan Street, Suite 900,
Dallas, TX 75201.
13. Defendant Baylor University Medical Center
– Dallas is a Texas corporation with its principal
place of business located at 3500 Gaston Avenue,
Dallas, TX 75246, and its registered agent listed as
CT Corporation System, 1999 Bryan Street, Suite
900, Dallas, TX 75201.
14. Defendant Hillcrest Baptist Medical Center
is a Texas corporation with its principal place of
business located at 100 Hillcrest Medical
Boulevard, Waco, TX 76712, and its registered
agent listed as CT Corporation System, 1999 Bryan
Street, Suite 900, Dallas, TX 75201.
15. Defendant Scott & White Hospital – Round
Rock is a Texas corporation with its principal place
of business located at 300 University Boulevard,

63a
Round Rock, TX 78665, and its registered agent
listed as CT Corporation System, 1999 Bryan
Street, Suite 900, Dallas, TX 75201.
16. Defendant Scott & White Memorial Hospital
– Temple is a Texas corporation with its principal
place of business located at 2401 South 31st Street,
Temple, TX 76508, and its registered agent listed
as CT Corporation System, 1999 Bryan Street,
Suite 900, Dallas, TX 75201.
IV. SUBSTANTIVE ALLEGATIONS
A. Overview of Medicare Reimbursement
and Upcoding
17. Medicare makes payments to hospitals on a
per-discharge basis, i.e., one payment for each
inpatient hospital stay. The payment is designed to
cover the average cost of resources needed to treat
each patient’s needs. To account for the patient’s
needs, Medicare assigns each discharge to a diagnosis related group (a “DRG”), which groups
patients with similar clinical problems that are
expected to require similar amounts of hospital
resources.2 The DRG is the single most impactful
factor in determining the average payment for a
claim, which can be further adjusted by hospitalspecific factors such as market conditions in the
hospital’s city, indirect medical education payments, and disproportionate share payments.
2

See Medpac, Hospital Acute Inpatient Services Payment
System Payment Basics, Oct. 2014.

64a
18. The DRG is primarily determined by three
types of codes from a Medicare claim: the principal
diagnosis code, surgical procedure codes, and secondary diagnosis codes. The principal diagnosis
code is defined as the “condition established after
study to be chiefly responsible for occasioning the
admission of the patient to the hospital for care.”3
Surgical procedure codes represent surgical procedures performed in an operating room setting at
the hospital. Secondary diagnoses represent “all
conditions that coexist at the time of admission,
that develop subsequently, or that affect the treatment received and/or the length of stay.”4
19. There are more than 330 base DRGs, and
each base DRG can have up to three severity levels:
(i) without Complication or Major Complication, (ii)
with Complication, and (iii) with Major
Complication.5 The secondary diagnoses on the
claim determine the severity level of a DRG. The
Centers for Medicare and Medicaid Services (the
“CMS”) publishes a list of codes each year that,
when added to a claim, result in the claim being
considered a Complication or Comorbidity (a “CC”)
or Major Complication or Comorbidity (an “MCC”).
Adding a CC secondary code to a claim can increase
3

See Centers for Disease Control, ICD-9-CM Official
Guidelines for Coding and Reporting, Oct. 1, 2011 at 88,
available at https://goo.gl/DC55Wx.
4
5

Id. at 91.

See Medpac, Hospital Acute Inpatient Services Payment
System Payment Basics, Oct. 2014.

65a
the value of the claim from anywhere between
approximately $1,000 and $10,000. Adding an
MCC secondary code can increase the value $1,000
to $25,000. Hospitals are thus incentivized to add
unwarranted secondary diagnosis codes to
Medicare reimbursement claims.
B. Relator has uncovered a culture of
non-compliance at Baylor, whose leadership actively encouraged doctors to
apply unnecessary MCCs
20. Like most hospital groups, Baylor has a clinical documentation improvement (“CDI”) program.
These programs are typically designed to promote
the accurate documentation of a patient’s diagnoses and treatments such that they can be properly coded for reimbursement. At Baylor, however,
CDI efforts are primarily geared toward inflating
the hospital system’s Medicare revenue. Indeed,
the former head of Baylor’s CDI program in
Central Texas, Anthony Matejicka, boasts that he
“add[ed] consistently to top line revenue” and
brought about “improvement” in Baylor’s Case Mix
Index (“CMI”), which is influenced by a hospital’s
CC and MCC rates. Matejicka also boasted about
“raising Quality metrics” through “enhanced
patient severity,” which is likewise increased
through coding higher CC and MCC rates.

66a

21. Matejicka effectively executed his multifaceted scheme to improve revenue and quality metrics by increasing the coding of MCCs (including
personally training CDI specialists and doctors),
disseminating tip sheets to guide doctors towards
coding MCCs, and deploying a team of CDI specialists whose job was to persuade doctors to change
their documentation to reflect higher severity of illness than warranted.
22. Medical coders also received pressure from
Baylor HIM (Health Information Management)
leadership to upcode. After Matejicka left Baylor in
January 2014, the rate of MCCs declined slightly.

67a
But medical coders then began to increasingly
receive pressure directly from HIM leadership to
code unethically. According to a former medical
coder, the HIM department at Baylor issued directives to her coding supervisor to code a certain way,
even if it was not appropriate. This coder overheard her supervisor saying “that’s not right” during conversations with Baylor HIM management.
The medical coder received instructions that her
supervisor forwarded to her from Baylor management with directives to code in a specific way, and
eventually quit because she could no longer continue to work in an environment where she “was continually getting directives to compromise her
integrity.” Analysis by Relator is consistent with
this behavior, with rates of misstated MCCs identified by Relator decreasing after Matejicka’s departure, then increasing in recent years corresponding
to increasing pressure from Baylor’s HIM team to
code unethically.
1.

Baylor trained its doctors and CDI
staff to upcode MCCs

23. Under Matejicka, Baylor’s employee training
was singularly focused on coding for MCCs. A former Baylor CDI employee confirmed that
Matejicka personally trained staff on key words to
increase Medicare reimbursements and received a
list of MCCs to focus on. Similarly, a former medical coder disclosed that Matejicka trained CDI
employees to walk around with a list of MCCs to
look for opportunities to assign MCCs as secondary
diagnoses.

68a
24. Baylor also made clear to its doctors how
important their coding efforts were to both the
Defendants’ and the doctors’ bottom line and quality metrics. Matejicka even gave presentations
specifically training doctors on why and how they
should upcode. In an August 20, 2012 presentation
titled “Fundamentals of Hospital Medicine: What
No One Taught Us!,” Matejicka encouraged doctors
to use “magic words” to “provide triggers for reimbursement,” leading to higher paying CCs and
MCCs. These “magic words” included “encephalopathy” and “acute respiratory failure,” two of the
MCCs that Relator’s analysis identified as being
misused by Baylor. Matejicka encouraged doctors
to use these words even if they might not be clinically appropriate, arguing that “Coding Language
Trumps Clinical Terminology.”

69a
25. Matejicka made sure to emphasize that following his guidelines for coding would increase not
only Baylor’s revenue but also doctors’ salary.
Indeed, his presentation flatly states, “Your hospital data will determine your income!” He then closes the presentation by asking them, “Do you want
to ‘see one more patient’ or take one minute to
improve your documentation ???,” suggesting that
using “magic words” would generate equivalent
revenue to seeing an additional patient. This presentation also described an example where adding
an MCC would both increase hospital reimbursement by $8,444.94 as well as improve pay for performance (“P4P”) metrics for doctors, resulting in
“SO MUCH WIN.”
26. Matejicka’s program openly steered doctors
away from non-MCC diagnoses toward specific,
higher-paying MCCs. This effect is seen in a doctor
tip sheet called “Teal Quickies,”6 which provided
guidance for doctors to clinically document in a way
that maximizes Medicare revenue. For instance, in
training doctors on how to document altered mental status (or “AMS”), Baylor encouraged doctors to
diagnose encephalopathy or acute delirium,
explaining that doing so would allow coders to
increase the patient’s severity of illness (or “SOI”).
Baylor blithely added that “there are Other causes
of AMS, too ☺.”

6

Teal is the color of Scott & White Healthcare’s logo.

70a

2

B
2.

l

t
t h
th i di
Baylord d pressured
doctors
change their diagnoses

to

27. Baylor did not stop pushing doctors after
their original diagnoses. If, despite training from
Matejicka, a doctor’s initial diagnosis did not warrant a CC or MCC, Baylor would often send the
doctor a “query” encouraging doctors to amend the
assessment. Baylor’s queries would ask doctors to
“specify” their diagnoses, and would suggest either
specific revenue-increasing CCs or MCCs or provide options listing several possible CCs and

71a
MCCs—often including conditions wholly unrelated to the patient’s primary diagnosis.
28. Relator has obtained “documentation clarification sheets” used by Baylor CDIs to query physicians for additional documentation. These sheets
reveal a clear intent towards influencing doctors to
code higher-paying CCs and MCCs. In the query
sheet for altered mental status, doctors are asked
to document the underlying cause and are only
provided with options which could yield a CC or
MCC. Of the 11 options listed, 5 can directly be
coded as MCCs (metabolic encephalopathy, toxic
encephalopathy, hypertensive encephalopathy,
sepsis and CVA) and 3 can directly be coded as CCs
(acute delirium, dementia, and seizure). The
remaining 3 (medication effect, electrolyte abnormalities and dehydration) can be used with altered
mental status to code for toxic or metabolic
encephalopathy.

29.

There are other common causes for altered mental status that do not yield an CC or

72a
29. There are other common causes for altered
mental status that do not yield an CC or MCC and
are not included in the Scott & White documentation clarification sheet. For example, in a documentation tip card issued by the Department of
Veterans Affairs, other, non-CC or non-MCC, causes for altered mental status are listed such as
“Alzheimer’s Disease,” “Lewy body dementia,” or
“Psychiatric Illness.”

dementia, or Psychiatric Illness.

30. A similar bias towards coding MCCs is found
in the Scott & White documentation clarification
sheet for “Diseases of the Respiratory System,” an
excerpt of which is found in the following figure.
Even the name Baylor gave to the document, “#35
Respiratory Failure” indicates that CDIs used this
sheet in order to get doctors to document respiratory failure as opposed to other non-CC or non-MCC

73a
respiratory diseases. The sheet specifically defines
acute respiratory failure, an MCC, and not any
other respiratory disease. All of the options listed
except for “Hypoxemia” are CCs or MCCs, and even
Hypoxemia is simply a symptom that may indicate
the patient has one of the other respiratory diagnoses listed. Notably, the list leaves off a number of
other respiratory system diagnoses which are not
CCs or MCCs, including “Postinflammatory pulmonary fibrosis,” “Other emphysema,” and “Allergic
rhinitis.”

31. In another example, the documentation tip
sheet for comorbidities contains completely unrelated CC or MCC inducing diagnoses, ranging from
peritonitis (a gastrointestinal disorder) to UTI (urinary tract infection). Moreover, none of the options
on the tip sheet have related and are thus designed

74a
to lead doctors to choose certain diagnoses. For
example, the sheet mentions “pleural effusion,”
which is a CC or MCC, but fails to suggest
“pleurisy without effusion,” which is neither a CC
nor an MCC.

32.

Baylor also prompted doctors to document CCs and MCCs with post-surgery

32. Baylor also prompted doctors to document
CCs and MCCs with post-surgery progress notes,
some with particularly uncommon pairings. For
instance, in its progress notes for plastic surgery
patients, Baylor gave doctors a multiple-choice
option to include severe protein calorie malnutrition.

33.

Not surprisingly, Relator’s analysis shows that the Baylor’s rate of severe protein

malnutrition in plastic surgery claims dwarfs the national rate. In fact, a staggering 6.56% of the

75a
33. Not surprisingly, Relator’s analysis shows
that the Baylor’s rate of severe protein malnutrition in plastic surgery claims dwarfs the national
rate. In fact, a staggering 6.56% of the plastic surgery patients treated by three Baylor Defendants
were given the secondary diagnosis of severe protein-calorie malnutrition, over 8 times the national
average.7
severe protein-calorie malnutrition, over 8 times the national average.7

34. Leading queries and progress notes were
only part of Baylor’s strategy to influence doctors
to inappropriately code CCs and MCCs. According
to a former medical coder, CDIs were effectively
“trained in sales” to generate revenue by convincing doctors to change their clinical documentation
7

The 3 Baylor Hospitals in the chart refer to: Hillcrest
Baptist Medical Center, Scott & White Hospital—Round Rock
and Scott & White Memorial Hospital—Temple. Relator’s
analysis is based on plastic surgery claims from 2011 through
the third quarter of 2015.

76a
in inappropriate ways. This coder recalls Matejicka
“telling CDIs things that were totally not true,”
and as a result of the deliberate effort to promote
the coding of MCCs, some MCCs were inappropriately applied.
35. According to another former coding and compliance staff member at Scott & White, CDIs pressured doctors to record MCCs in an effort to
increase revenue. For example, CDIs influencing
doctors to record acute respiratory failure (an MCC
identified by Relator for excessive use) instead of
COPD exacerbation because that is what “[CDIs]
want to hear . . . doctors have been told and told
and told so they do.” The staff member added,
“CDIs should be questioning acute respiratory failure instead of insisting.” He also observed the inappropriate documentation of other MCCs for
patients with length of stay of two days or less,
even though such diagnoses would require longer
lengths of stay for treatment.
36. These findings are consistent with Baylor’s
culture of pushing doctors to apply CCs and MCCs
without regard for accuracy or necessity to boost
the hospital’s bottom line and improve its quality
rating. Relator’s analysis of Medicare claims shows
that Baylor doctors complied with this encouragement, leading to the excessive coding of Misstated
MCCs identified in this action. Indeed, Baylor carried out this targeted scheme to upcode Medicare
claims (evidenced in part by Matejicka’s focus on
Medicare billing in his presentations to Baylor doctors), while avoiding detection by Medicare audi-

77a
tors. A former coding and compliance staff at
Baylor recalls Medicare being the most lenient
among health insurance payors, noting, “If
[patients] stay here two days and you put acute
respiratory failure on that chart I guarantee you,
unless it’s Medicare, you are going to get audited
. . . you are least likely to get audited by traditional Medicare because RACs [recovery audit contractors] are not doing medical necessity reviews. I
don’t think they have done those in several years.”
Indeed, Relator analyzed the rates of diagnoses for
the three MCCs identified for excessive use, and
found that Baylor coded them up to 3 times more
than the national average for patients with length
of stay of two days or less, as seen in Figure 1.
Figure 1: Secondary Diagnosis Rates for
Claims with Length of Stay 2 Days or less

3.

Baylor provided unnecessary treatment, which enabled it to code
MCCs

78a
3.

Baylor
provided
unnecessary
treatment, which enabled it to
code MCCs

37. Baylor’s zeal to increase revenue through
coding MCCs even included the provision of unnecessary treatment. Baylor purposefully placed and
kept post-operative patients on ventilator support,
thus enabling it to document one of the clinical
indicators for acute respiratory failure, one of the
MCCs identified by Relator for excessive usage. As
an example, Relator found that Baylor patients
undergoing major heart surgery were placed on
mechanical ventilation over twice the national
average. Correspondingly, for post-operative heart
surgery patients Baylor coded acute respiratory
failure (not present on admission) at 36.9% which
is 2.75 times higher than the national average of
13.4%, as seen in Figure 2.
Figure 2: Rates of Mechanical Ventilation
and Respiratory Failure (Not Present on
Admission) for Major Heart Surgery Claims
j

g y

38.

The high rate of post-operative respiratory failure at Baylor is even more dubious

since according to clinical documentation expert Dr. Robert Gold, post-operative respiratory
failure should be extremely rare and he cautions against coding it. Another CDI expert, Dr. Cesar

79a
38. The high rate of post-operative respiratory
failure at Baylor is even more dubious since according to clinical documentation expert Dr. Robert
Gold, post-operative respiratory failure should be
extremely rare and he cautions against coding it.
Another CDI expert, Dr. Cesar Limjoco, notes,
“patients being purposely maintained on the ventilator after heart surgery or any surgery because of
weakness, chronic lung disease, massive trauma
are NOT in acute respiratory failure.” What is not
dubious is that diagnosing post-operative acute
respiratory failure can lead to large increases in
reimbursement. According to another CDI expert,
Dr. Richard Pinson, “ ‘Postop’. . . respiratory failure is classified as one of the most severe, lifethreatening reportable surgical complications a
patient can have. The diagnosis of respiratory failure following surgery often results in a huge payment increase to the hospital—sometimes $20,000
to $30,000 or even more.”
39. Relator’s analysis reveals that in spite of the
high bar for accurately coding acute respiratory
failure, Baylor was much more liberal in its application. In its documentation clarification sheet to
doctors for “Diseases for the Respiratory System”,
doctors are told that “The use of artificial ventilation such as BiPAP would also qualify” for diagnosing acute respiratory failure. To execute this
scheme, Baylor trained its staff to code acute respiratory failure based on the use of a ventilator, even
though other clinical indicators might have suggested otherwise.

80a
C. Relator’s Methodology
40. Relator uncovered Baylor’s fraud by employing unique algorithms and statistical processes to
analyze inpatient claims data for short term acute
care hospitals from 2011 through June 2017, 8
obtained from CMS. These proprietary methods
have allowed Relator to identify with specificity the
false claims made by Baylor to fraudulently inflate
revenue on Medicare claims. Relator’s analysis
focused on identifying certain secondary diagnoses
codes—MCCs—that were fraudulently added by
Baylor to Medicare claims to increase reimbursements.
41. Relator first formed groupings corresponding
to 184 specific principal diagnosis codes. To control
for the patient’s principal diagnosis, Relator used
these groupings as comparative “bins.” Within each
bin, Relator compared the usage rate of specific
MCCs at hospitals in the Baylor system to usage
rates in other acute care inpatient hospitals. In
addition, to ensure that only the truly fraudulent
claims were analyzed, Relator excluded any claims
for which adding an MCC did not increase the
value. 9 Similarly, Relator excluded any claims
involving patients who died in the course of their
8

Only claims through the second quarter of 2017 were
analyzed by Relator. Claims after June 30, 2017 have not yet
been made available to Relator.
9

Some diagnosis related groups do not have an MCC
severity level, and as such, adding an MCC does not increase
the reimbursement amount.

81a
treatment, as these claims tend to involve patients
that are sicker and have higher rates of MCCs.
42. Given that some natural variation in usage
rates among hospitals is expected, Relator used
two filters to further ensure that it identified truly
abnormal usage. First, only instances where MCCs
were used more than twice the national rate or were
used at a rate three percentage points higher than
in the other hospitals were considered false claims.
Second, Relator validated the results of its analysis
by determining the statistical significance of each
fraudulent pattern used by Baylor. Relator only
flagged claim groupings where there was less than
a 1 in 1,000 chance of Relator’s findings being due
to chance. Under this approach, Relator identified
209 combinations of principal diagnosis codes and
Misstated MCCs in which Baylor excessively
upcodes. Relator included in this complaint only
the principal diagnosis code groups that met these
criteria and were used excessively by Baylor.
43. For example, Baylor and other hospitals
have a large number of claims involving a
Nonrheumatic Aortic Valve Disorders. Relator has
found that among Baylor’s more than 838 claims
involving a Nonrheumatic Aortic Valve Disorders,
59 had had an accompanying secondary MCC of
encephalopathy, 10 representing 7.04 percent of
their Nonrheumatic Aortic Valve Disorders claims.
The other non-Baylor hospitals, used by Relator for
benchmarking,
had
more
than
200,000
Nonrheumatic Aortic Valve Disorders claims, but
only 2.67 percent of those claims reported

82a
encephalopathy as an MCC. In other words, Baylor
coded encephalopathy on these claims at a rate
that is 2.64 times higher than comparable hospitals—and profited nearly $13,000 each time it did
so.
44. While Relator’s precise benchmarking of
medical billing is unique, experts have developed
and applied similar benchmarks in financial return
literature.11 Benchmarking has the advantage of
allowing for very specific and comparative groupings. This avoids imposing specific linearity on the
data, which in turn gives Relator’s methodology
more statistical power and precision.
45. To further validate its conclusions and control for other explanations, Relator ran a bin-based
fixed effect linear regression model. Separate
regressions were run for claims under each principal diagnosis bin and Relator included variables to
control for patient characteristics such as age, gender, and race, as well as county demographic factors such as the unemployment rate, median
10

See section IV.D.1.A for a description of encephalopathy and the relevant codes that are included.
11
See the widely-used methodology developed by Kent
Daniel, Mark Grinblatt, Sheridan Titman, Russ Wermers,
Measuring Mutual Fund Performance with CharacteristicBased Benchmarks, The Journal of Finance, vol. 52(3) (1997),
at 1035–58. This methodology is first applied to measuring
hedge-fund performance by, John M. Griffin and Jin Xu, How
Smart Are the Smart Guys? A Unique View from Hedge Fund
Stock Holdings, Review of Financial Studies, Vol. 22.7 (2009),
at 2531–70.

83a
income, and urban-rural differences. Additionally,
variables for the length of stay and discharge status were included to control for the patient’s health
and overall claim severity. Relator also tested for
the potential impact that doctors, individual
patients, and a hospital’s region could have on
MCC rates. Even when considering all of these factors, Baylor’s MCC usage rate is significantly higher than at other hospitals.
D. Defendants’ False Claims
1.

The False Claims made by Baylor

46. Relator has determined that Baylor primarily used three categories of secondary MCC codes to
increase the value of its claims: encephalopathy
(including toxic encephalopathy), respiratory failure (which also includes pulmonary insufficiency),
and severe malnutrition (collectively, the “Misstated
MCCs”).12 These will be discussed in more detail in
the following sections.
47. As illustrated in Figure 3, Baylor used the
Misstated MCCs at a significantly higher rate than
other hospitals. Specifically, non-Baylor hospitals
11

Three of Baylor’s hospitals (Hillcrest Baptist Medical
Center, Scott & White Hospital – Round Rock, and Scott &
White Memorial Hospital) excessively used all three major
complications. A fourth hospital (Baylor University Medical
Center – Dallas) is only alleged in this complaint to have
upcoded encephalopathy to make a false claim. Hence, Baylor
University Medical Center – Dallas is only included in the
encephalopathy analysis.

84a
used one of these three codes on approximately
10.27 percent of claims from 2011 through June
2017, while Baylor hospitals used one of these
three codes on 19.39 percent of such claims—or
1.89 times the rate at other hospitals.
Figure 3. Rate of Misstated MCC Upcoding by
Year for Baylor Versus Other Hospitals.
g
p
g y
y
p
This figure shows the rate at which Baylor is using one of the Misstated MCCs relative to other hospitals
over time. This analysis is based on the principal diagnosis codes listed in each section for the specific
fraudulent patterns.

48. Figure 4 below shows that Baylor used a
higher rate of Misstated MCC codes not just in the
principal diagnosis categories analyzed by Relator,
but across a large variety of principal diagnosis
codes. Specifically, Figure 4 shows a dot for each
principal diagnosis category, with the rate of
Misstated MCC at Baylor on the x-axis and the
rate of Misstated MCC at other non-Baylor hospitals on the y-axis. Dots to the right of the 45-degree
line indicate a higher rate of Misstated MCCs at
Baylor within that principal diagnosis category

85a
than at other non-Baylor hospitals. As the figure
shows, Baylor has higher rates of Misstated MCCs
across 176 of 184 (95.65%) principal diagnosis categories. The extent to which Baylor excessively
upcoded on the categories identified by Relator was
not offset by a relative downcoding for other categories as Baylor consistently upcodes relative to
other hospitals across a variety of principal diagnosis codes.
Figure 4. Rate of Misstated MCCs by Principal
Diagnosis Code at Baylor Versus Other
Hospitals.
g
y
p
g
y
p
For the 184 principal diagnoses with at least 100 claims at Baylor (each represented by a dot), this figure
compares the rate of Misstated MCCs at Baylor versus non-Baylor hospitals. Red dots to the right of the
45-degree line indicate Baylor is coding the Misstated MCCs higher than average.

A.
49

Encephalopathy

The first Misstated MCC fraudulently used by Baylor to make false claims is

86a
A. Encephalopathy
49. The first Misstated MCC fraudulently used
by Baylor to make false claims is encephalopathy.
The codes included with encephalopathy are listed
in Table 1. Encephalopathy is a term for brain disease or damage to the brain where the brain is
regarded as “altered in its structure or function.”
The telltale symptom is an altered mental state,
but altered mental state alone is insufficient for
diagnosing encephalopathy. Encephalopathy can
be acute or chronic, so the related signs and symptoms can be varied as well. This condition commonly manifests as confusion, agitation, or lethargy,
but may include aphasia (altered speech), ataxia
(altered gait) and memory loss.
Table 1. List of Encephalopathy ICD-9 and
ICD-10 Diagnosis Codes.

0

ICD-9 Diagnosis Code
34830
34831
34839
34982

Description
Encephalopathy, unspecified
Metabolic encephalopathy
Other encephalopathy
Toxic encephalopathy

ICD-10 Diagnosis Code
G92
G9340
G9341
G9349
I6783

Description
Toxic encephalopathy
Encephalopathy, unspecified
Metabolic encephalopathy
Other encephalopathy
Posterior reversible encephalopathy syndrome

The most common ca ses of encephalopath are li er damage cerebral

50. The most common causes of encephalopathy
are liver damage, cerebral anoxia (severe lack of
oxygen to the brain) or kidney failure. Because the
causes are extremely varied, no single lab test can
prove the presence of encephalopathy. Therefore,

87a
in diagnosing the condition, a medical practitioner
must keep multiple considerations in mind. The
challenge is to properly identify the root cause of
the symptoms observed and eliminate unlikely
causes based on objective signs.
51. Encephalopathy is distinguishable from conditions that have similar symptoms. In elderly hospital patients, for instance, temporary instances of
lethargy, agitation and confusion are commonly
observed, often right after an intense surgery or as
the result of a urinary tract infection. These same
signs can be observed in patients as “sundowning”
or “late-day confusion” in the late afternoon or
evening, but these effects are temporary and are
actually related to chronic dementia, not
encephalopathy.
52. Between 2011 and June 2017, Baylor was
1.54 times more likely to code encephalopathy than
other hospitals. During this period, Baylor coded
encephalopathy on 15.50 percent of all its claims,
compared to 10.10 percent at other hospitals.
Baylor’s usage of encephalopathy over time, relative to the nationwide average, is shown in Figure
5.

88a
Figure 5. Rate of Encephalopathy by Year for
Baylor Versus Other Hospitals.
This figure shows the rate of encephalopathy at Baylor and at other hospitals from 2011 through June 2017,
when added to the relevant principal diagnosis codes listed in Table 2.

i.

Specific Patterns of Fraud with
Encephalopathy

53. Table 2 provides a list of the principal diagnosis codes used by Baylor to upcode with
encephalopathy. Relator identified 37 principal
diagnosis codes in conjunction with which Baylor
coded encephalopathy at a rate at least two times
and/or three percentage points higher than the
nationwide average. Relator has included only patterns that were statistically significant at the
99.9% level, meaning it is virtually impossible the
patterns are due to chance.

89a
Table 2. Patterns Used by Baylor to Upcode
with Encephalopathy.
The following table lists the principal diagnosis categories in which Baylor excessively upcodes with
encephalopathy. 1 principal diagnosis category with fewer than 11 fraudulent claims at Baylor has been
omitted from the table.

Principal Diagnosis
Unspecified Septicemia
Urinary Tract Infection; Site
Not Specified
Occlusion of Cerebral Arteries
Epilepsy
Intracranial Hemorrhage
Other Intracranial Injury
Substance-related Disorders
Other Gram Negative
Septicemia
Cystitis and Urethritis
Staphylococcal Septicemia
Poisoning by Other
Medications and Drugs
Osteoarthritis; Localized
E. Coli Septicemia
Other Diseases of the
Circulatory System
Coronary Atherosclerosis
Streptococcal Septicemia
Other Endocrine Disorders
Other Diseases of the Nervous
System and Sense Organs
Poisoning by Psychotropic
Agents
Convulsions
Nonrheumatic Aortic Valve
Disorders
Secondary Malignancy of
Brain/spine
Delirium Dementia and
Amnestic and Other Cognitive
Disorders
Other Fluid and Electrolyte
Disorders
Disorders of Mineral
Metabolism
Alcohol-related Disorders
Other Endocrine; Nutritional;
and Metabolic Diseases and
Immunity Disorders
Other and Unspecified
Hereditary and Degenerative
Nervous Conditions
Other Injuries and Conditions
Due to External Causes

% with MCC at
Other Hospitals
19.21%

% with
MCC at
Baylor
22.83%

Baylor Rate
Relative to
Nationwide Average
119%

Num. of Fraud
Claims at Baylor
399

18.17%

28.82%

159%

347

8.50%
15.04%
14.20%
8.37%
19.36%

14.00%
29.00%
23.58%
13.06%
44.66%

165%
193%
166%
156%
231%

301
180
119
97
90

19.29%

26.63%

138%

81

13.97%
20.81%

27.62%
29.72%

198%
143%

74
71

19.79%

32.77%

166%

69

0.56%
18.68%

1.38%
22.75%

247%
122%

68
54

3.32%

6.43%

194%

50

1.18%
18.16%
13.78%

3.50%
25.90%
22.68%

298%
143%
165%

49
45
43
43

7.87%

13.45%

171%

26.71%

49.47%

185%

43

12.45%

22.14%

178%

37

2.67%

7.04%

264%

37

10.17%

19.06%

187%

36

15.02%

29.71%

198%

35

8.40%

12.77%

152%

31

12.62%

23.44%

186%

28

6.89%

11.69%

170%

27

5.35%

8.70%

163%

24

8.09%

15.51%

192%

23

6.14%

12.84%

209%

22

26

90a
Principal Diagnosis
Infective Arthritis and
Osteomyelitis (except that
Caused by TB or STD)
Diabetes with Circulatory
Manifestations
Another Aneurysm
Spinal Stenosis; Lumbar
Region
Fracture of Tibia and Fibula
Chemotherapy
Other Bone Disease and
Musculoskeletal Deformities

% with MCC at
Other Hospitals

% with
MCC at
Baylor

Baylor Rate
Relative to
Nationwide Average

Num. of Fraud
Claims at Baylor

3.39%

6.75%

199%

21

3.88%

7.82%

201%

16

3.84%

7.86%

205%

15

1.68%

3.54%

211%

15

2.60%
0.98%

7.03%
2.38%

270%
243%

14
14

1.58%

4.09%

259%

12

54
Fi
6b l
h
h B l
d hi h
f
h l
h i
54.
Figure
6 below
shows l that
Baylor
not
only
used a higher rate of encephalopathy in the few
categories listed above, but also across a large variety of principal diagnosis codes. The red dots to the
right of the 45-degree line indicate higher rates of
encephalopathy at Baylor versus the nationwide
average. This figure shows that Baylor has a higher rate of encephalopathy for 160 out of 184
(86.96%) principal diagnosis categories. In other
words, the extent to which Baylor excessively
upcoded encephalopathy on the categories listed in
Table 2 above was not offset by relative downcoding in other principal diagnosis categories.

91a
Figure 6. Rate of Encephalopathy by
Principal Diagnosis Code at Baylor Versus
Other Hospitals.
For the 184 principal diagnoses with at least 100 claims at Baylor (each represented by a dot), this figure
compares the rate of encephalopathy at Baylor versus non-Baylor hospitals. Red dots to the right of the 45degree line indicate Baylor is coding encephalopathy at a rate higher than the nationwide average.

ii.

Specific
False
Encephalopathy

Claims

with

55. The Relator has identified many specific
false Medicare claims submitted by Baylor involving encephalopathy. The following table includes
50 examples.
[Table 3 Redacted for PII]

92a
B. Respiratory Failure
56. The second Misstated MCC that Baylor used
at an excessive rate is respiratory failure, which
includes pulmonary insufficiency. The codes classified as respiratory failure are listed in Table 4
below. Respiratory failure is a syndrome characterized by poor gas transfer in the lungs at the alveolar and capillary levels as a result of a problem
making it difficult to breathe. It can be acute or
chronic. There are two types: the first and most
common is hypoxemia (“oxygenation failure”), and
the second type demonstrates both hypoxemia and
hypercapnia (“ventilatory failure”). Respiratory
failure can be acute and life-threatening, or chronic
and manageable with modifications.
Table 4. List of Respiratory Failure ICD-9 and
ICD-10 Diagnosis Codes.
ICD-9
Diagnosis Code
5184
5185
51851
51852
51853
51881
51884
ICD-10
Diagnosis Code
J810
J951
J952
J953
J95821
J95822
J9600
J9601
J9602
J9620
J9621
J9622
J9690
J9691
J9692

Description
Acute edema of lung, unspecified
Pulmonary insufficiency following trauma and surgery
Acute respiratory failure following trauma and surgery
Other pulmonary insufficiency not elsewhere classified following trauma/surgery
Acute and chronic respiratory failure following trauma and surgery
Acute respiratory failure
Acute and chronic respiratory failure
Description
Acute pulmonary edema
Acute pulmonary insufficiency following thoracic surgery
Acute pulmonary insufficiency following nonthoracic surgery
Chronic pulmonary insufficiency following surgery
Acute postprocedural respiratory failure
Acute and chronic postprocedural respiratory failure
Acute respiratory failure, unspecified whether with hypoxia or hypercapnia
Acute respiratory failure with hypoxia
Acute respiratory failure with hypercapnia
Acute and chronic respiratory failure, unspecified whether with hypoxia or
hypercapnia
Acute and chronic respiratory failure with hypoxia
Acute and chronic respiratory failure with hypercapnia
Respiratory failure, unspecified, unspecified whether with hypoxia or hypercapnia
Respiratory failure, unspecified with hypoxia
Respiratory failure, unspecified with hypercapnia

93a
57. The possible root causes are myriad, and
may include poor circulation, neuromuscular disease, chronic bronchitis, COPD, obesity or drug
use, an obstructing object, or an injury to the brain
or spinal cord. The signs and symptoms are bluish
skin, shortness of breath, labored breathing and
feeling unable to get enough air. The patient may
also become very sleepy, lose consciousness, be confused, or have arrhythmia. After listening to the
patient’s heartbeat and lungs, a pulse oximetry
test, an arterial blood gas test from a blood draw,
and a chest x-ray can together help determine a
proper diagnosis.
58. Respiratory failure is distinguishable from
conditions that have similar symptoms. Elderly
patients, for example, frequently breathe shallowly
during sleep. Chronic conditions such as structural
and neuromuscular issues can lead to slow decline
in breathing quality. Also, elderly patients who
have recently undergone surgery may experience
symptoms that are similar to those of respiratory
failure. Though they may necessitate mechanical
oxygenation assistance, it is unlikely that these
conditions are sufficient for an acute respiratory
failure diagnosis.
59. As shown in Figure 7, Baylor coded at a significantly higher rate of respiratory failure than
other hospitals. From 2011 through June 2017,
across the relevant codes, Baylor coded respiratory
failure at 1.73 times the rate at other hospitals,
using it on 20.54 percent of claims, versus 11.87

94a
percent at other hospitals. Baylor’s rate of respiratory failure increases again in 2017.
Figure 7. Rate of Respiratory Failure by Year
for Baylor Versus Other Hospitals.
g
p
y
y
y
p
This figure shows the rate of respiratory failure at Baylor and at other hospitals from 2011 through June
2017, when added to the suspicious principal diagnosis codes listed in Table 5 below.

i.

Specific Patterns of Fraud with
Respiratory Failure

60. The following table provides a list of the principal diagnosis codes used by Baylor to upcode with
respiratory failure. Relator identified 56 principal
diagnosis codes in conjunction with which Baylor
coded respiratory failure at a rate at least two
times and/or three percentage points higher than
the nationwide average. Only patterns that were
statistically significant at the 99.9% level, meaning
virtually impossible to be due to chance, are included.

95a
Table 5. Patterns Used by Baylor to Upcode
with Respiratory Failure.
The following table lists the principal diagnosis categories in which Baylor excessively upcodes with
respiratory failure. One principal diagnosis category with fewer than 11 fraudulent claims at Baylor has
been omitted from the table.
Principal Diagnosis
Congestive Heart Failure;
Nonhypertensive
Unspecified Septicemia
Obstructive Chronic Bronchitis
Coronary Atherosclerosis
Acute Myocardial Infarction
Pneumonia; Organism Unspecified
Nonrheumatic Aortic Valve Disorders
Hypertensive Heart and/or Renal Disease
Pulmonary Heart Disease
Fracture of Neck of Femur (hip)
Other Gram Negative Septicemia
Staphylococcal Septicemia
Other Bacterial Pneumonia
Atrial Fibrillation
Other Diseases of the Circulatory System
Cancer of Bronchus; Lung
E. Coli Septicemia
Other Neoplasms
Osteoarthritis; Localized
Epilepsy
Aspiration Pneumonitis; Food/vomitus
Other Specified Septicemia
Streptococcal Septicemia
Influenza
Other Pneumonia
Chronic Obstructive Asthma with Acute
Exacerbation
Other Diseases of the Respiratory System

% with MCC
in Other
Hospitals

% with
MCC in
Baylor

Baylor Rate
Relative to
Other Hospitals

Num. of
Fraud
Claims at
Baylor

21.97%

39.51%

180%

835

25.66%
17.73%
5.24%
11.27%
18.97%
11.68%
18.27%
16.78%
4.72%
18.04%
21.81%
30.81%
3.07%
6.65%
14.22%
13.02%
6.38%
0.67%
7.69%
27.25%
27.54%
17.73%
17.64%
22.40%

35.82%
36.51%
23.81%
17.24%
26.58%
38.75%
26.35%
30.88%
8.57%
33.25%
36.30%
34.45%
6.40%
14.07%
23.99%
20.05%
11.94%
1.67%
15.31%
34.91%
42.86%
27.55%
29.71%
41.26%

140%
206%
454%
153%
140%
332%
144%
184%
182%
184%
166%
112%
208%
212%
169%
154%
187%
249%
199%
128%
156%
155%
168%
184%

725
363
230
193
159
156
133
130
123
118
78
76
73
67
65
61
58
56
54
52
43
41
41
39

11.59%

28.77%

248%

38

12.24%

20.22%

165%

37

96a
Principal Diagnosis
Other Central Nervous System Disorders
Other Injury and Poisoning
Other Aneurysm
Sickle Cell Anemia
Malfunction of Device; Implant; and
Graft
Other Complications of Surgical and
Medical Procedures
Congestive Heart Failure
Poisoning by Other Medications and
Drugs
Substance-related Disorders
Urinary Tract Infection; Site Not
Specified
Pleurisy; Pleural Effusion
Nonrheumatic Mitral Valve Disorders
Diabetes with Other Manifestations
Fracture of Vertebral Column without
Mention of Spinal Cord Injury
Disorders of the Peripheral Nervous
System
Empyema and Pneumothorax
Pathological Fracture
Other Endocrine; Nutritional; and
Metabolic Diseases and Immunity
Disorders
Other Complications of Internal
Prosthetic Device; Implant; and Graft
Unstable Angina (Intermediate Coronary
Syndrome)
Fracture of Pelvis
Other Diseases of the Nervous System
and Sense Organs
Other Endocrine Disorders
Secondary Malignancy of Bone
Diabetes with Circulatory Manifestations
Other Cardiac Dysrhythmias
Hemorrhage or Hematoma Complicating
a Procedure
Cancer of Pancreas

% with MCC
in Other
Hospitals

% with
MCC in
Baylor

Baylor Rate
Relative to
Other Hospitals

7.85%
4.35%
14.48%
1.86%

11.51%
8.85%
29.13%
9.38%

147%
203%
201%
505%

Num. of
Fraud
Claims at
Baylor
36
35
34
33

2.98%

6.02%

202%

32
32

6.40%

11.67%

182%

10.87%

26.24%

241%

31

14.55%

24.42%

168%

30

15.22%

27.46%

180%

30

1.11%

2.51%

226%

28

14.12%
15.45%
2.61%

24.05%
38.89%
5.29%

170%
252%
203%

26
25
25

4.11%

7.93%

193%

22

5.70%

18.90%

331%

22

21.62%
3.87%

34.84%
7.72%

161%
200%

20
18

3.13%

8.11%

259%

18

3.78%

7.25%

192%

18

4.58%

10.31%

225%

17

2.71%

6.79%

250%

16

3.20%

6.61%

206%

15

2.84%
3.46%
3.08%
1.96%

7.35%
15.00%
7.66%
4.32%

259%
433%
248%
220%

14
14
13
12

3.57%

8.33%

233%

12

4.38%

9.66%

220%

11

61. Figure 8 below shows that Baylor used a
higher rate of respiratory failure not just in the few
categories listed above, but across a large variety of
principal diagnosis codes. The red dots to the right
of the 45-degree line indicate higher rates of respiratory failure at Baylor versus the nationwide
average. This figure shows that Baylor has a higher rate of respiratory failure for 167 out of 184
(90.76%) principal diagnosis categories. In other

97a
words, the extent to which Baylor excessively
upcoded respiratory failure on the categories listed
in Table 5 above was not offset by relative downcoding in other principal diagnosis categories.
Figure 8. Rate of Respiratory Failure by
Principal Diagnosis Code at Baylor Versus
Other Hospitals.
For the 184 principal diagnoses with at least 100 claims at Baylor (each represented by a dot), this figure
compares the rate of respiratory failure at Baylor versus non-Baylor hospitals. Red dots to the right of the
45-degree line indicate Baylor is coding respiratory failure at a rate higher than the nationwide average.

98a
ii.

Specific
False
Claims
Respiratory Failure

with

62. The Relator has identified many specific
false Medicare claims submitted by Baylor involving respiratory failure. The following table includes
50 examples.
[Table 6 Redacted for PII]
C. Severe Malnutrition
63. The final Misstated MCC that Baylor used to
commit fraud at a higher rate was severe malnutrition. There are three severe malnutrition codes,
listed in Table 7, that are considered MCCs. Severe
protein-calorie malnutrition in the elderly is a disorder of extreme lack of nutrition involving the
highest level of protein-energy malnutrition and
protein-calorie malnutrition. Another rare form,
Kwashiorkor malnutrition, is common in SubSaharan Africa, and is unlikely to be present in the
elderly in the United States. Nutritional marasmus
is caused by insufficient nutrients and is most common in children. In the elderly, malnourishment
can manifest for a variety of reasons including
anorexia, dehydration, and malabsorption.

99a
Table 7. List of Severe Malnutrition ICD-9 and
ICD-10 Diagnosis Codes.
g
ICD-9 Diagnosis Code
260
261
262

Description
Kwashiorkor
Nutritional Marasmus
Other Severe Protein-Calorie Malnutrition

ICD-10 Diagnosis Code
E40
E41
E42
E43

Description
Kwashiorkor
Nutritional marasmus
Marasmic kwashiorkor
Unspecified severe protein-calorie malnutrition

64. Patients may initially present malnutrition
signs to a healthcare provider, but the patient may
simply be underweight (and may not need to be
coded as malnutrition at all), or the condition may
not be severe. If so, other codes are available for
malnutrition of a moderate degree (ICD-9 code
2630) and other protein-calorie malnutrition (ICD9 code 2638). Kwashiorkor malnutrition has been
overdiagnosed in the past and is now usually contra-indicated in American elderly.13 Additionally,
interventions for malnutrition can often be used
that supply calories and ameliorate the issue at a
low cost, alleviating the need for tremendous
13

California Watch, Prime Healthcare Reports Outsized
Rates of Unusual Conditions, available at https://goo.gl/
9G8MW4 (last accessed Apr. 17, 2018). Dep’t of Health and
Human Servs., Rex Hospital Incorrectly Billed Medicare
Inpatient Claims with Kwashiorkor, available at https://
goo.gl/RbEWY7 (last accessed Apr. 17, 2018). HCPro, News:
OIG Fines Another Facility for Inappropriate Kwashiorkor
Claims, available at https://goo.gl/chCT3c (last accessed
Apr. 17, 2018).

100a
resources associated with MCC codes. Furthermore,
certain emergency measures are now considered
overused and often unhelpful.
65. As shown in Figure 9, Baylor coded a significantly higher rate of severe malnutrition than
other hospitals. The rate was highest during the
time Anthony Matejicka worked at Baylor and is
increasing again in 2017. From 2011 through June
2017, hospitals nationwide used severe malnutrition on 2.26 percent of claims, while Baylor used it
on 7.07 percent of claims—or 3.14 times as often.
Figure 9. Rate of Severe Malnutrition by Year
for Baylor Versus Other Hospitals.
This figure shows the rate of severe malnutrition at Baylor and at other hospitals from 2011 through June
2017, when added to the suspicious principal diagnosis codes listed in Table 8 below.

101a
i.

Specific Patterns of Fraud with
Severe Malnutrition

66. The following table provides a list of the
principal diagnosis codes used by Baylor to upcode
with severe malnutrition. Relator identified 116
principal diagnosis codes in conjunction with which
Baylor coded severe malnutrition at a rate at least
two times and/or at three percentage points higher
than the nationwide average. Only patterns that
were statistically significant at the 99.9% level,
meaning virtually impossible to be due to chance,
are included.
Table 8. Patterns Used by Baylor to Upcode
with Severe Malnutrition.
y y
p
The following table lists the principal diagnosis categories in which Baylor excessively upcodes with severe
malnutrition. 22 principal diagnosis categories with fewer than 11 fraudulent claims at Baylor have been
omitted from the table.

Principal Diagnosis Code
Unspecified Septicemia
Fracture of Neck of Femur (hip)
Acute Renal Failure
Congestive Heart Failure;
Nonhypertensive

% with MCC
Code in Other
Hospitals
5.68%
1.61%
3.28%

% with
MCC Code
at Baylor
13.99%
5.72%
6.97%

Baylor Rate
Relative to Other
Hospitals
246%
355%
212%

Num. of
Fraud Claims
at Baylor
594
132
122

1.18%

3.74%

316%

122

102a
Principal Diagnosis Code
Infection and Inflammation--Internal
Prosthetic Device; Implant; and Graft
Other Bacterial Pneumonia
Urinary Tract Infection; Site Not
Specified
Other Diseases of the Digestive System
Other Gram Negative Septicemia
Other Neoplasms
Pneumonia; Organism Unspecified
Aspiration Pneumonitis; Food/vomitus
E. Coli Septicemia
Postoperative Infection
Intestinal Infection
Staphylococcal Septicemia
Occlusion of Cerebral Arteries
Acute Myocardial Infarction
Other Intestinal Obstruction
Acute Pancreatitis
Peritoneal or Intestinal Adhesions
Other Specified Septicemia
Other Complications of Surgical and
Medical Procedures
Other and Unspecified Gastrointestinal
Disorders
Other Disorders of Stomach and
Duodenum
Other Infectious and Parasitic Diseases
Cancer of Colon
Streptococcal Septicemia
Malfunction of Device; Implant; and
Graft
Hemorrhage from Gastrointestinal
Ulcer
Other Secondary Malignancy
Pulmonary Heart Disease
Other Central Nervous System
Disorders
Other Intracranial Injury
Atrial Fibrillation
Hyposmolality
Other Peripheral and Visceral
Atherosclerosis
Cancer of Pancreas
Other Endocrine; Nutritional; and
Metabolic Diseases and Immunity
Disorders
Cancer of Bronchus; Lung
Liver Abscess and Sequelae of Chronic
Liver Disease
Hypertensive Heart and/or Renal
Disease

% with MCC
Code in Other
Hospitals

% with
MCC Code
at Baylor

Baylor Rate
Relative to Other
Hospitals

Num. of
Fraud Claims
at Baylor

3.52%

12.74%

362%

119

3.66%

8.55%

234%

102

1.62%

6.66%

411%

102

2.24%
6.27%
5.07%
1.87%
5.82%
4.23%
3.21%
3.55%
7.53%
0.81%
0.74%
2.78%
2.08%
4.71%
7.59%

8.97%
17.98%
13.09%
5.79%
17.31%
12.44%
13.18%
10.01%
19.26%
2.73%
2.60%
7.19%
8.49%
17.71%
22.50%

401%
287%
258%
309%
297%
294%
410%
282%
256%
338%
352%
258%
408%
376%
296%

100
91
84
82
78
71
71
66
63
62
60
51
51
46
42

3.39%

10.33%

305%

42

3.55%

10.41%

294%

42

3.80%

12.86%

339%

41

4.30%
4.22%
5.13%

15.69%
12.12%
14.01%

365%
287%
273%

41
38
37

1.13%

4.49%

399%

35

2.52%

8.18%

325%

35

6.77%
1.53%

21.55%
5.20%

318%
339%

34
34

3.32%

6.72%

202%

33

1.20%
0.62%
2.23%

4.27%
2.04%
6.63%

355%
330%
297%

32
31
30

2.88%

10.92%

379%

29

7.99%

21.26%

266%

27
26

4.03%

11.08%

275%

3.46%

7.35%

212%

26

4.84%

12.28%

254%

25

1.27%

2.80%

220%

25

47

103a
Principal Diagnosis Code
Other Venous Embolism and
Thrombosis
Pathological Fracture
Hypovolemia
Other Injury and Poisoning
Pleurisy; Pleural Effusion
Obstructive Chronic Bronchitis
Hemorrhage of Gastrointestinal Tract
Melena
Intracranial Hemorrhage
Other Diseases of the Circulatory
System
Alcohol-related Disorders
Diverticulitis
Other Fluid and Electrolyte Disorders
Acute Posthemorrhagic Anemia
Respiratory Failure
Diverticulosis
Calculus of Bile Duct
Coronary Atherosclerosis
Nonrheumatic Aortic Valve Disorders
Diseases of White Blood Cells
Noninfectious Gastroenteritis
Other Connective Tissue Disease
Infective Arthritis and Osteomyelitis
(except That Caused by TB or STD)
Other and Unspecified Liver Disorders
Diabetes with Ketoacidosis or
Uncontrolled Diabetes
Other Complications of Internal
Prosthetic Device; Implant; and Graft
Gastrointestinal Complications
Diabetes with Circulatory
Manifestations
Cancer of Other GI Organs;
Peritoneum
Epilepsy
Cellulitis and Abscess of Leg
Diabetes with Other Manifestations
Infections of Kidney
Other Diseases of the Nervous System
and Sense Organs
Poisoning by Other Medications and
Drugs
Decubitus Ulcer
Aplastic Anemia
Other Endocrine Disorders
Atherosclerosis of Arteries of
Extremities
Other Nervous System Symptoms and
Disorders

% with MCC
Code in Other
Hospitals

% with
MCC Code
at Baylor

Baylor Rate
Relative to Other
Hospitals

Num. of
Fraud Claims
at Baylor

1.32%

5.85%

444%

25

2.27%
3.58%
1.10%
3.00%
0.96%
1.97%
1.59%
1.13%

7.10%
9.97%
3.97%
11.45%
2.07%
5.98%
5.71%
4.11%

312%
278%
362%
382%
216%
303%
358%
365%

23
23
22
22
21
21
21
20

1.11%

3.30%

296%

20

2.71%
1.42%
3.07%
2.18%
4.44%
1.03%
1.36%
0.21%
0.64%
3.15%
1.34%
1.29%

9.30%
3.99%
7.60%
6.65%
20.34%
4.23%
6.42%
1.61%
3.63%
10.30%
6.92%
4.80%

343%
282%
247%
305%
458%
412%
474%
758%
568%
327%
516%
373%

20
19
19
19
19
18
18
17
17
17
16
16

3.02%

7.72%

256%

16

4.16%

17.39%

418%

15

1.43%

4.16%

291%

15

0.98%

3.92%

401%

15

5.70%

12.28%

216%

15

2.31%

7.66%

331%

15

6.49%

19.13%

295%

15

1.05%
0.92%
1.47%
1.07%

3.09%
2.30%
3.02%
5.06%

294%
251%
205%
474%

15
14
14
14

1.37%

4.56%

332%

14

1.21%

5.61%

463%

13

9.61%
4.32%
2.82%

22.33%
12.58%
6.71%

232%
291%
238%

13
12
12

0.86%

4.42%

516%

12

2.04%

5.00%

246%

12

48

104a
Principal Diagnosis Code
Other Biliary Tract Disease
Other Esophageal Disorders
Crushing Injury or Internal Injury
Fracture of Pelvis
Anal and Rectal Conditions
Diabetes with Neurological
Manifestations
Empyema and Pneumothorax
Peritonitis and Intestinal Abscess
Other Diseases of the Genitourinary
System
Fracture of Vertebral Column without
Mention of Spinal Cord Injury
Secondary Malignancy of Brain/Spine
Substance-related Disorders

% with MCC
Code in Other
Hospitals
2.98%
3.62%
1.53%
1.14%
1.96%

% with
MCC Code
at Baylor
11.27%
7.72%
5.63%
4.18%
8.24%

Baylor Rate
Relative to Other
Hospitals
378%
213%
369%
366%
421%

Num. of
Fraud Claims
at Baylor
12
12
12
12
11

1.27%

4.97%

390%

11

5.71%
6.71%

12.90%
14.93%

226%
222%

11
11

1.48%

3.64%

246%

11

1.09%

2.93%

269%

11

2.21%
0.97%

7.61%
5.33%

345%
551%

11
11

67. Figure 10 below shows that Baylor used a
higher rate of severe malnutrition not just in the
few categories listed above, but across a large variety of principal diagnosis codes. The red dots to the
right of the 45-degree line indicate higher rates of
severe malnutrition at Baylor versus the nationwide average. This figure shows that Baylor has a
higher rate of severe malnutrition for 173 out of
184 (94.02%) principal diagnosis categories. In
other words, the extent to which Baylor excessively
upcoded severe malnutrition on the categories listed in Table 8 above was not offset by relative downcoding in other principal diagnosis categories.

105a
Figure 10. Rate of Severe Malnutrition by
Principal Diagnosis Code at Baylor Versus
Other Hospitals.
p
For the 184 principal diagnoses with at least 100 claims at Baylor (each represented by a dot), this figure
compares the rate of severe malnutrition at Baylor versus non-Baylor hospitals. Red dots to the right of the
45-degree line indicate Baylor is coding severe malnutrition at a rate higher than the nationwide average.

ii.

Specific False Claims with Severe
Malnutrition

68. The Relator has identified many specific
false Medicare claims submitted by Baylor involving severe malnutrition. The following table
includes 50 examples.
[Table 9 Redacted for PII]

106a
2.

Alternative
Hypotheses
for
Excessive Rates of Misstated
MCCs Do Not Stand and Confirm
that Baylor Fraudulently Billed
Medicare

69. To further demonstrate the Defendants’
fraud and determine responsibility for the excessively high rates of Misstated MCCs, Relator has
analyzed whether the statistically aberrant rates
of Misstated MCCs described above could be attributed to a variety of other factors. First, Relator ran
a fixed effect linear regression model to control for
a variety of possible explanations for MCCs, including patient characteristics and county demographic
data. Second, Relator considered whether the
patient’s attending physician is responsible for the
excessive MCCs by analyzing a subset of claims
where Baylor and other hospitals shared a common
physician. Third, Relator analyzed a subset of
claims where Baylor and other hospitals shared
common patients. Finally, Relator analyzed the
upcoding rate for Baylor and other hospitals in the
same metropolitan statistical area (“MSA”) to
determine whether the MCC upcoding is due to
regional differences. As discussed further below,
these analyses prove that the excessive rates of
Misstated MCCs can be directly attributed to the
Defendants’ fraudulent activity as opposed to
external factors, indicating that the fraud was
known by the system and was intentional.

107a
A. Patient Characteristics and Demographics do not Explain the Excessive
Rates of Misstated MCCs at Baylor
70. The Relator developed a proprietary linear
regression model to control for the possibility that
there are certain patient characteristics which
might indicate a higher likelihood a patient would
have a MCC, allowing Relator to isolate and calculate the specific impact Defendants had on the
abuse of a Misstated MCC code after controlling for
other characteristics. These characteristics include
basic patient characteristics, such as the age, gender, and race, as well as characteristics relating to
the patient’s inpatient stay, including principal
diagnosis, length of stay, and discharge status.
Relator also used county-level demographic data,
such as unemployment rate, percent of population
without a high school diploma, median income, and
the rural-urban continuum codes from the
Department of Agriculture as control variables.14
These county demographic variables provided
Relator with a proxy for the income levels, education levels, and access to care available to each
patient. Regression analysis is well established
and has been used to pinpoint actors behind misreporting in financial and economic contexts. 15
14

The Rural-Urban Continuum Codes measure whether
each county is in a metro or non-metro area and reflect the
overall size of the metropolitan area.
15
See, for example, Tomasz Piskorski, Amit Seru, and
James Witkin, Asset Quality Misrepresentation by Financial
Intermediaries: Evidence from the RMBS Market, The Jour-

108a
Relator’s regression analysis analyzed millions of
claims and thousands of possible fraudulent patterns
to calculate the total fraud committed by Baylor.
71. In this section, Relator employs three different regression analysis methodologies, each of which
demonstrate how Defendant billed for the Misstated
MCCs at fraudulently excessive rates. First, Relator
uses a principal diagnosis bin-based fixed effect
linear regression model to calculate the excessive
Misstated MCCs in each principal diagnosis category. Second, Relator runs a fixed effect linear
regression across all claims. Third, Relator calculates the residual for each system and hospital to
determine the unexplained rate of Misstated MCCs
across all systems and then across all hospitals.
i.

Principal Diagnosis Bin-Based
Fixed Effect Linear Regression

72. First, Relator continued with the principal
diagnosis bin approach by running separate regressions for each principal diagnosis category. This
approach provides a number of benefits. First, it
allows for non-linear relationships so that the
effect of each of the control variables can vary
between principal diagnosis codes. For example,
the impact length of stay has on the likelihood of
an MCC might vary from one principal diagnosis
code to another. Second, it allows for the specific
nal of Finance, Vol. 70.6 (2015), at 2635 –2678; Griffin, John
M., and Gonzalo Maturana, Who Facilitated Misreporting in
Securitized Loans?, Review of Financial Studies, Vol. 29.2
(2016), at 384–419.

109a
quantification of the defendants’ impact on MCC
rates for claims within each principal diagnosis
category.
73. Lastly, Relator included a fixed effect control
variable for Baylor in the regression model, which
represents the incremental amount of excessive
MCC rates at Baylor beyond what could be
explained by other variables. Equation 1 shows the
fixed effect linear regression model used by Relator.
Equation 1. Relator’s Fixed Effect Linear
Regression Model.
The following equation presents the fixed effect linear regression model used by Relator. The variable of
interest is , which is the coefficient for Baylor. Panel A provides the equation, and Panel B explains the
variables included in the model. The i refers to a specific claim and j refers to the potential options for the
categorical variables.
Panel A: Fixed Effect Regression Model
=

+

.

+
+

+
.

.

ℎ

+

.

+
.

.
+

+
.

.

+
+

.

. log
+

.

+

Panel B: Explanation of Regression Variables
Variable

ℎ

Description
Intercept
Whether the claim included a MCC
Whether the patient was treated at Baylor
Patient’s age on the claim (6 age groups)
Patient’s race on the claim (7 race categories)
Patient’s gender
The patient’s log length of stay at the hospital for claim
The patient’s discharge status
Season control variable for the claim (Winter, Spring, Summer, Fall)
Patient’s rural urban continuum code based on the county
County poverty rate in 2014
County unemployment rate in 2014
County log median income in 2014
Error term

74. By controlling for these characteristics, the
regression model allowed Relator to isolate the
impact that being treated at a Baylor hospital

110a
would have on a patient’s expected likelihood of
being diagnosed with one of the Misstated MCCs.
For example, given two patients with abdominal
pain, with the same age and gender, from the same
county, admitted during the same season, and with
the same length of stay, the patient treated at
Baylor would be 337.21% as likely to be diagnosed
with encephalopathy.
75. The results for the Misstated MCCs are
shown in Figure 11. Each bar represents the marginal effect of Baylor on the MCC rate relative to
other hospitals within each principal diagnosis bin.
As can be seen in Panel A for encephalopathy, the
coefficients for each principle diagnosis bin are all
above 100% which indicates that encephalopathy
rates are higher at Baylor, even after controlling
for other characteristics. Statistical significance of
a coefficient that is less than one in a thousand is
in orange, while if the rate is even more rare at one
in a million or less it is in pink, and if the probability that the coefficient could happen by chance is
even lower at less than one in a hundred million
then the bar is in red. As can be seen in Panel A of
Figure 11, 67.6% of the bars have a probability of
being due to chance of less than 1 in 1 million.
Notably, only two of the 37 patterns have a significance level less than 1 in 1 thousand.16
76. Respiratory failure is shown in Panel B, and
severe malnutrition is shown in Panel C. For respi16
Even the principal diagnosis codes that were not statistically significant at less than 1 in 1,000 were still significant
at a 99% confidence level.

111a
ratory failure, 69.6% of the 56 patterns are significant at less than 1 in 100 million, and all have a
significance of at least 1 in 1 thousand. For severe
malnutrition, 85.3% of the 116 patterns are significant at less than 1 in 1 million, and all 116 are significant at less than 1 in 1 thousand. There are
fewer bars for encephalopathy and respiratory failure because there are fewer relevant patterns in
which Baylor’s coding of Misstated MCCs was
deemed excessive. This evidence demonstrates the
excessive coding of Misstated MCCs at Baylor,
even after controlling for other characteristics.
Figure 11. Regression-Adjusted Misstated
MCC Usage at Baylor Relative to Non-Baylor
Hospitals for Each Principle Diagnosis Bin.
p
g
Relator used principal diagnosis bin-based fixed effect linear regressions to analyze approximately 50
million claims at Baylor and other hospitals. The results for each principal diagnosis bin are presented in
the following figure. The vertical lines represent Baylor’s marginal effect on the rate of Misstated MCCs
relative to the rate at other hospitals nationwide, where values above 100% indicate excessive MCC
upcoding. The bins are ordered from left to right consistent with the order of principal diagnosis codes in
Table 2, Table 5, and Table 8. The statistical significance is denoted by the coloring described in the legend.
All but 2 were statistically significant at less than 0.1% chance the difference is random, and most were
significant at a probability of less than 1 in 100 million.
Panel A: Encephalopathy Regression Results by Principal Diagnosis Bin

112a
Panel B: Respiratory Failure Regression Results by Principal Diagnosis Bin

Panel C: Severe Malnutrition Regression Results by Principal Diagnosis Bin

ii.

Aggregate Fixed Effect Regression
Model

77. Second, Relator also ran a regression to calculate the cumulative effect of Baylor’s rate of
Misstated MCCs across all claims in the relevant
patterns. The same regression described in
Equation 1 is used for this analysis, except relator

113a
runs one regression for all of the principal diagnosis codes in each MCC and adds a control variable
for the inpatient principal diagnosis category. The
length of stay variable is interacted with the principal diagnosis code to account for variation in the
expected length of stay given a principal diagnosis
code.
78. As shown in Table 10, after controlling for
other factors, the Baylor coefficient for the
Misstated MCCs is 0.0885. This means that 8.85
percent of Baylor claims are coded with one of the
Misstated MCCs when they would not have been
coded as such at another hospital. Given the baseline usage rate of the Misstated MCCs at other hospitals is 10.27 percent, Baylor’s calculated rate of
Misstated MCCs is 19.12 percent. In other words,
Baylor’s usage rate of the Misstated MCCs is
186.17% that of other hospitals, even after controlling for patient, medical, and demographic characteristics. This result is statistically significant with
more than 99.9999 percent confidence—i.e., almost
certainly not random.
79. Not surprisingly, the individual coefficients
for encephalopathy, respiratory failure, and severe
malnutrition are also large in magnitude. Baylor’s
usage rate for encephalopathy was 151.88% of the
rate at other hospitals, respiratory failure was
167.17%, and severe malnutrition was 315.56%.17
17
For robustness analysis, Relator also considered the
possibility that certain surgical procedure codes or admission
sources (such as being admitted from the emergency room)
might explain the higher rates of Misstated MCCs at Baylor.

114a
Table 10. Results of Fixed Effect Linear
Regression Model.
Relator used the fixed effect linear regression discussed in Equation 1, except instead of running individual
regressions for each principal diagnosis bin, Relator ran one regression for each Misstated MCC and
included a control variable for the individual principal diagnosis categories. Relator analyzed approximately
50 million claims at Baylor and other hospitals. The results are presented in the following table. The
coefficient is listed first and the p-value is in parenthesis, which represents the statistical significance of the
coefficient. A lower p-value means the result is more statistically significant. Coefficients were not included
for categorical variables. The Baylor coefficient is added to the rate at other hospitals to get the expected
Baylor rate of excessive MCCs after including controls.
Any of the
MCCs

Encephalopathy

Respiratory
Failure

Severe
Malnutrition

Poverty Rate

-0.001
(<0.0001)

-0.0014
(<0.0001)

-0.0017
(<0.0001)

0.0003
(<0.0001)

Unemployment Rate

-0.0014
(<0.0001)

0.0011
(<0.0001)

-0.0019
(<0.0001)

-0.0006
(<0.0001)

Log (Median Income)

-0.0469
(<0.0001)

-0.0459
(<0.0001)

-0.0648
(<0.0001)

-0.0038
(<0.0001)

No High School Diploma Rate

-0.0008
(<0.0001)

-0.0006
(<0.0001)

-0.0009
(<0.0001)

-0.0001
(<0.0001)

Intercept

0.363
(0.1956)

0.4586
(0.1099)

0.5006
(0.179)

-0.0059
(0.9772)

Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
0.0885
(<0.0001)

Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
0.0524
(<0.0001)

Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
0.0800
(<0.0001)

Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
0.0485
(<0.0001)

Principal Diagnosis
Principal Diagnosis X Log(LOS18)
Season Control Variables
Age Control Variables
Sex Control Variables
Race Control Variables
Discharge Status Control
Principal Diagnosis Category
RUCC Control
Baylor Coefficient
Nationwide Average

10.27%

10.10%

11.91%

2.25%

Baylor Rate

19.12%

15.34%

19.91%

7.10%

Baylor Rate Relative to Other
Hospitals

186.17%

151.88%

167.17%

315.56%

Relator ran the fixed-effect regression analysis while also
including controls for surgical procedures and admission
source. With these coefficients, Baylor’s rate of Misstated
MCCs was 168.27% relative to other non-Baylor hospitals.
Similarly, the Baylor Systems’ usage rate for encephalopathy
was 148.24% of the rate at non-Baylor hospitals, respiratory
failure was 138.69%, and severe malnutrition was 318.08%.
18

LOS stands for length of stay.

115a
iii. System and Hospital Residuals for
Misstated MCCs
80. Third, another regression method to analyze
Baylor’s coding of Misstated MCCs is to calculate
the unexplained rate of Misstated MCCs attributed
to Baylor claims. To calculate this, Relator ran the
regression without the fixed effect control variable
for Baylor and calculated the probability each
claim would have one of the Misstated MCCs. For
each hospital system and for each individual hospital, the average difference between the predicted
probability (or rate) of Misstated MCCs is compared to the actual rate of Misstated MCCs, which
is referred to as a residual. The difference between
these two values represents the rate of Misstated
MCCs that is caused by each hospital system, after
controlling for the other characteristics previously
described. Panel A of Figure 12 shows the average
residual for rate of Misstated MCCs for each hospital
system, with Baylor plotted in red. Baylor’s average
unexplained rate of Misstated MCCs by this measure
is 8.80%, making it 7th highest out of 737 hospital
systems with at least 10,000 claims in the relevant
patterns. Panel B of Figure 12 shows the average
residual of each individual hospital, with Baylor hospitals plotted in red. The average residual of the
Baylor hospitals ranges from 6.56% to 9.72%, and the
3 Baylor hospitals19 are in the top 90th percentile of
hospitals for unexplained rate of Misstated MCCs.
19

Relator only alleges that Baylor University Medical
Center – Dallas has been excessively using encephalopathy,
so this hospital has been left out of this analysis which is

116a
Figure 12. Average Unexplained Misstated
MCC Rate for Each Hospital System and
Individual Hospital.
The following figure plots the results of the regression from Equation 1, except one regression was run for
all principal diagnosis bins, the control variable for principal diagnosis code was added to the regression,
and the Baylor fixed effect variable was removed. All other variables included are the same. The graph in
Panel A is based on 737 hospital systems with at least 10,000 claims from 2011 through June 2017. The
graph in Panel B is based on 3,220 hospitals with at least 500 claims during the same time period. The small
vertical lines off of the points represent the confidence interval for each system’s unexplained use of
Misstated MCCs.
Panel A: Average Residual of Any of the Misstated MCCs for Hospital Systems

Panel B: Average Residual of Any of the Misstated MCCs for Individual Hospitals

based on any of the three Misstated MCCs. However, it is
among the highest hospitals by rate of encephalopathy and
including it in this calculation would only further demonstrate Baylor’s fraudulent activity.

117a
81. Taken together, Relator’s regression analysis
shows that the excessive rates of Misstated MCCs
were not due to unique patient demographic or
health characteristics, but were specifically caused
by the Defendants’ practices.
B. Attending
Physicians
are
not
Responsible for the Excessively High
Rates of Misstated MCCs
82. Relator also considered whether the excessively high rates of Misstated MCCs could be
caused by the preferences or treatment decisions of
physicians who work with patients at Baylor hospitals, as opposed to some system-wide decision or
corporate directive. Could it be that the physicians
who attended to Baylor’s patients were more disposed to identifying encephalopathy, respiratory
failure, and severe malnutrition than other physicians? To address this question, Relator analyzed a
subset of claims involving doctors that treated
patients at both Baylor and other hospitals.
83. As shown in Figure 13, when considering
only claims for doctors with at least 10 claims at
both Baylor and other hospitals, the use of
encephalopathy, respiratory failure, and malnutrition was still significantly higher at Baylor.
Between 2011 and 2017, doctors used one of the
Misstated MCCs on 19.57 percent of claims while
treating patients at Baylor, but on only 11.80 percent of claims when treating patients at other hospitals.

118a
Figure 13. Rate of Any of The Misstated MCCs
at Baylor Relative to Other Hospitals for
Claims with Common Doctors.
The following figure includes any claims for common doctors between Baylor and another hospital from
2011 through 2017. Even with doctors that work at both hospitals, Baylor used one of the Misstated MCCs
on 19.57 percent of claims, while those same doctors only use one of the Misstated MCCs on 11.80 percent
of claims while at other hospitals. The analysis is based on 195 doctors with 10 claims at Baylor and 10
claims at a non-Baylor hospital. In total these doctors had more than 25,000 claims at Baylor and more than
47,000 claims at other hospitals.

84

Figure 14 shows that this tendency to have higher rates of Misstated MCCs at

84. Figure 14 shows that this tendency to have
higher rates of Misstated MCCs at Baylor is not
limited to a few doctors but is systemic. In the following figure, doctors with the same rate of
Misstated MCCs at Baylor and other hospitals
would be clustered along the 45-degree line, whereas doctors with higher rates of Misstated MCCs at
Baylor would be to the right of the 45-degree line.
As shown in Figure 14, 147 out of 195 doctors (or
75.4 percent) had a higher coding rate of the
Misstated MCCs at Baylor than at other hospitals.

119a
Figure 14. Rate of Any of the Misstated MCCs
for Common Doctors at Baylor Versus Other
Hospitals.
The following figure compares the rate of Misstated MCCs for common doctors at Baylor versus other
hospitals. In the graph, the red circles to the right of the 45-degree line represent doctors who have higher
upcoding at Baylor and the blue circles represent doctors who have higher upcoding at other non-Baylor
hospitals. Only doctors with at least 11 claims at Baylor and 11 claims at a non-Baylor hospitals are
represented in this figure.

85.

This result still holds when looking just at the individual Misstated MCCs. For

85. This result still holds when looking just at
the individual Misstated MCCs. For doctors that
serve at both Baylor and other hospitals, the rate of
encephalopathy at Baylor was 13.23 percent, while
the rate of encephalopathy at other hospitals was
9.97 percent, as demonstrated in Figure 15 below.

120a
This indicates that a doctor was 132.7% as likely to
diagnosis a patient with encephalopathy when
treating the patient at Baylor than when the same
doctor was treating a patient at another hospital.20
Figure 15. Rate of Encephalopathy at Baylor
Relative to Other Hospitals for Claims with
Common Doctors.
The following figure includes any claims for doctors with at least 10 claims at Baylor and 10 claims at a
non-Baylor hospital from 2011 through June 2017. Even with doctors that work at both hospitals, Baylor
had an encephalopathy rate of 13.23 percent, while those same doctors only use encephalopathy on 9.97
percent of claims while at other hospitals. The analysis is based on 162 doctors with 10 claims at Baylor
and 10 claims at a non-Baylor hospital. In total these doctors had more than 12,000 claims at Baylor and
more than 16,000 claims at other hospitals.

86

Figure 16 shows that a significant number of doctors had higher rates of

86. Figure 16 shows that a significant number of
doctors had higher rates of encephalopathy when
they worked at Baylor than at other hospitals.
Specifically, it shows that 115 doctors out of 162
20

This general trend still holds when looking at any doctor that has at least one claim at Baylor and one claim at a
non-Baylor hospital. Specifically, the rate of encephalopathy
is 14.23% at Baylor and 11.06% at other hospitals.

121a
doctors considered (or 71 percent) had a higher rate
at Baylor.
Figure 16. Rate of Encephalopathy for
Common Doctors at Baylor Versus Other
Hospitals.
g
p
p y
y
p
The following figure compares the rate of encephalopathy for common doctors at Baylor versus other
hospitals. In the graph, the red circles to the right of the 45-degree line represent doctors who have higher
upcoding of encephalopathy at Baylor and the blue circles represent doctors who have higher upcoding at
other non-Baylor hospitals. Only doctors with at least 11 claims at Baylor and 11 claims at a non-Baylor
hospitals are represented in this figure.

87. For doctors that serve at both hospitals, the
rate of respiratory failure at Baylor was 21.9 percent, while the rate of respiratory failure at other
hospitals was 14.0 percent, as demonstrated in
Figure 17 below. This suggests that a doctor was

122a
156.4% as likely to diagnosis a patient with respiratory failure when treating the patient at Baylor
than when the same doctor was treating a patient
at a non-Baylor hospital.21
Figure 17. Rate of Respiratory Failure at
Baylor Relative to Other Hospitals for Claims
with Common Doctors.
The following figure includes any claims for doctors with at least 10 claims at Baylor and 10 claims at a
non-Baylor hospital from 2011 through June 2017. Even with doctors that work at both hospitals, Baylor
had a respiratory failure rate of 21.9 percent, while those same doctors only use respiratory failure on 14.0
percent of claims while at other hospitals. The analysis is based on 154 doctors with 10 claims at Baylor
and 10 claims at a non-Baylor hospital. In total these doctors had more than 16,000 claims at Baylor and
more than 27,000 claims at other hospitals.

88. Figure 18 shows that a significant number of
doctors had higher rates of respiratory failure
when they worked at Baylor than at other hospitals. Specifically, the figure shows that 110 out of
154 doctors considered (or 71.4 percent) had a higher rate at Baylor.
21

This general trend still holds when looking at any doctor that has at least one claim at Baylor and one claim at a
non-Baylor hospital. Specifically, the rate of respiratory failure is 21.83% at Baylor and 13.41% at other hospitals.

123a
Figure 18. Rate of Respiratory Failure for
Common Doctors at Baylor Versus Other
Hospitals.
The following figure compares the rate of respiratory failure for common doctors at Baylor versus other
hospitals. In the graph, the red circles to the right of the 45-degree line represent doctors who have higher
upcoding of respiratory failure at Baylor and the blue circles represent doctors who have higher upcoding
at other non-Baylor hospitals. Only doctors with at least 11 claims at Baylor and 11 claims at a non-Baylor
hospitals are represented in this figure.

89

For doctors that serve at both hospitals the rate of severe malnutrition at Baylor

89. For doctors that serve at both hospitals, the
rate of severe malnutrition at Baylor was 6.32 percent, while the rate of severe malnutrition at other
hospitals was 2.73 percent, as demonstrated in
Figure 19 below. This indicates that a doctor was
231.5% as likely to diagnosis a patient with severe
malnutrition when treating the patient at Baylor

124a
than when the same doctor was treating a patient
at a non-Baylor hospital.22
Figure 19. Rate of Severe Malnutrition at
Baylor Relative to Other Hospitals for Claims
with Common Doctors.
The following figure includes any claims for doctors with at least 10 claims at Baylor and 10 claims at a
non-Baylor hospital from 2011 through June 2017. Even with doctors that work at both hospitals, Baylor
had a severe malnutrition rate of 6.32 percent, while those same doctors only use severe malnutrition on
2.73 percent of claims while at other hospitals. The analysis is based on 161 doctors with 10 claims at
Baylor and 10 claims at a non-Baylor hospital. In total these doctors had 23,541 claims at Baylor and 40,096
claims at other hospitals.

90

Figure 20 shows that a significant number of doctors had higher rates of severe

90. Figure 20 shows that a significant number of
doctors had higher rates of severe malnutrition
when they worked at Baylor than at other hospitals. For example, the figure shows that 123 doctors out of 161 doctors considered (or 76.4 percent)
used a higher rate at Baylor.
22

This general trend still holds when looking at any doctor that has at least one claim at Baylor and one claim at a
non-Baylor hospital. Specifically, the rate of severe malnutrition is 6.81% at Baylor and 2.64% at other hospitals.

125a
Figure 20. Rate of Severe Malnutrition for
Common Doctors at Baylor Versus Other
Hospitals.
The following figure compares the rate of severe malnutrition for common doctors at Baylor versus other
hospitals. In the graph, the red circles to the right of the 45-degree line represent doctors who have higher
upcoding of severe malnutrition at Baylor and the blue circles represent doctors who have higher upcoding
at other non-Baylor hospitals. Only doctors with at least 11 claims at Baylor and 11 claims at a non-Baylor
hospitals are represented in this figure.

91. Relator identified the specific doctors that
had higher rates of severe malnutrition at Baylor
relative to other hospitals. Table 11 below lists the
ten doctors with the largest disparity in severe
malnutrition rates when they worked at Baylor
compared to when they worked at other hospitals.

126a
Each of these doctors coded severe malnutrition at
a rate at least six times higher when at Baylor.23
Table 11. Doctors with the Most Excessive
Rates of Severe Malnutrition at Baylor Versus
Other Hospitals.
Hospitals.
This table shows the difference in severe malnutrition usage for the ten doctors with the highest difference
in severe malnutrition usage at Baylor versus other hospitals. The first seven digits of the physician ID have
been hidden by Relator so the specific physician will not be identifiable directly from this complaint. Only
doctors with at least 11 claims at Baylor and 11 claims at a non-Baylor hospitals are represented in this
table.

Physician ID
XXXXXXX031
XXXXXXX184
XXXXXXX940
XXXXXXX494
XXXXXXX278
XXXXXXX253
XXXXXXX159
XXXXXXX569
XXXXXXX301
XXXXXXX723

92

Percent of Claims
w/ Severe
Malnutrition at
Baylor
23.08%
17.39%
17.53%
17.42%
16.00%
16.81%
16.15%
13.48%
15.38%
16.67%

l

l

Baylor Rate
Relative to
Other
Hospitals
738%
Infinity
1,858%
1,142%
1,345%
720%
614%
Infinity
723%
461%

Percent of Claims w/
Severe Malnutrition Difference in
at Other Hospitals
Percent
3.12%
19.95%
0.00%
17.39%
0.94%
16.59%
1.53%
15.89%
1.19%
14.81%
2.34%
14.47%
2.63%
13.52%
0.00%
13.48%
2.13%
13.26%
3.61%
13.05%

h

i

l i f

h

b

f l i

P-Value
0.0069
<0.0001
<0.0001
<0.0001
0.0002
<0.0001
<0.0001
<0.0001
0.0302
0.0102

h h

l

92. Relator also re-ran the regression analysis
for the subset of claims that have at least 10 claims
by a doctor at Baylor and a non-Baylor hospital.24
Relator used the same controls from the regression
described in section IV.D.2.A above, along with a
23

Relator only included the results for severe malnutrition because it has the most claims among the Misstated
MCCs, providing the most thorough comparison.
24
More than 63,000 claims for severe malnutrition and
more than 73,000 claims for Misstated MCC were included in
this regression. Severe malnutrition was the only specific
Misstated MCC in which Relator ran the regression because
it had the largest number of claims.

127a
control for the doctor that treated the patient. This
allows Relator to quantify the marginal impact a
patient being treated at Baylor has on a patient
being diagnosed with a Misstated MCC, beyond
what can be explained by patient characteristics,
demographic characteristics, as well as the individual doctor. As shown in Table 12, Baylor’s rate of
any MCC, after these controls, was 155.93 percent
of the rate at other hospitals, and Baylor’s severe
malnutrition rate was 231.14 percent of the rate at
other hospitals.25

25

Relator also considered whether the behavior of these
doctors is due to their tendency to provide certain procedures
at certain hospitals. To do this, Relator also added control
variables for the procedure codes and the admission status to
identify admissions as from the emergency room, elective, or
urgent. For any Misstated MCC and for severe malnutrition,
the coefficients were 0.0505 and 0.0358 respectively. In other
words, Baylor’s rate of Misstated MCC was 142.80 percent of
other hospitals, and rate of severe malnutrition was 231.14
percent of other hospitals among claims with common doctors.

128a
Table 12. Fixed Effect Regression Results
After Controlling for Attending Physician.
g
g
g y
Relator used a linear regression to analyze approximately 73,000 claims with common doctors at Baylor
and other hospitals. The results are presented in the following table. The coefficient is listed first and the pvalue is in parenthesis, which represents the statistical significance of the coefficient. A lower p-value
means the result is more statistically significant. Coefficients were not included for categorical variables.
Any Misstated MCC

Severe Malnutrition

Poverty Rate

-0.002
(0.003)

0
(0.9365)

Unemployment Rate

-0.0041
(0.0111)

-0.0019
(0.0776)

Log (Median Income)

-0.0466
(0.0216)

-0.0221
(0.092)

No High School Diploma Rate

0.0006
(0.1692)

-0.0004
(0.1403)

0.5243
(0.0299)
Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
0.0660
(<0.0001)

0.2651
(0.0883)
Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
Yes
0.0358
(<0.0001)

Intercept
Principal Diagnosis
Principal Diagnosis X Log (LOS26)
Season Control Variables
Age Control Variables
Sex Control Variables
Race Control Variables
Discharge Status Group Controls
Principal Diagnosis Category Controls
RUCC Control
Doctor Control Variables
Baylor Coefficient
Nationwide Average

11.80%

2.73%

Baylor Rate

18.40%

6.31%

Baylor Relative Effect

155.93%

231.14%

93. This analysis shows that the fraudulent
upcoding was not caused by tendencies of certain
doctors that treat patients at Baylor but was
instead caused by clinical documentation and coding practices that were implemented specifically at
Baylor.

26

LOS stands for length of stay.

129a
C. Unique Characteristics of Baylor’s
Patients do not Account for the
Excessively High Rates of Misstated
MCCs
94. Relator also considered whether it might be
something else about Baylor patients that would
justify the higher rates of MCCs. Although Relator
already considered a variety of patient characteristics in the fixed effect linear regression model,
Relator also analyzed the subset of patients that
attended both Baylor and at least one other hospital between 2011 and 2017, and then compared the
rate of the MCC codes used when these patients
were treated at Baylor versus when treated at
other hospitals.
95. As shown in Figure 21, when only analyzing
patients that have at least 5 claims at both Baylor
and other hospitals, the use of encephalopathy, respiratory failure, and malnutrition was still significantly higher at Baylor. Between 2011 and 2017,
patients were diagnosed with one of the Misstated
MCCs on 25.38 percent of claims while being treated at Baylor, but on only 13.38 percent of claims at
other hospitals. A patient being treated at Baylor
was coded with the Misstated MCCs at a rate that
was 189.7% the rate at other non-Baylor hospitals.

130a
Figure 21. Rate of Any of The Misstated MCCs
at Baylor Relative to Other Hospitals for
Claims with Common Patients.
Common Patients.
The following figure includes any claims for common patients between Baylor and a non-Baylor hospital
from 2011 through June 2017. Even with patients at both hospitals, Baylor used one of the Misstated MCCs
on 25.38 percent of claims, while those same patients only have one of the Misstated MCCs on 13.38
percent of claims while at other hospitals. The analysis is based on 155 patients with 5 claims at Baylor and
5 claims at a non-Baylor hospital. In total these patients had 1,430 claims at Baylor and 1,547 claims at
other hospitals.

96. Figure 22 shows a significant number of
patients had higher rates of Misstated MCCs when
treated at Baylor. Dots to the right of the 45-degree
line indicate the patient was coded with higher
rates of the Misstated MCCs at Baylor than at
other hospitals. The graph shows that 107 out of
155 patients considered (or 69.0 percent) had a
higher usage rate of the Misstated MCCs at Baylor
than at other hospitals. This indicates the behavior
is not limited to a few patients but is systemic.

131a
[Figure 22 Redacted for PII]
97. This result still holds when looking at just
severe malnutrition.27 For patients that were at
both hospitals, the rate of severe malnutrition at
Baylor was 21.36 percent, while the rate of severe
malnutrition at other hospitals was 7.91 percent,
as demonstrated in Figure 23 below. This suggests
that a patient was 270% as likely to diagnosis a
patient with severe malnutrition when treating the
patient at Baylor than when the same patient was
treating a patient at a non- Baylor hospital.28

27
Relator only included the results for severe malnutrition as it was the only Misstated MCC with a sufficient number of claims and common patients to conduct this analysis.
28

This general trend still holds when looking at any
patient that has at least one claim at Baylor and one claim at
a non-Baylor hospital. Specifically, the rate of severe malnutrition is 38.1% at Baylor and 12.3% at other hospitals.

132a
Figure 23. Rate of Severe Malnutrition at
Baylor Relative to Other Hospitals for Claims
with Common Patients
The following figure includes any claims for patients with at least 5 claims at Baylor and 5 claims at a nonBaylor hospital from 2011 through June 2017. Even with patients that are treated at both hospitals, Baylor
had a severe malnutrition rate of 21.36 percent, while those same patients only use severe malnutrition on
7.91 percent of claims while at other hospitals. The analysis is based on 71 patients with 5 claims at Baylor
and 5 claims at a non-Baylor hospital. In total these patients had 618 claims at Baylor and 746 claims at
other hospitals.

98. Figure 24 shows that a significant number of
patients had higher rates of severe malnutrition
when they worked at Baylor than at other hospitals. For example, Panel A shows that 54 patients
out of 71 patients considered (or 76.1 percent) used
a higher rate at Baylor.

133a
[Figure 24 Redacted for PII]
99. As this analysis shows, even when looking at
the same patient, Baylor has significantly higher
rates of Misstated MCCs than other hospitals. This
shows that the upcoding behavior cannot be attributable to patient differences.
D. Regional Factors do not Explain Why
Baylor Has Higher Rates of MCCs
100. Relator also considered whether the high
rates of MCC upcoding at Baylor hospitals might
be due to the region in which Baylor’s hospitals are
located. Although Relator has already controlled
for a variety of county demographic factors through
the regression, Relator now compares the rate of
Misstated MCCs between Baylor and other hospitals within each MSA.
101. As shown in Table 13, Baylor had a significantly higher rate of Misstated MCCs in each MSA,
with one MSA showing a rate more than twice as
high at Baylor. As shown in Table 14, Baylor had a
higher rate of encephalopathy than other hospitals
in each MSA, with only one region (Killeen-Temple,
TX) having a difference of less than seven percentage points. Table 15 and Table 16 show that Baylor
had higher rates of respiratory failure and severe
malnutrition, respectively, in each of the MSAs.

134a
Table 13. Rate of Misstated MCCs at Baylor
Versus Other Hospitals in the Same MSA.
This table compares the rate of Misstated MCCs in the suspicious patterns for the hospitals in Baylor and
other hospitals within the same geographic region.

MSA
Austin-Round Rock, TX
Killeen-Temple, TX
Waco, TX

Baylor MCC
Rate
15.93%
20.73%
18.00%

Nationwide
MCC Rate
9.35%
14.75%
8.85%

Baylor Rate
Relative to Other
Hospitals
170%
141%
203%

Probability
<0.0001
<0.0001
<0.0001

Table 14. Rate of Encephalopathy at Baylor Versus Other Hospitals in the Same MSA.

Table 14. Rate of Encephalopathy at Baylor
Versus Other Hospitals in the Same MSA.
p
p y
y
p
This table compares the encephalopathy rate of the suspicious patterns for the hospitals in Baylor and other
hospitals within the same geographic region.

MSA
Austin-Round Rock, TX
Dallas-Fort Worth-Arlington, TX
Killeen-Temple, TX
Waco, TX

Baylor
Encephalopa
-thy Rate
13.75%
17.59%
14.78%
12.20%

Nationwide
Encephalopathy
Rate
7.41%
11.47%
14.69%
1.29%

Baylor Rate
Relative to Other
Hospitals
Probability
186%
<0.0001
153%
<0.0001
101%
0.3573
944%
<0.0001

Table 15. Rate of Respiratory Failure at
Baylor Versus Other Hospitals in the Same
MSA.
Table 15. Rate of Respiratory Failure at Baylor Versus Other Hospitals in the Same MSA.
This table compares the respiratory failure rate of the suspicious patterns for the Baylor hospitals and other
hospitals within the same geographic region.

MSA
Austin-Round Rock, TX
Killeen-Temple, TX
Waco, TX

Baylor
Baylor Rate
Respiratory
Nationwide
Relative to
Failure
Respiratory Failure
Probabilit
Other Hospitals
Rate
Rate
y
16.62%
10.64%
156%
<0.0001
22.04%
18.44%
120%
<0.0001
18.94%
11.91%
159%
<0.0001

Table 16. Rate of Severe Malnutrition at Baylor Versus Other Hospitals in the Same MSA.

135a
Table 16. Rate of Severe Malnutrition at
Baylor Versus Other Hospitals in the Same
MSA.
Table 15. Rate of Respiratory Failure at Baylor Versus Other Hospitals in the Same MSA.
This table compares the respiratory failure rate of the suspicious patterns for the Baylor hospitals and other
hospitals within the same geographic region.

MSA
Austin-Round Rock, TX
Killeen-Temple, TX
Waco, TX

Baylor
Baylor Rate
Respiratory
Nationwide
Relative to
Failure
Respiratory Failure
Probabilit
Other Hospitals
Rate
Rate
y
16.62%
10.64%
156%
<0.0001
22.04%
18.44%
120%
<0.0001
18.94%
11.91%
159%
<0.0001

Table 16. Rate of Severe Malnutrition at Baylor Versus Other Hospitals in the Same MSA.

102. Based on this regional analysis, Relator has
shown that the fraudulent upcoding cannot be
attributed to geographic factors unique to Baylor.
E. Summary of Determining What Caused
Excessively High Rates of Misstated
MCCs at Baylor
103. Relator has considered a number of potential explanations above to determine what phenomenon or which actor could be responsible for the
excessively high rates of Misstated MCCs at
Baylor. The excessively high rates are highly significant across 133 principal diagnosis categories
and 4 Baylor hospitals, indicating that it is not
driven by particular patient medical characteristics nor unique to only a few Baylor hospitals.
Relator eliminated the possibility that the high
Misstated MCC rates might be justified by or due
to patient or demographic characteristics, attending physician preferences, or regional differences.
Based on this, Relator has demonstrated that the
only plausible explanation as to the cause of the

136a
excessively high rates of Misstated MCCs is that
Baylor has implemented practices to maximize the
amount of revenue it can receive from Medicare by
fraudulently upcoding, i.e., adding unsubstantiated MCC secondary diagnosis codes to its claims.
3.

Economic Damages

104. Relator employed a robust and conservative
methodology to quantify the economic damages
caused by the Defendants’ fraudulent coding
encephalopathy, respiratory failure, and severe
malnutrition. Relator has limited this complaint to
only the most extreme cases—i.e., where Baylor
used a Misstated MCC code at two times the rate of
comparable hospitals or at least three percentage
points of its entire patient population higher than
other hospitals. Additionally, only principal diagnosis bins where the excessive MCC usage rate was
statistically significant at a 99.9% rate—or almost
certainly not random—were considered fraudulent.
The following describes Relator’s methodology for
aggregating the total dollar value of the fraud committed by Baylor.
105. Relator employs a principal diagnosis binbased regression methodology for calculating damages. For each principal diagnosis bin, Relator reran its fixed effect linear regression model discussed in Equation 1 but changed the dependent
variable to represent the additional revenue due to
upcoding. For each claim, Relator calculated the
difference in the DRG weight between claims with
Misstated MCCs and claims without Misstated

137a
MCCs.29 Relator then multiplied this difference in
weights by Baylor’s average base rate from 2011
through 2017, which was $5,554.01.30 Within the
regression for each principal diagnosis bin, the
fixed effect for Baylor represents the additional
revenue Baylor receives for the misstated MCCs
after controlling for possible differences in patient,
regional, and claim characteristics. Relator further
only attributed damages for the regression results
that were statistically significant at a 99.9% level,
meaning there is a less in 1 in 1,000 chance the
additional revenue received is due to random
chance.
106. Based on this bin-based regression,
Relator’s analysis shows that Baylor received an
additional $61.8 million in false claims across all
principal diagnosis categories due to fraudulent
MCC upcoding. Table 17 demonstrates the additional revenue Baylor received for false claims
across each of the Misstated MCCs.
29

For claims that could have been a complication or without complication, Relator took a weighted average of DRG
weights for the two DRGs and was weighted by Baylor’s historical distribution of severity levels. Approximately 14.1% of
claims were without complication and 85.9% of claims were
with complication. If Baylor also upcodes using CC secondary
diagnoses, the damage calculation would be even more conservative.
30

The labor portion of the base rate was adjusted by the
average wage index among Baylor hospitals from 2011
through 2017, and the capital portion was adjusted by the
geographic adjustment factor over the same time period, to
get a more accurate calculation of additional revenue.

138a
Table 17. Damages by Specific Misstated
MCCs.
Hospitals
Temple, Round Rock,
Waco, and Dallas
Temple, Round Rock, and
Waco
Temple, Round Rock, and
Waco

Secondary MCC

Dollar Value of Fraud

Encephalopathy

$11,538,368

Respiratory Failure

$26,998,225

Severe Malnutrition

$23,258,777

Total

$61,795,370

107. Relator’s bin-based regression methodology
represents a conservative approach for a variety of
reasons. First, Relator only included principal
diagnosis bins where Baylor used the Misstated
MCC code at two times the rate of comparable hospitals or at least three percentage points of the
entire patient population higher. A lower threshold
could have been used and would result in higher
damages. Additionally, Relator only considered
claim groupings where there was less than a onein-a-thousand chance that the difference in major
complication rate at Baylor versus other hospitals
was due to random causes.
108. Second, Relator’s damage calculation is
based on comparing Baylor to all other inpatient
hospitals. To the extent other hospitals are engaging in the same fraudulent activity, it would make
Baylor’s actions seem relatively normal and would
thus lead to a lower damage estimate.31 Indeed it is
31
As an example, the comparison set of hospitals includes
Prime Healthcare Services, Inc., which is currently being
sued by the US Department of Justice under the False Claims

139a
overly conservative to compare Baylor’s fraudulent
behavior to other hospitals also engaging in the
same fraudulent activity; therefore Relator also
undertook a different methodology to identify hospital systems based on the amount of fraudulent
activity they have among all of their claims. If
Relator were to remove from comparison the top
third of hospital systems identified to have excessively billed Medicare and re-run the bin-based
regression analysis, damages would total $72 million.
109. Relator’s consideration of other possible
explanations, such as claim characteristics, patient
characteristics, and doctor practices, demonstrates
that the excessive coding of Misstated MCCs is due
to system-wide practices in place at Baylor.
Additionally, the extremely high levels of statistical significance of the analyses across a variety of
comparative settings indicate a nearly impossible
probability that the practices are due to random
chance. Relator’s damages estimate of $61.8 million due to Baylor’s fraudulent upcoding is conservative and the estimate is robust when controlling
for a variety of factors.

Act. See https://www.justice.gov/opa/pr/united-states-intervenesfalse-claims-act-lawsuit-against-prime-healthcare-servicesinc-and.

140a
V. CAUSES OF ACTION
COUNT ONE
Violation of the Federal False Claims Act,
31 U.S.C. § 3729(a)
(Against All Defendants)
110. Relator repeats and realleges each and
every allegation contained above as if fully set
forth herein.
111. As described above, Defendants have submitted and/or caused to be submitted false or
fraudulent claims to Medicare by falsifying material information concerning patient diagnoses, complications, and comorbidities; and by failing to
report and return overpayments from Medicare
within the required time period.
112. Defendants, by the conduct set forth herein,
have violated:
a.

31 U.S.C. § 3729(a)(1)(A) by knowingly presenting, or causing to be presented, false or
fraudulent claims for payment or approval;
and/or

b.

31 U.S.C. § 3729(a)(1)(B) by knowingly
making, using or causing to be made or
used, a false record or statement material
to a false or fraudulent claim; and/or

c.

31 U.S.C. § 3729(a)(1)(G) by knowingly
making, using, or causing to be made or
used, a false record or statement material
to an obligation to pay or transit money or

141a
property to the government, or knowingly
concealing or knowingly and improperly
avoiding or decreasing an obligation to pay
or transmit money or property to the government.
113. The United States has suffered and continues to suffer damages as a direct proximate result
of Defendants’ false or fraudulent claims.
VI. PRAYER FOR RELIEF
WHEREFORE, Relator prays for relief and judgment, as follows:
(a) Defendants pay an amount equal to three
times the amount of damages the United States
has suffered because of Defendants’ actions, plus a
civil penalty against Defendants of not less than
$10,957 and not more than $21,916 for each violation of 31 U.S.C. § 3729;
(b) Relator be awarded the maximum amount
allowed pursuant to 31 U.S.C. § 3729(d);
(c) Relator be awarded all costs of this action,
including attorneys’ fees, expenses, and costs pursuant to 31 U.S.C. § 3730(d); and
(d) Relator and the United States be granted all
such other relief as the Court deems just and proper.

142a
VII. JURY TRIAL DEMANDED
Relator hereby demands a trial by jury.
DATED: August 7, 2018 Respectfully submitted,
/s/ P. Jason Collins
P. Jason Collins
jcollins@rctlegal.com
Jeremy H. Wells
jwells@rctlegal.com
Scotty G. Arbuckle, III
tarbuckle@rctlegal.com
Reid Collins & Tsai LLP
1301 S Capital of Texas Hwy
Building C, Suite 300
Austin, Texas 78746
T: 512.647.6100
F: 512.647.6129
Counsel for Relator
Integra Med Analytics LLC

143a
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
Case No.: 17-CV-0886-DAE
UNITED STATES OF AMERICA, ex rel.
INTEGRA MED ANALYTICS LLC,
Plaintiff,
v.
1. BAYLOR SCOTT & WHITE HEALTH,
2. BAYLOR UNIVERSITY MEDICAL CENTER – DALLAS,
3. HILLCREST BAPTIST MEDICAL CENTER,
4. SCOTT & WHITE HOSPITAL – ROUND ROCK,
5. SCOTT & WHITE MEMORIAL HOSPITAL – TEMPLE,
Defendants.
STIPULATION TO MAINTAIN
CONFIDENTIALITY OF THE UNREDACTED
SECOND AMENDED COMPLAINT
FILED UNDER SEAL
STIPULATION TO MAINTAIN
CONFIDENTIALITY OF THE UNREDACTED
SECOND AMENDED COMPLAINT
FILED UNDER SEAL
WHEREAS, on September 12, 2017, Integra Med
Analytics, LLC (“Relator”) initiated this action

144a
under the False Claims Act, 31 U.S.C. § 3729, et
seq., by filing its Original Complaint under seal;
W HEREAS , Relator filed its First Amended
Complaint under seal on April 19, 2018;
WHEREAS, on June 22, 2018, pursuant to the
Court’s docket text order of the same date, Relator
filed its First Amended Complaint with potential
personal identifying information redacted;
WHEREAS, on July 10, 2018, the Court unsealed
the redacted First Amended Complaint and gave
Relator authorization to serve the same on the
Defendants in this action (see Dkt. No. 13);
WHEREAS, on August 7, 2018, the Relator filed a
motion for leave to file its Second Amended
Complaint under seal, and publicly file a version of
the Second Amended Complaint with potential
personal identifying information redacted (“Motion
for Leave”);
WHEREAS, on August 8, 2018, the Court granted
the Motion for Leave;
WHEREAS, on August 8, 2018, Relator publicly
filed its redacted Second Amended Complaint;
WHEREAS, on August 10, 2018, Relator filed the
unredacted Second Amended Complaint under
seal;
W HEREAS , Defendants Baylor Scott & White
Health, Baylor University Medical Center – Dallas,
Hillcrest Baptist Medical Center, Scott & White
Hospital – Round Rock, and Scott & White

145a
Memorial Hospital – Temple (collectively, the
“Defendants”) wish to receive the unredacted version of the Second Amended Complaint;
WHEREAS, the Relator and the Defendants wish
to maintain the confidentiality of the potential personal identifying information in the unredacted
Second Amended Complaint;
Now, therefore, Relator and the Defendants, by
and through their respective counsel, hereby stipulate and agree that:
1. Relator will serve the Defendants with the
unredacted version of the Second Amended
Complaint;
2. Relator and the Defendants will maintain the
confidentiality of the unredacted version of the
Second Amended Complaint, and will not disclose
the same other than to their respective counsel;
3. Relator and the Defendants will protect the
potential personal identifying information redacted
from the public version of the Second Amended
Complaint in accordance with the Privacy Act of
1974 (5 U.S.C. § 522a), the Health Insurance
Portability and Accountability Act of 1996 Privacy
Rule (45 C.F.R. Parts 160 and 164), and any applicable state law.
IT

IS

SO STIPULATED

DATED: August 22, 2018

146a
BY:
/s/ P. Jason Collins
P. Jason Collins
jcollins@rctlegal.com
Jeremy H. Wells
jwells@rctlegal.com
Scotty G. Arbuckle, III
tarbuckle@rctlegal.com
REID COLLINS &
TSAI LLP
1301 S Capital of
Texas Hwy
Building C, Suite 300
Austin, Texas 78746
T: 512.647.6100
F: 512.647.6129
Counsel for Relator
Integra Med
Analytics LLC

/s/ Jeff Layne
Jeff Layne
jlayne@reedsmith.com
REED SMITH LLP
111 Congress Avenue,
Suite 400
Austin, Texas 78701
T: 512.623.1821
F: 512.623.1802
Counsel for Defendants
Baylor Scott & White
Health, Baylor University
Medical Center – Dallas,
Hillcrest Baptist Medical
Center, Scott & White
Hospital – Round Rock,
and Scott & White
Memorial Hospital –
Temple

147a
CERTIFICATE OF SERVICE
I hereby certify that, on August 22, 2018, the
foregoing document was served on the United
States in accordance with the Court’s Order dated
July 10, 2018.
/s/ P. Jason Collins
P. Jason Collins

148a
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
Case No.: 17-CV-0886-DAE
UNITED STATES OF AMERICA, ex rel.
INTEGRA MED ANALYTICS LLC,
Plaintiff,
v.
1. BAYLOR SCOTT & WHITE HEALTH,
2. BAYLOR UNIVERSITY MEDICAL CENTER – DALLAS,
3. HILLCREST BAPTIST MEDICAL CENTER,
4. SCOTT & WHITE HOSPITAL – ROUND ROCK,
5. SCOTT & WHITE MEMORIAL HOSPITAL – TEMPLE,
Defendants.
ORDER GRANTING STIPULATION
TO MAINTAIN CONFIDENTIALITY
OF THE UNREDACTED
SECOND AMENDED COMPLAINT
Upon consideration of the Stipulation to Maintain Confidentiality of the Unredacted Second
Amended Complaint (the “Stipulation”) agreed to
by Integra Med Analytics LLC (the “Relator”) and
Defendants Baylor Scott & White Health, Baylor
University Medical Center – Dallas, Hillcrest
Baptist Medical Center, Scott & White Hospital –

149a
Round Rock, and Scott & White Memorial Hospital
– Temple (the “Defendants”),
IT IS HEREBY ORDERED that the Stipulation is
granted:
1. Relator will serve the Defendants with the
unredacted version of the Second Amended Complaint;
2. Relator and the Defendants will maintain the
confidentiality of the unredacted version of the Second Amended Complaint, and will not disclose the
same other than to their respective counsel;
3. Relator and the Defendants will protect the
potential personal identifying information redacted
from the public version of the Second Amended
Complaint in accordance with the Privacy Act of
1974 (5 U.S.C. § 522a), the Health Insurance Portability and Accountability Act of 1996 Privacy Rule
(45 C.F.R. Parts 160 and 164), and any applicable
state law.
IT

IS

SO ORDERED

Signed this 23rd day of August, 2018
/s/
DAVID A EZRA
HON. DAVID A EZRA
UNITED STATES DISTRICT JUDGE

